<html>
<title> - EXAMINING THE HUMAN HEALTH EFFECTS OF ASBESTOS AND THE METHODS OF MITIGATING SUCH IMPACTS</title>
<body><pre>[Senate Hearing 110-1096]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 110-1096

   EXAMINING THE HUMAN HEALTH EFFECTS OF ASBESTOS AND THE METHODS OF 
                        MITIGATING SUCH IMPACTS

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
         committee.action?chamber=senate&committee=environment

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
61-969 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 12, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     5
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     6
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     8
Baucus, Hon. Max, U.S. Senator from the State of Montana.........   213

                               WITNESSES

Murray, Hon. Patty, U.S. Senator from the State of Washington....     9
    Prepared statement...........................................    12
Weissman, David N., M.D., Director, Division of Respiratory 
  Disease Studies, National Institute for Occupational Safety and 
  Health, Centers for Disease Control and Prevention, U.S. 
  Department of Health and Human Services........................    23
    Prepared statement...........................................    25
    Responses to additional questions from Senator Boxer.........    30
Miller, Captain Aubrey, M.D., M.P.H., U.S. Public Health Service, 
  Region 8, U.S. Environmental Protection Agency.................    31
    Prepared statement...........................................    33
Marty, Melanie, Ph.D., chief, Air Toxicology and Epidemiology 
  Branch, California Environmental Protection Agency, Office of 
  Environmental Health Hazard Assessment.........................    37
    Prepared statement...........................................    39
Castleman, Barry, Sc.D., Environmental Consultant................    65
    Prepared statement...........................................    66
    Responses to additional questions from:
        Senator Boxer............................................    71
        Senator Inhofe...........................................    74
Wylie, Ann G., Ph.D., Professor of Geology, University of 
  Maryland.......................................................    84
    Prepared statement...........................................    84
    Response to an additional question from Senator Inhofe.......    90
Weill, David, M.D., Associate Professor, Division of Pulmonary 
  and Critical Care Medicine, Stanford University Medical Center, 
  Stanford, CA...................................................    91
    Prepared statement...........................................    93
    Responses to additional questions from Senator Inhofe........    96
Lemen, Richard A., Ph.D., M.S.P.H., former director, Division of 
  Standards Development and Technology Transfer, Assistant 
  Surgeon General, U.S. Public Health Service (Retired), Rear 
  Admiral, U.S. Public Health Service (Retired)..................    96
    Prepared statement...........................................    98
Reinstein, Linda, executive director and co-founder, Asbestos 
  Disease Awareness Organization.................................   169
    Prepared statement...........................................   170
    Response to an additional question from Senator Boxer........   190

                          ADDITIONAL MATERIAL

Article, Responding to a Harsh Business Environment: A New 
  Diaphragm for the Chlor-Alkali Industry........................    16
Survey, 2005 Minerals Yearbook, Asbestos, U.S. Geological Survey.    44
Letters:
    El Dorado County Office of Education, Vicki L. Barber., 
      Ed.D., Superintendent...................................... 58-64
    Signatory Groups in the United States.......................176-189
    Other Groups................................................190-204

 
   EXAMINING THE HUMAN HEALTH EFFECTS OF ASBESTOS AND THE METHODS OF 
                        MITIGATING SUCH IMPACTS

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, the Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Carper, Lautenberg, 
Isakson, Vitter, and Klobuchar.
    Also present, Senator Murray.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The committee will come to order. We welcome 
Senator Patty Murray.
    Senator Murray, I want to congratulate you on your 
leadership on this issue. I also want to say, I know Senator 
Isakson has been working closely with you and I want to thank 
him for trying to reach some agreement on your bill. This is an 
important hearing for millions of Americans who have been 
exposed to asbestos, for their families and especially for the 
thousands of American families who have lost family members to 
asbestos-related lung disease and cancer.
    Millions of Americans are still being exposed to asbestos 
today. If we don't act, countless more people will get sick and 
die in the future.
    Your legislation, Senator, the Ban Asbestos in America Act 
of 2007, would place the United States clearly on the side of 
protecting the health of the public from this dangerous 
substance. It would ban nearly all uses of asbestos in 
products. I am proud to be an original co-sponsor of this bill, 
as is Senator Baucus, who you know has had so many issues with 
asbestos in the town of Libby, MT.
    We must take every reasonable step we can to end exposure 
to asbestos, when we see our fathers, mothers, sisters and 
brothers dying from asbestos. There is no justification for 
allowing the number of dead to continue to mount. Just this 
past year, we lost a Congressman, we lost Eli Segal, who was 
exposed at a very young age to asbestos. This is a deadly 
situation.
    Asbestos fibers can be 1,200 times smaller than a human 
hair. These microscopic fibers can stay invisible and suspended 
in the air for days. People, including children, can breathe 
these fibers deep into their lungs, where they cause their 
damage. We see the results of this in communities across our 
country.
    This nationwide, actually worldwide tragedy, has hit my 
State of California especially hard. According to the National 
Institute of Occupational Safety and Health, or NIOSH, between 
1993 and 2002, more than 1,000 people died from asbestosis 
caused by exposures at their work. From 1999 to 2002, NIOSH 
reports 1,001 people died from mesothelioma, a rare cancer and 
deadly cancer generally caused by asbestos. These figures do 
not include the deaths from lung cancer and other diseases that 
asbestos can cause, or the deaths that the Government tracking 
system may have missed.
    The deaths of hard-working people exposed to asbestos at 
their work only tell part of the story. Workers can take 
asbestos into their homes on their clothes. After a hard day at 
work, they go home and hug their children or sit with their 
families at the dinner table. Their spouses may handle their 
asbestos-laden clothes. Nobody can see the fibers, but they can 
still kill.
    We have a picture here of Rebecca Martinez. She lived in 
Baldwin Park, CA. This is a picture of Rebecca Martinez. 
Margarito Martinez lived in Baldwin Park, CA with his wife of 
39 years, Rebecca, pictured here on the right. Margarito worked 
as a plasterer, and Rebecca would clean his asbestos-covered 
clothes when he came home, breathing in the dust as she shook 
them out and did the laundry. They say they were never warned 
about the dangers of asbestos.
    Rebecca was diagnosed with the deadly cancer mesothelioma 
in 2002. She died 4 months later.
    Now we have a picture of Georgina Bryson. She lived in 
Riverside, CA when she died of mesothelioma. From 1962 until 
1980, Georgina lived downwind from two cement companies that 
used asbestos to manufacture their products. She was also 
exposed to asbestos when she lived with her dad, who worked 
with gaskets that contained asbestos. She was only 40 years old 
when she died from mesothelioma.
    I have a picture of a lung damaged by mesothelioma, just 
one of a number of devastating diseases caused by asbestos.
    Despite all of this death, we continue to allow the 
importation and use of asbestos and products that contain 
asbestos. What is interesting about it, Senator Murray, you 
know this as well as I, people think we have already banned 
asbestos. But we continue importing it.
    World production of asbestos actually increased in 2005, 
from 2.36 million metric tons in 2004, to 2.40 million metric 
tons in 2005. In the United States, we imported 2,530 metric 
tons of asbestos, and we imported more than 90,000 metric tons 
of products that may contain asbestos, products like cement and 
gaskets, as well as brakes and clutch parts for autos. Even the 
Environmental Protection Agency acknowledges that people who 
work on cars should be careful because of the danger of 
breathing in asbestos.
    The good news is that there are safer alternatives to 
asbestos that are available today. Because of this and the 
continuing risks to people's health, many nations have adopted 
bans on asbestos. Countries that have banned or phased out 
asbestos, we have a chart, I won't read it, but it is available 
for everyone to see, how many countries have banned asbestos. 
Due to the on-going dangers of using asbestos, the WHO reports 
that more than 40 countries have banned or are phasing out the 
use of asbestos. I believe the United States should squarely 
address the problem. That is why, again, I am so proud to be a 
sponsor of Senator Murray's bill, S. 742.
    In scores of nations, products that used to be made with 
asbestos now are being made without it. I have great faith in 
American ingenuity, and I strongly believe that these products 
can be made here from safer materials as well. This hearing's 
focus is clear. It is on people, and the terrible price they 
continue to pay because asbestos is being used, despite the 
availability of safer alternatives.
    Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    The health effects of exposure to certain kinds of asbestos 
are well-known and tragic. As you pointed out, I don't know 
that there is any debate there, in fact, there is no doubt. 
This is why the United States has essentially eliminated the 
use of most dangerous forms of asbestos, and our use of other 
forms is severely limited to those critical areas for which 
there is no readily available substitute. It is also why 
bipartisan language to ban asbestos has been included in the 
bills in the last two Congresses.
    It may sound simplistic, but the debate is not over true 
asbestos minerals and their health effects. That has been 
extensively studied and we now have an entire legal liability 
system built around it. But rather, any debate here, if there 
is one, has to do with the potential effects of other types of 
minerals. These non-asbestiform minerals have the same chemical 
makeup as asbestos but have entirely different physical 
structures, similar to coal and diamonds or water and ice.
    However, our primitive analytical techniques used for 
indoor remediation of commercially produced asbestos falsely 
identifies these rocks as asbestos. In fact, the U.S. 
Geological Survey said that, ``The counting criteria developed 
for analysis of asbestos in the workplace or in commercial 
products may not be appropriate for direct application to what 
is currently referred to as naturally occurring asbestos.'' Let 
me show you what I mean. Put that chart up that has the rocks.
    As you can plainly see, dangerous asbestos minerals consist 
of fibers that are long, skinny, very flexible. That would be 
columns 1 and columns 3. Research has shown that these fibers 
are hard for the human lung to eliminate. They essentially get 
trapped in the lung, sometimes causing disease decades after 
the initial exposure.
    Non-asbestiform minerals, these rocks here, that is columns 
2 and 4, break up into particles called cleavage fragments, 
which are short, fat and bulky. Studies have shown that these 
cleavage fragments do not pose the same health risks as the 
fibrous asbestos counterparts.
    We do not know if these non-asbestiform minerals have 
specific health risks, but yet they are regulated currently as 
airborne particle by the U.S. EPA, OSHA and the Mineral Safety 
and Health Administration, thereby protecting against 
occupational exposure. But what we do know is that these 
cleavage fragments do not cause the same diseases as asbestos. 
Therefore, they must be treated differently. It should be noted 
that the National Institute of Occupational Safety and Health 
has recently begun an effort to collect and analyze available 
data on asbestos and other materials. Other agencies are 
working on this, too, including the EPA, OSHA, Mining Safety 
and Health Administration, Agency for Toxic Substance and 
Disease Registry, and the U.S. Geological Survey.
    The previous bipartisan language to ban asbestos recognizes 
these fundamental mineralogical and medical differences, and 
banned the true culprit. Despite the fact that this language 
was not debated here in the Environment and Public Works 
Committee, as it should have been, I have never stood in the 
way of the substance of that language as it represented a 
carefully constructed agreement providing a process for 
critical use exemptions and was scientifically sound with 
respect to the mineralogy of asbestos.
    The ban language was supported by the affected industries 
and negotiated with Senator Murray and her staff and has held 
intact through two Congresses. Any legislation that comes 
through this committee in this Congress should do the same 
thing.
    So I guess what we really need to do is recognize that this 
is a different form and treat it differently, if our 
investigation warrants it. Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you Madame Chair for holding this hearing today.
    The health effects of exposure to certain kinds of asbestos are 
well known and tragic. Chest, lung and gastrointestinal cancers are 
horrible diseases. On that, there is very little debate. This is why 
the United States has essentially eliminated the use of the most 
dangerous forms of asbestos and our use of the other forms is severely 
limited to those critical uses for which there is no readily available 
substitute. That is also why bipartisan language to ban asbestos has 
been included in the bills addressing the asbestos liability situation 
in the last two Congresses.
    It may sound simplistic but the debate is not over true asbestos 
minerals and their health effects. That has been extensively studied 
and we have an entire legal liability system built around it. But 
rather, any debate here, if there is one, has to do with the potential 
health effects of other types of minerals. These non-asbestiform 
minerals have the same chemical makeup as asbestos but have entirely 
different physical structures. Similar to coal and diamonds or water 
and ice.
    However, our primitive, analytical techniques used for indoor 
remediation of commercially produced asbestos falsely identify these 
rocks as asbestos. In fact, the U.S. Geological Survey said that ``. . 
.the counting criteria developed for analysis of asbestos in the 
workplace or in commercial products may not be appropriate for direct 
application to what is currently referred to as naturally occurring 
asbestos.''
    Let me show you what I mean. (SEE EXHIBIT). As you can plainly see, 
dangerous asbestos minerals consist of fibers that are long, skinny, 
and very flexible. Research has shown these fibers are hard for the 
human lung to eliminate. They essentially get trapped in the lungs, 
sometimes causing diseases decades after the initial exposure. Non-
asbestiform minerals, these rocks here, break up into particles called 
cleavage fragments, which are short, fat and bulky. Studies have shown 
that these cleavage fragments do not pose the same health risk as their 
fibrous asbestos counterparts.
    We do not know if these non-asbestiform minerals have specific 
health risks but yet they are regulated currently as airborne particles 
by the U.S. EPA, OSHA and the Mining Safety and Health Administration, 
thereby protecting against occupational exposure. But what we do know 
is that these cleavage fragments do not cause the same diseases as 
asbestos and therefore, they must be treated differently. It should be 
noted that the National Institutes of Occupational Safety and Health 
has recently begun an effort to collect and analyze available data on 
asbestos and other minerals. Other agencies are working on this too, 
including EPA, OSHA, Mining Safety and Health Administration, the 
Agency for Toxic Substances and Disease Registry, and the U.S. 
Geological Survey.
    The previous bipartisan language to ban asbestos recognized these 
fundamental mineralogical and medical differences and banned the true 
culprit. Despite the fact that this language was not debated here in 
the Environment and Public Works Committee, as it should have been, I 
have never stood in the way of the substance of that language as it 
represented a carefully constructed agreement, provided a process for 
critical use exemptions, and was scientifically sound with respect to 
the mineralogy of asbestos. The ban language was supported by the 
affected industries and negotiated with Senator Murray and her staff 
and has held intact through two Congresses. Any legislation that comes 
through this committee in this Congress should do the same. I believe 
there is real potential here for bipartisan compromise if we don't go 
beyond what the science shows to be true.
    I look forward to hearing from the witnesses today and to further 
understanding the various minerals and the differences in their health 
effects.

    Senator Boxer. Thank you so much.
    Senator Lautenberg, you have 5 minutes.

 STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman.
    I commend you for holding this hearing and Senator Murray 
in particular for her aggressive action to try to get rid of 
this threat in our State and our communities.
    I have some degree of familiarity with problems with 
asbestos. When I went to high school in Patterson, New Jersey, 
a lot of the kids who I went to high school with worked in the 
asbestos factory, it was call Raybestos Manhattan. A friend 
mine, who spent 20 years practicing law after having been in 
high school, was called by a member of a union and asked if he 
had any x-rays of his chest in recent years. He said no, he 
hadn't. The fellow from the union suggested that he does that 
promptly because there have been signs of illness from people 
in that class group.
    Well, the story had a terrible ending, because my friend 
the lawyer was dead in a year from mesothelioma. When they took 
an x-ray, they found out that the asbestos had started the 
process of spoiling his health. The Chairman, Senator Boxer, 
talked about, showed pictures of a family that got sick from 
asbestos brought home in clothing. I met a family where the 
father worked for Johns Manville down in central New Jersey and 
would bring home his clothes for laundry. He came in with his 
son, who is about 30 years old, and the man's wife, and all 
three of them had asbestosis as a result of just cleaning his 
clothing.
    So we know the terrible toll that asbestos takes. With more 
than 2,000 Americans dying premature and painful deaths from 
exposure to asbestos. Needless to say, the consequence of this 
to these families is terrible, terrible, and to the people who 
were exposed. We have had enormous reluctance by the industry, 
any of the companies that we have had contact with, have fought 
fiercely to reduce any legislation that would impact the 
ability of those who work there to collect damages who worked 
in the asbestos factories and would do little if they weren't 
pushed to deal with the problem forthrightly.
    We went through a series here a few years ago where ads 
were run in the papers, Roll Call and the Washington papers, 
about stopping any legislation that would enable those who were 
rendered ill from having compensation. I picked up a piece of 
material that shows an exchange of letters in 1935, 1935, 
between Raybestos Manhattan and Johns Manville, alerting the 
companies, from a lawyer working for Johns Manville, to the 
concern about asbestos. In 1935, one letter says, ``After 
discussing the hazards of asbestos, as I see it personally, we 
would be just as well off to say nothing about it. I think the 
less said about asbestos, the better we are.'' Once again, 
October 1, 1935. That is a letter from one president, from the 
president of Raybestos Manhattan, to a Manville attorney.
    So we could continue with the exchange, but all of them 
suggest that they were fully aware of how dangerous asbestos 
was, and chose, like the tobacco companies with cigarettes way 
back in the 1930's, to ignore it and hope that the problem 
would go away.
    So thank you again, Senator Boxer, and you, Senator Murray, 
for your persistence here. I am glad to be a co-sponsor of your 
legislation. I hope we can get it through.
    [The prepared statement of Senator Lautenberg follows:]
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    Madam Chairman, thank you for holding today's hearing on the health 
effects of asbestos. Let me welcome Senator Murray to the committee and 
thank her for working to keep Americans safe from asbestos.
    Every year, more than two-thousand Americans die premature and 
painful deaths from exposure to asbestos. Their deaths leave children 
without parents, and families struggling to make ends meet.
    New Jersey has America's sixth-highest number of deaths from 
asbestos. From asbestos used in ship insulation at shipyards to 
asbestos used to insulate pipes at refineries and factories, at least 
two-thousand seven-hundred and seventy-five New Jerseyans died because 
of asbestos exposure from 1979 to 2001. Just last week, a school in 
Asbury Park was closed because part of the ceiling fell and asbestos 
was found. This toxin's presence in offices, schools and homes could 
pose health risks for years to come--ranging from breathing problems to 
lung damage and cancer.
    One of the leading researchers on the link between asbestos and 
lung disease was Dr. Irving Selikoff, who lived in New Jersey. Dr. 
Selikoff did his research on workers across my state, including those 
in my home town of Paterson. In 1979, Dr. Selikoff showed that one in 
five asbestos workers developed a fatal lung disease. Senator Murray's 
bill is a strategy for real action to reduce asbestos in the places we 
live and work.
    The bill will ban the use of asbestos to the maximum extent 
possible and benefit companies who are producing safer alternatives. It 
also calls for more research on the health affects of asbestos, as well 
as the best treatment options for asbestos-related illnesses and better 
coordination among federal agencies. Congress owes our children and 
grandchildren action now to protect them from asbestos in the future.
    I look forward to hearing the testimony of today's witnesses.
    Thank you Madam Chairman.

    Senator Boxer. Thank you, Senator.
    Senator Isakson.

 STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Isakson. Thank you, Madam Chairman. It is my 
privilege to serve as Ranking Member on the Occupational Safety 
Subcommittee of the Health Committee, which is chaired by 
Senator Murray.
    Over the course of, in particular the last 6 or 8 months, 
but over a number of years on Senator Murray's instigation, 
this issue has been brought forward. I want to commend her for 
both the intensity of her effort as well as her willingness and 
the willingness of her staff to work together to find common 
ground, which I think in large measure is about to take place. 
There have been a couple of issues in terms of the natural 
occurrence of asbestos and in terms of a reasonable transition 
out of asbestos and in terms of the couple of remaining uses 
that it has in the United States. Our staffs have talked and I 
have talked and have the greatest of respect for Senator 
Murray.
    So it is my belief that it is very important that this 
hearing take place today as sort of the foundation, hopefully, 
for a common sense agreement that reflects the majority of the 
Congress and the majority of American people and the majority 
of all those, the absolute majority of all those in health 
care.
    So I just want to commend Senator Murray, thank her for her 
willingness to work together. I look forward in the next few 
days ahead to trying to complete those negotiations to have a 
significant bill for this Senate to deal with very quickly.
    [The prepared statement of Senator Isakson follows:]
   Statement of Hon. Johnny Isakson, U.S. Senator from the State of 
                                Georgia
    Thank you Madam Chairman. I welcome Sen. Murray before the 
committee. I am pleased to work with her as her Ranking Member on the 
Subcommittee on Employment and Workplace Safety which she chairs in the 
HELP Committee. On March 1 of this year, we held a hearing on just this 
topic in the subcommittee, and I am pleased to be able to participate 
again in a hearing on this issue.
    Of course, there is no debate that certain forms of asbestos are 
toxic and deadly.
    Over the past 30 years, we have learned the sad truth that exposure 
to some airborne asbestos fibers pose potentially serious health risks. 
Continued exposure to airborne asbestos can increase the amount of 
fibers that remain in the lung. Once embedded in lung tissue, these 
fibers over time may cause serious lung diseases including asbestosis, 
lung cancer, or mesothelioma.
    As we will hear today, there are several kinds of asbestos. 
Different forms of asbestos pose different health risks. Any ban passed 
by Congress must recognize these differences.
    The EPA initially proposed a ban of most asbestos-containing 
products in the late 1970s. At the time, the U.S. consumed over 500,000 
tons of asbestos, about 7 percent of which was the very toxic amphibole 
asbestos.
    The rule was then struck down the 5th Circuit, because EPA had 
``failed to muster substantial evidence'' in support of the ban. The 
Court of Appeals remanded the matter back to EPA, demanding the Agency 
demonstrate that all asbestos poses an ``unreasonable risk'' to 
Americans.
    During the 1990s, the worldwide trade of the most hazardous form of 
asbestos, amphibole asbestos, ceased. Thus, this very toxic form of 
asbestos is no longer available to the United States. Essentially, 
there is a de facto ban on amphibole asbestos already in place.
    Today, asbestos is still used in the United States, albeit very 
sparingly. According to the U.S. Geological Survey, the U.S. consumes 
about 2,000 tons of chrysotile asbestos yearly, down from almost 
800,000 tons consumed in mid-1970s. Take note: consumption of asbestos 
decreased 99.75 percent without government fiat. Amphibole asbestos, 
the most dangerous kind, is not used. Chrysotile asbestos is used for 
three purposes only: roof coatings, NASA shuttle motor parts and 
specialized filters used in the manufacture of chlorine.
    Last Congress, I was happy to support Senator Specter and Leahy's 
``FAIR Act.'' As part of that important legislation, Senators Specter 
and Leahy included a workable, reasonable asbestos ban that recognized 
the important distinctions between various kinds of asbestos.
    In closing, there are many different kinds of asbestos. It comes in 
many different forms. There is room for bipartisan compromise on this 
issue, as Senators Specter and Leahy have demonstrated. I hope to work 
with all sides to resolve this issue.
    I yield my time.

    Senator Boxer. Senator, I just want to thank you so much 
for your positive attitude, and Senator Murray, too. Sometimes 
an author of the bill will just say, I have done all I can, I 
don't want to discuss it further. But Senator Murray was very 
open to your common-sense thoughts on this and I am very 
hopeful that we will have this agreement, we can have, I am 
just suggesting my dream ticket, of a Murray-Isakson bill. It 
would really be wonderful for this committee to take up such a 
bill.
    Senator Vitter.

STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Vitter. Thank you, Madam Chair. Thanks for this 
hearing and thanks also to Senator Murray for her leadership.
    I want to echo what so many folks have said. There is 
absolute consensus and unanimity about the deadly nature of 
asbestos. Certainly in most industrial uses in the past, the 
obvious example of these uses where you had airborne asbestos, 
which has killed thousands upon thousands of people. I look 
forward to legislation that builds on that clear consensus.
    I hope we focus in large part in this hearing on the more 
difficult issues, issues like brought up by Senator Inhofe in 
terms of different types of material, non-asbestos material on 
which there are different interpretations and rulings, even 
among Federal agencies.
    Second I want to bring up that I hope we can focus on and 
come to a good resolution on, based on sound science, and that 
is the use of asbestos in chlor-alkali production. I am very 
concerned that we might ban this completely, when the science 
does not justify it, because the chlor-alkali industry relies 
on technology that safely uses asbestos diaphragms. That is 
really for two reasons. One is the use of asbestos there is 
confined in asbestos diaphragms and produced in a continuous 
wet environment that remains in a closed process, so there is 
minimal to no release of asbestos and absolutely no worker 
exposure. So I think again, two things are significant: wet 
environment and completely closed process.
    Again, it is significant that this use in this production 
is also in accord with OSHA and EPA standards. This was 
specifically allowed in the final rules on this issue on 
asbestos from EPA in 1989.
    It is important to get this right and base whatever we do 
on sound science, because of the significant uses of this in 
this country. There are 16 chlor-alkali plants operating in 9 
States that rely on this technology, that is Louisiana, 
Alabama, Indiana, Kansas, Nevada, New York, Texas, West 
Virginia and Wisconsin. But it really goes well beyond that in 
terms of impact, because this provides critical benefits to 
society and the economy. Today, over 60 percent of U.S. 
chlorine production uses this technology. About 93 percent of 
pharmaceuticals sold in the United States rely on chlorine 
chemistry. So this has a major, major impact on society and the 
economy.
    Now, if this were harming people or potentially killing 
people, that would be the end of the argument, we should outlaw 
it. But there is no known case of asbestos-related disease from 
the chlor-alkali industry using this technology. So I hope in 
part our discussion can focus on that, so we delve into those 
details as we finalize a consensus on the issue.
    Thank you again, Madam Chair, for the hearing.
    Senator Boxer. Thank you.
    Senator Murray, we would love to hear from you for 10 
minutes.

STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR FROM THE STATE OF 
                           WASHINGTON

    Senator Murray. Thank you so much, Chairman Boxer, for 
holding this hearing and for your longstanding support of my 
efforts to ban asbestos in the United States. I want to thank 
all of our committee members who are co-sponsors, potential co-
sponsors. I especially want to recognize Senator Isakson and 
his staff, who have worked very long and hard with us to reach 
a consensus, which I hope we can do fairly quickly.
    I am very pleased as well to be here this morning with the 
distinguished group of witnesses that you have assembled for 
this hearing. I especially want to acknowledge the efforts of 
three of your witnesses: Dr. Barry Castleman, Dr. Dick Lemen 
and Linda Reinstein. Without their tireless work, we would not 
be where we are today, on the verge of finally protecting 
Americans from deadly asbestos.
    You have called this hearing to examine the health effects 
of asbestos and ways to minimize its harm. I have worked now on 
this issue for 6 years, and I can tell you, asbestos is deadly. 
It is devastating to families and communities. Every day that 
we wait to ban it we are sentencing more Americans to an early 
and avoidable death. Asbestos exposure, as studies show, kills 
up to 10,000 Americans each year. I want to take a minute to 
introduce you to two of them.
    This is Fred, his real name is George, but Fred Biekkola. 
He is from Michigan. Fred served in World War II, and for 
almost 30 years, he worked for a mining company in Michigan, 
where he was exposed to asbestos. Fred testified at my very 
first hearing on asbestos 6 years ago. I will never forget what 
he told us.
    He said, ``Senators, please make sure what happened to me 
won't happen to anyone else. Workers like me are counting on 
you to protect us. Please don't let us down.''
    Well, I am said to say that we have let Fred down. We 
didn't ban asbestos. We didn't warn the public. We didn't 
invest in research and treatment. Fred died of asbestos and 
mesothelioma on April 7, 2004.
    Sadly, Fred is not the only friend and advocate that I have 
now lost over the years because Congress has failed to act. 
This is Brian Harvey. He is a teacher from Marysville, WA. 
Brian stood by my side when I introduced my very first bill to 
ban asbestos back in July 2002. Now, most asbestos victims die 
within a year of being diagnosed.
    But amazingly, Brian stood with me and lived for 6 years. 
He knew he was living on borrowed time. So he told me he was 
using his time to help fight for others. He stood by my side 
again in 2004 at a press conference we held here to try and ban 
asbestos. Sadly, I lost Brian to this fight as well in July 
2005.
    Well, Fred and Brian aren't with us any more. But their 
words and their spirit hang over this hearing. As I said, it is 
estimated that up to 10,000 Americans die every year from 
asbestos-related causes. Now, I have been at this for 6 years. 
This is my third bill, and I know we can't wait another year to 
fix this problem, because the stakes are just too high. To 
anyone who says, we don't need this bill, I would pose one 
question: how many more Americans like Fred, like Brian, like 
the pictures you showed, Madam Chairwoman, how many more have 
to die before our Government finally does the right thing and 
bans asbestos? We have to do the right thing and we need to do 
it now.
    Now, as I look at this issue, four problems stand out. 
First, asbestos is deadly. It is so deadly that there is no 
known safe level of exposure. It only takes a tiny bit of fiber 
to cause disease.
    Second, asbestos is everywhere. It is put into consumer and 
industrial products on purpose every day.
    Now, my staff bought these brake pads in an automotive 
repair shop in my home State of Washington. They contain 
asbestos. They bought these off the shelf. It says on the sign, 
warning, contains asbestos. Brake pads like these are in tens 
of thousands of cars in this country today. Any time one of the 
cars with brake pads like this goes in for maintenance, a 
mechanic could unknowingly be exposed to deadly asbestos.
    Now, Madam Chairwoman, there are alternatives. These brake 
pads, which we also bought here, don't contain asbestos, and 
they work just as good as the ones that do. We should not keep 
selling asbestos products and putting workers and countless 
consumers at risk. Madam Chairwoman, there are thousands of 
other products that contain asbestos today in this country, 
floor tiles, roofing material, cement pipes and even hair 
dryers.
    Deadly asbestos is still putting construction and 
maintenance workers at risk. Today in this hearing room we have 
some of the workers who work in the tunnel of the Capitol 
Building, right below this room. They know asbestos exists, 
they have been exposed to it, and that is wrong. For them alone 
we should be doing a lot more. But the very least we can do is 
to ban asbestos so other workers are not put at risk as well.
    Third, we know asbestos is still legal. Now, many 
Americans, as you alluded to, assume as I did that asbestos has 
already been banned in this country. But it is not. In 1989, 
the EPA did try to ban asbestos. But most of those regulations 
were overturned by a court in 1991. As a result, while new 
applications for asbestos were banned, asbestos is still being 
imported and used in consumer and industrial products that are 
on our shelves today.
    Fourth, research and treatment for asbestos diseases is not 
very far along. Doctors have been hampered by a lack of funding 
for research on how asbestos fibers actually cause disease and 
what treatment strategies work best. Industrial hygienists have 
been hampered by lack of research on how to best measure 
asbestos fibers in the air.
    I know that the Mesothelioma Applied Research Foundation 
has privately awarded over $4 million in grants and their 
investment in research is helping to motivate brilliant 
investigators to study mesothelioma. But the foundation seed 
money is not enough. Federal funding is critical to the 
research effort if we truly are going to help people. That is 
why my bill requires collaboration among the 10 research and 
treatment centers established under the bill, along with the 
National Cancer Institute, the Department of Veterans Affairs 
and the National Institute for Occupational Safety and Health.
    Because nearly one-third of mesothelioma victims were 
exposed to asbestos while serving in the U.S. Navy, my bill 
directs the Pentagon to conduct additional research on asbestos 
disease, early detection and treatment as well. I am also very 
encouraged that NIOSH has embarked on an ambitious research 
road map to better answer current scientific questions about 
appropriate occupational levels of exposure.
    To address the national scourge of asbestos, I have again 
this year introduced the Ban Asbestos in America Act of 2007, 
S. 742. My bill basically does three things. First of all, it 
bans asbestos. It prohibits the importation, manufacture, 
processing and distribution of products containing asbestos. 
Unfortunately, some 2,500 metric tons of asbestos was used in 
the United States in 2005, and imports of products containing 
asbestos in cement pipe, tiles, brake gaskets and linings 
continue unabated today.
    Second, my bill dramatically expands research and treatment 
and creates a $50 million, 10-center Asbestos-Related Disease 
Research and Treatment Network. It creates a new National 
Asbestos-Related Disease Registry. And it supports research at 
the Department of Defense and launches a study to determine the 
most promising areas for new research.
    Third, my bill launches a very important public education 
campaign to better inform all Americans of the dangers of 
exposures to asbestos in the workplace and in the environment 
while also providing helpful steps so all of us can better 
protect our families.
    I know we can and we should be making progress in banning 
asbestos. As you stated, Madam Chairwoman, more than 40 other 
industrialized countries have already banned asbestos. Around 
the world, chlorine producers are phasing out dangerous and 
inefficient methods in favor of safer and more environmentally 
responsible technology. We need to help our U.S. companies 
embrace those new greener approaches today.
    I am also very grateful that industry leaders have stepped 
up to the plate to work with me in achieving a goal that 
everyone supports: a ban on the production and importation of 
asbestos in the United States. These corporate leaders also 
strongly support the need to better educate the public and to 
provide more for research and treatment dollars to better 
mitigate the effects of asbestos on workers and their families.
    I look forward to working with all of the members of this 
committee to achieve a bipartisan consensus on banning asbestos 
in the United States in this Congress. Chairwoman Boxer, I know 
this hearing will help us go a long way in achieving that goal, 
and I really want to thank you. We have lost enough people, 
Fred, Brian and others, and we have a responsibility to protect 
tens of thousands of people just like them. So thank you very 
much for this opportunity to testify and for your hearing on 
this important legislation. Thank you.
    [The prepared statement of Senator Murray follows:]
         Statement of Hon. Patty Murray, U.S. Senator from the 
                          State of Washington
    Thank you, Chairwoman Boxer, for convening this hearing and for 
your long-standing support of my efforts to ban asbestos in the United 
States.
    I'm so pleased to be here this morning with the distinguished group 
of witnesses you have assembled for this hearing.
    I especially want to acknowledge the efforts of three of your 
witnesses, Dr. Barry Castleman, Dr. Dick Lemen and Linda Reinstein. 
Without their tireless work, we would not be where we are today--on the 
verge of finally protecting Americans from deadly asbestos.
    You've called this hearing to examine the health effects of 
asbestos and ways to minimize its harm. I've worked on this issue for 6 
years, and I can tell you that
    <bullet> asbestos is deadly,
    <bullet> it's devastating families and communities,
    <bullet> and every day that we wait to ban it, we're sentencing 
more Americans to an early and avoidable death.
    Studies show that asbestos exposure kills up to 10,000 Americans 
each year. I want to introduce you to two of them.
    This is George ``Fred'' Biekkola from Michigan. Fred served in 
World War II.
    For almost 30 years, he worked for a mining company in Michigan, 
where he was exposed to asbestos. Fred testified at my first hearing on 
asbestos 6 years ago. I'll never forget what he told us. He said:

    ``Senators, please make sure that what happened to me won't happen 
to anyone else. . . . Workers like me are counting on you to protect 
us. Please don't let us down.''

    I'm sad to say that we let Fred down. We didn't ban asbestos. We 
didn't warn the public. And we didn't invest in research and treatment. 
Fred died of asbestosis and mesothelioma on April 7, 2004.
    Sadly, Fred is not the only advocate we've lost over the years 
because Congress has failed to act.
    This is Brian Harvey, a teacher from Marysville, Washington. Brian 
stood by my side as I introduced my first bill to ban asbestos in July 
2002.
    Most asbestos victims die within a year of being diagnosed. 
Amazingly, Brian lived for 6 years. He knew he was living on borrowed 
time, so he used his time to fight for others. He stood by my side 
again in 2004 at another press conference, but sadly Brian died in July 
of 2005.
    Fred and Brian are not with us, but their words hang over this 
hearing.
    As I mentioned, it's estimated that each year, up to 10,000 
Americans die every year from asbestos-related causes. I've been at 
this for 6 years, this is my third bill, and I know we cannot wait 
another year to fix this problem. The stakes are just too high.
    To anyone who says, ``We don't need this bill,'' I would just pose 
one question:
    <bullet> ``How many more Americans have to die before our 
government finally does the right thing and bans asbestos?''
    We have to do the right thing, and we have to do it now. As I look 
at this issue, four problems stand out.
    1. Asbestos is Deadly
    First, asbestos is deadly. It's so deadly that there is no known 
safe level of exposure. It only takes a tiny bit of fiber to cause 
disease.
    2. Asbestos is Widespread
    Second, asbestos is everywhere. It's put into consumer and 
industrial products on purpose every day.
    My staff bought these brake pads in an automotive repair store in 
my home state. They contain asbestos. Brake pads like these are on tens 
of thousands of cars. Anytime one of those cars goes in for 
maintenance, a mechanic could be unknowingly exposed to deadly 
asbestos. Fortunately, there are alternatives.
    These brake pads are made without asbestos, and they work just as 
well. We shouldn't keep selling asbestos products and putting workers 
and countless consumers at risk. There are thousands of other products 
that contain asbestos including floor tiles, roofing material, cement 
pipes, and even hair dryers. And deadly asbestos is still putting 
construction and maintenance workers at risk. Below this hearing room 
and under the Capitol there are tunnels where we know asbestos exists 
and workers have been exposed.
    3. Asbestos is Still Legal
    Third, asbestos is still legal. Many Americans assume--as I did--
that asbestos is already banned, but it's not. In 1989, the EPA tried 
to ban asbestos, but most of those regulations were overturned in court 
in 1991. As a result, while new applications for asbestos were banned, 
asbestos is still being imported and used in consumer and industrial 
products.
    4. Strong Need for Research and Treatment
    Fourth, research and treatment for asbestos diseases are not very 
far along. Doctors have been hampered by a lack of funding for research 
on how asbestos fibers actually cause disease and what treatment 
strategies work best. Industrial hygienists have been hampered by the 
lack of research on how to best measure asbestos fibers in the air.
    I know that the Mesothelioma Applied Research Foundation (MARF) has 
privately awarded over $4 million in grants.
    The Foundation's investment in research is helping motivate 
brilliant investigators to study mesothelioma. But the Foundation's 
seed money is not enough. Federal funding is critical to the research 
effort if we are truly going to help people.
    My bill also requires collaboration among the 10 research and 
treatment centers established under the bill along with the National 
Cancer Institute, the Department of Veterans Affairs and the National 
Institute for Occupational Safety and Health (NIOSH).
    Because nearly one-third of mesothelioma victims were exposed to 
asbestos while serving in the U.S. Navy, my bill directs the Pentagon 
to conduct additional research on asbestos disease, early detection and 
treatment as well.
    I am very encouraged that the NIOSH has embarked on an ambitious 
research roadmap to better answer current scientific questions about 
appropriate occupational levels of exposure.
                the ban asbestos in america act of 2007
    To address the national scourge of asbestos, I've again introduced 
the Ban Asbestos in America Act of 2007 (S. 742).
    My bill does three things:
    First, my bill bans asbestos. It prohibits the importation, 
manufacture, processing and distribution of products containing 
asbestos. Unfortunately some 2,500 metric tons of asbestos was used in 
the U.S. in 2005 and imports of products containing asbestos in cement 
pipe, tiles, brake gaskets and linings continue unabated today.
    Second, my bill dramatically expands research and treatment. It 
creates a $50 million, 10-center ``Asbestos-Related Disease Research 
and Treatment Network.'' It creates a new National Asbestos-Related 
Disease Registry. It supports research at the Department of Defense and 
launches a study to determine the most promising areas for new 
research.
    Finally, my bill launches a public education campaign to better 
inform Americans of the dangers of exposures to asbestos in the 
workplace and in the environment, while also providing helpful steps 
all of us can take to better protect our families.
             other countries are protecting their citizens
    I know we can and should make progress in banning asbestos. More 
than 40 other industrialized countries have already banned asbestos. 
Around the world, chlorine producers are phasing out dangerous and 
inefficient methods in favor of safer and more environmentally 
responsible technology. We need to help U.S. companies embrace new, 
greener approaches today.
    I am very grateful that industry leaders have stepped up to the 
plate to work with me in achieving a goal everyone supports--a ban on 
the production and importation of asbestos in the U.S.
    These corporate leaders also strongly support the need to better 
educate the public and to provide for more research and treatment 
dollars to better mitigate the effects of asbestos on workers and their 
families.
    I look forward to working with all of the Members of the 
Environment and Public Works Committee to achieve a bipartisan 
consensus on banning asbestos in the U.S. in this Congress. Chairwoman 
Boxer, I know this hearing will go a long way in helping us achieve 
that goal.
    We've lost enough people like Brian and Fred, and we have a 
responsibility to protect tens of thousands of people just like them.
    Thank you again for the opportunity to testify.

    Senator Boxer. Senator Murray, thank you once again for 
your testimony.
    I don't have any questions for you, I just want to tell you 
my intent as Chair, and I think Senator Inhofe knows this, is 
to really move this bill as quickly as I can, with the great 
hope that you and Senator Isakson can reach an accord. I think 
it would be a proud day for this committee, and I think it 
would be a proud day for the Senate if we finally did something 
that frankly most Americans think we have already done in the 
past, and do it in a wise way and make a statement to all those 
people out there who have lost loved ones and those who fear 
for the future that we are relevant to their lives. And we are 
going to do this.
    So I don't have any questions. I guess I have one. Are you 
ready to work with us to get this bill to the floor, for as 
long as it takes?
    Senator Murray. I am ready to go. I again want to thank 
Senator Isakson and his committee staff for working with us on 
this.
    Senator Boxer. Very good.
    Senator Isakson, do you have any questions for Senator 
Murray?
    Senator Isakson. Just to thank her for her diligence and 
hard work and courtesy to me and my staff. I think we can put 
this together quite quickly.
    Senator Boxer. Senator Lautenberg, any questions?
    Senator Lautenberg. Just to commend Senator Murray for, as 
I said before, her persistence in doing this, and alerting the 
country to the danger of this product, and to take it away as 
quickly as we can, so that people aren't exposed to it. My 
congratulations.
    Senator Boxer. Senator Vitter.
    Senator Vitter. I would just ask Senator Murray her 
thoughts on the chlor-alkali issue in particular and where you 
are perhaps with Johnny and others on discussion of that aspect 
of the bill.
    Senator Murray. Senator Vitter, as you know, a number of 
the chlorine producers are coming up with alternative methods. 
Part of our bill hopes to help provide support for them to do 
that.
    But I think the important thing in our bill that will help 
everyone is that not enough research has been done. Senator 
Inhofe mentioned a number of different fibers that people don't 
know enough about. We want to make sure that we do the right 
thing. That is why the research that is part of this bill is 
absolutely critical.
    You mentioned a number of times that it is important to be 
science-based. If you don't have the science, it is very 
difficult to make a decision. Meanwhile, people are dying 
because we are not doing the right thing. So I think that you 
will be satisfied that Senator Isakson has addressed a number 
of those issues that you raise concerns about.
    Senator Vitter. As that science is being done or whatever 
you are describing, would use of asbestos in chlor-alkali 
production under the parameters I was describing, with the 
process fully enclosed, no humans in contact, would that be 
allowed or not?
    Senator Murray. Let me refer to my staff on the latest 
reiteration of the language that we have been working with. 
Perhaps we can have my staff work with yours as we are working 
through the committee process and get you an answer so we are 
all accurate.
    Senator Vitter. OK.
    Senator Boxer. Let me say, Senator Vitter, if I might have 
your attention for a second, Senator Murray, I know Senator 
Murray's staff has been meeting with Dow and others to see if 
there is a way to do this right. I wanted to place into the 
record, without objection, an article, Responding to A Harsh 
Business Environment: a New Diaphragm for the Chlor-alkali 
Industry. It talks about a new industry, PPG Industries has 
responded by developing a new separator for its diaphragm cells 
operating at its plants at Natrium, West Virginia and Lake 
Charles, LA. The new separator is asbestos-free, energy 
efficient and durable. The new separator is named Tephram.
    In any case, I am going to put this into the record for you 
to read.
    [The referenced material follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Boxer. As usual, the entrepreneurship spirit has 
kicked in here, and there are alternatives coming. So I would 
love to share this with you.
    Senator Vitter. I have looked at many things like that and 
I would love to read that. I guess the question in my mind is 
not, is there an alternative. The first question is, is there a 
safety issue and if there is, we need to do something about it. 
But if there is not, then we need to think.
    Senator Boxer. A safety issue with the alternative?
    Senator Vitter. No, with the use of asbestos in chlor-
alkali production under an enclosed, wet process.
    Senator Murray. I believe you have a number of witnesses 
who will be able to help you answer that question.
    Senator Vitter. OK. Because I am not aware of any known 
cases of asbestos-related disease from that. If there is a 
safety issue, great.
    Then the second question is, certainly there are 
alternatives. At what cost?
    Senator Boxer. Senator Vitter, I think we will explore this 
in the next panels. My understanding is that there is a danger 
if bags rip and you have to clean up the asbestos, so it is not 
as clean as one would think. Certainly this is something that 
Senator Murray is trying to work on. If we can find 
alternatives, we ought to encourage alternatives. That is for 
sure.
    OK, why don't we call up our next panel. Senator Murray, we 
thank you very much. We will let you know how the rest of the 
hearing went.
    David Weissman, M.D., Director, Division of Respiratory 
Diseases at National Institute for Occupational Safety and 
Health; Captain Aubrey Keith Miller, M.D., Senior Medical 
Officer, Toxicologist, U.S. Public Health Service and 
Environmental Protection Agency; Melanie Marty, Ph.D., Chief 
Air Toxicology and Epidemiology Branch, California EPA, Office 
of Environmental Health Hazard Assessment.
    So we welcome you to panel one. Your titles are very 
impressive and we welcome you here. Dr. Weissman, from NIOSH, 
why don't you begin? We will give you 5 minutes.

  STATEMENT OF DAVID N. WEISSMAN, M.D., DIRECTOR, DIVISION OF 
      RESPIRATORY DISEASE STUDIES, NATIONAL INSTITUTE FOR 
OCCUPATIONAL SAFETY AND HEALTH, CENTERS FOR DISEASE CONTROL AND 
    PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Weissman. Thank you. Madam Chair, members of the 
committee, thank you for giving me the opportunity to testify 
today. My name is David Weissman, and I direct the Division of 
Respiratory Disease Studies in the National Institute for 
Occupational Safety and Health, NIOSH.
    For the last 21 years, I have been a pulmonary disease 
physician, serving in both academic medical centers and in 
Government. When asked to testify, I couldn't help but think of 
a colleague who recently died of mesothelioma. He was a very 
distinguished physician whose only known exposure to asbestos 
was as a college student during a summer job. Forty years 
later, he developed mesothelioma and died at the age of 62.
    In my oral comments today, I will focus on three of the 
issues addressed in the written testimony. First, I will 
describe the continued burden of asbestos-related diseases in 
the United States. Second, I will mention several issues 
relevant to prevention efforts in the occupational setting. 
Finally, I will address NIOSH's efforts to identify key 
research needs and strategies to address them as described in 
the draft NIOSH Road Map document.
    A substantial number of people still die from asbestos-
related disease in our country. Asbestosis deaths increased 
almost 20-fold from the late 1960s to the late 1990s and have 
plateaued since the year 2000 at about 1,500 per year. By 
contrast, mesothelioma deaths since 1999 have increased each 
year, up to 2,657 deaths in 2004, the most recent year for 
which we have data.
    It should be noted that because the latency between 
exposure and disease onset is so long, current disease, to a 
large degree, reflects past exposures. Asbestos usage, as we 
have heard, hasn't been completely eliminated. Although 
domestic production of asbestos has ceased and importation of 
raw asbestos fibers has markedly declined, finished asbestos-
containing products continue to be imported into the United 
States.
    Asbestos-related diseases can be prevented by eliminating 
or limiting exposures to asbestos. The OSHA Permissible 
Exposure Limit, or PEL, for asbestos is 0.1 fibers per cubic 
centimeter of air. This limit was set in part based on the 
limit of detection of the exposure assessment method, a light 
microscopic method called phase contract microscopy, or PCM. 
Exposure limits are usually set to reduce risk associated with 
exposures to a level at or below 1 per 1,000 working lifetimes 
with exposure every day over the working lifetime. Over such a 
working lifetime, exposure at the asbestos PEL is estimated to 
be associated with excess risk of cancer of 3.4 per 1,000, an 
excess risk of asbestosis of 2.5 per 1,000.
    A major recent NIOSH effort has been the development of a 
draft road map document that details key scientific issues in 
asbestos and identifies research directions. One key question 
is which minerals should be treated as asbestos. Most 
regulatory definitions of asbestos do not explicitly include 
fibers of minerals such as winchite, richterite and erionite, 
despite their known similar health effects to asbestos.
    In addition, significant controversy exists regarding other 
types of mineral particles that have the dimensions of fibers. 
For example, El Dorado, CA, is a site with natural mineral 
deposits that have been disturbed by construction and crushing 
of rock. Analyses of air and rock samples have identified 
structures called acicular actinolite. These particles have a 
different crystalline structure from that of fibrous actinolite 
asbestos. Research is needed to be better characterize their 
toxic potential.
    Asbestos minerals have analogs that are crystallized in 
non-asbestiform or massive forms. A controversial type of 
mineral particle that we have heard about is the cleavage 
fragment, which can be generated from massive forms during 
their handling, crushing or processing, as occurs in mining and 
construction. Using current analytical methods, these cleavage 
fragments are often microscopically indistinguishable from 
asbestos fibers of asbestos mineral counterparts.
    Another key question is whether the specified dimensions of 
asbestos fibers are appropriate. Currently, a mineral particle 
is detected by PCM and counted as a fiber if it has a length to 
width or aspect ratio of 3:1 and a length of at least microns. 
These counting rules include particles with diameters greater 
than 3 microns, which are unlikely to reach the airways or gas-
exchange regions of the lung.
    Also, PCM can't detect particles with diameters less than 
.25 microns, which although not visible by PCM are capable of 
causing harm. Finally, although longer fibers have been 
associated with greater potential for carcinogenicity, studies 
of fibers deposited in human tissues suggest that fibers less 
than 5 microns in length may also contribute to human disease, 
including cancer.
    In order to address these questions, NIOSH has put forth a 
draft document called the Roadmap. It is developing a range of 
partnerships to address the goals in the Roadmap, including 
with other Federal agencies, labor, industry, academia and 
interested parties.
    To summarize, asbestos-related diseases continue to be an 
important problem. Fortunately, much progress has been made. 
However, there is room to do better and several key issues 
remain to be fully addressed.
    Thank you for the opportunity to testify today. I would be 
happy to answer any questions.
    [The prepared statement of Dr. Weissman follows:]
Statement of David N. Weissman, M.D., Director, Division of Respiratory 
Disease Studies, National Institute for Occupational Safety and Health, 
 Centers for Disease Control and Prevention, U.S. Department of Health 
                           and Human Services
    Madam Chair and members of the committee, I am Dr. David Weissman, 
and I direct the Division of Respiratory Disease Studies in the 
National Institute for Occupational Safety and Health (NIOSH), a part 
of the Centers for Disease Control and Prevention (CDC) within the 
Department of Health and Human Services (HHS). NIOSH is the federal 
agency responsible for conducting research and making recommendations 
to identify and prevent work-related illness and injury. I am also a 
pulmonary diseases physician, and over the last 20 years have seen 
firsthand the human suffering caused by asbestos. Thank you for the 
opportunity to provide testimony on the health effects of asbestos and 
efforts by NIOSH to address this important problem.
    My testimony today will address current scientific knowledge about 
the health risks posed by exposure of workers to airborne asbestos. I 
will also provide an update on NIOSH's recent activities in this area, 
including NIOSH efforts to define key areas for research as described 
in the draft NIOSH document released in February for public comment, 
Asbestos and Other Mineral Fibers: A Roadmap for Scientific Research.
                               background
    Asbestos is a term that is generally used to refer to a group of 
fibrous silicate minerals with exceptional resistance to degradation by 
heat, acids, bases, or solvents. The minerals are not combustible and 
have a high melting point and low thermal and electrical conductivity. 
Their fibers can be woven or incorporated into other materials. These 
and other useful properties resulted in their widespread commercial 
application during much of the 20th century. Unfortunately, widespread 
use of asbestos was followed by a marked increase in asbestos-related 
disease.
    The definition of asbestos in many Federal regulations is limited 
to the fibrous forms of six specific commercial types of asbestiform 
minerals. One is from a class of minerals called serpentines, which 
have curved fibers: chrysotile. The other five are members of a class 
of minerals called amphiboles, which have straight fibers: crocidolite, 
amosite, tremolite asbestos, actinolite asbestos, and anthophyllite 
asbestos. The elemental composition of the six asbestos minerals can 
vary slightly, even within a single fiber, as a result of geological 
conditions such as pressure, temperature, or proximity of other 
minerals. Recognizing these variations in elemental composition, the 
six asbestos minerals can be defined by their ``solid-solution'' 
mineral series. For example, the mineral series tremolite-
ferroactinolite contains the asbestos mineral actinolite. These mineral 
series are considered solid-solutions in which cations (i.e., sodium, 
calcium, magnesium, iron, etc.) are replaced by other cations which can 
affect the elemental composition of the mineral without significantly 
altering the structure. As another example, the Libby, Montana 
vermiculite ore body contains amphibole asbestos fibers of the 
tremolite-actinolite-richterite-winchite solid solution series. The 
minerals in the solution series have only minor differences in chemical 
content and have similar, if not identical, health effects. A third 
example of a mineral that produces similar diseases as asbestos is 
erionite, a fibrous mineral that is neither a serpentine nor an 
amphibole. It belongs to an entirely different class of minerals called 
zeolites.
                       asbestos-related diseases
    Exposure to asbestos significantly increases the risk of developing 
several types of cancer and non-cancerous diseases. Most asbestos-
related diseases, particularly the cancers, have long latency periods 
often extending 10-40 years from initial exposure to onset of illness. 
These include:
    (1) Asbestosis--a non-cancerous disease characterized by scarring 
of the air-exchange regions of the lungs. Progressive lung damage can 
cause progressive shortness of breath and inability to engage in 
physical activity, as well as other symptoms such as coughing and chest 
pain;
    (2) Lung cancer--for which asbestos is one of the leading causes 
among non-smokers, and which occurs at dramatically high rates among 
asbestos-exposed smokers;
    (3) Malignant mesothelioma--an almost invariably fatal cancer of 
the tissue covering the lungs and chest wall (called the pleura) or 
abdomen (called the peritoneum) for which asbestos and similar fibers 
are the only known cause; and
    (4) Non-malignant pleural disease--asbestos exposure can affect the 
pleura in several ways. It can cause a painful accumulation of bloody 
fluid surrounding the lungs. It can cause a circumscribed thickening, 
fibrosis, and sometimes calcification of pleural tissue--a condition 
called pleural plaques. Finally, it can cause a more severe condition 
with more extensive and sometimes constricting scarring of the tissue 
surrounding the lungs called diffuse pleural thickening.
    In addition, asbestos exposure is associated with excess mortality 
due to cancer of the larynx and cancer of the gastrointestinal tract. 
The various types of cancers caused by asbestos are often fatal within 
a few years after initial diagnosis. In contrast, asbestosis deaths 
typically occur only after many years of suffering from impaired 
breathing.
    The risk of developing adverse health effects from asbestos is 
related to the amount and duration of exposure to airborne asbestos 
fibers. Exposure occurs in the occupational setting when microscopic 
asbestos fibers become airborne during various industrial processes or 
from handling of asbestos-containing materials. The fibers can then be 
inhaled and/or swallowed. In the lungs, asbestos fibers can interact 
with cellular targets such as alveolar macrophages and alveolar 
epithelial cells, inducing a chain of events leading to scarring and/or 
cancer in the lungs. Fibers can also translocate through the lungs to 
the pleura, where they can cause malignant mesothelioma and 
nonmalignant pleural disease. Key factors associated with the 
carcinogenic potential of asbestos fibers include: particle length 
(longer fibers are more toxic than shorter fibers); diameter (fibers 3 
micrometers in diameter are more likely than thicker fibers to be 
inhaled into the lungs, and fibers <0.5 micrometers in diameter are 
more likely to migrate through lung tissue to the pleura); and 
biopersistence (fibers able to persist in the lung and not be cleared 
from the lung by physiological lung defense mechanisms are more likely 
to cause adverse health effects).
    Asbestos-related diseases can be prevented by eliminating or 
limiting exposures to asbestos. The Occupational Safety and Health 
Administration (OSHA), the Mine Safety and Health Administration 
(MSHA), and the Environmental Protection Agency (EPA) regulate the six 
asbestos minerals. The OSHA permissible exposure limit (PEL) for 
asbestos is 0.1 fibers per cubic centimeter (cc) of air. This limit was 
set in part based on the limit of detection of the exposure assessment 
method specified in the standard (phase contrast microscopy (PCM)) and 
is not completely protective against asbestos-induced disease. 
Occupational exposure limits are generally set to reduce risk 
associated with exposures to a level at or below 1 per 1,000 working 
lifetimes.
    The risk analyses upon which the OSHA PEL and MSHA's proposal to 
revise its PEL are based were recently detailed by MSHA in its proposed 
rule. It should be noted that these risk analyses make the maximally 
protective assumption that exposure would be at the PEL every work day 
over an entire 45-year working lifetime. Over such a working lifetime, 
exposure at the OSHA asbestos PEL is estimated to be associated with an 
excess risk of cancer (lung, mesothelioma, and gastrointestinal) of 3.4 
cases per 1,000 exposed individuals and an excess risk of asbestosis of 
2.5 cases per 1,000 exposed individuals. In mining, the current MSHA 
PEL for asbestos is 20-fold higher at two fibers per cc air. Were 
exposure to the current MSHA PEL to occur every day over a 45-year 
working lifetime, it would be associated with an excess risk of cancer 
of 64.1 cases per 1,000 exposed individuals and an excess risk of 
asbestosis of 49.7 cases per 1,000 exposed individuals. Fortunately, 
the U.S. mining industry does not currently mine or produce asbestos 
and asbestos sampling data presented in MSHA's proposed rule showed low 
exposures for the mining population. MSHA has proposed to reduce its 
PEL to make it consistent with the OSHA PEL, and NIOSH has provided 
public comments in support of this proposed rule.
                  burden of asbestos-related diseases
    NIOSH has tracked annual U.S. asbestosis deaths since 1968 and 
malignant mesothelioma deaths since 1999 using death certificate data 
in the National Occupational Respiratory Mortality System (NORMS). Data 
from NORMS show that asbestosis deaths increased almost 20-fold from 
the late 1960s to the late 1990s and have apparently plateaued only 
since 2000 at approximately 1,500 per year (Figure 1). By contrast, 
mesothelioma deaths continue to rise (Table 1). Current asbestos and 
mesothelioma mortality reflect past exposures because the latency 
between exposure and disease onset is long, particularly for 
mesothelioma, and asbestosis is a chronic disease, with affected 
individuals typically living for many years with the disease before 
succumbing.
    Figure 1. Number of asbestosis deaths, U.S. residents age 15 and 
over, 1968-2004. Source: National Occupational Respiratory Mortality 
System (NORMS), found at: http://webappa.cdc.gov/ords/norms.html.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Table 1--Number of mesothelioma deaths, U.S. residents age 15 and over,
                                1999-2004
------------------------------------------------------------------------
                            Year                                Deaths
------------------------------------------------------------------------
1999.......................................................        2,484
2000.......................................................        2,531
2001.......................................................        2,509
2002.......................................................      112,573
2003.......................................................      112,625
2004.......................................................      112,657
1999-2004 (total)..........................................      I15,379
------------------------------------------------------------------------
Source: NORMS (http://webappa.cdc.gov/ords/norms.html)

    Over time, the annual number of deaths should decrease 
substantially as a result of reductions in exposures. However, asbestos 
usage has not been completely eliminated. Although domestic production 
of asbestos has ceased and importation of raw asbestos fibers has 
markedly declined, many finished asbestos-containing products continue 
to be imported into the United States. These include asbestos-cement 
sheets, panels, and tiles; corrugated sheets; and automotive friction 
products. In addition, a reservoir of asbestos-containing materials 
remains in place in older buildings and machinery. Thus, even with 
limitations or exclusions from new use, occupational exposures to 
asbestos will continue, albeit at a far lower level than in the past.
             update on niosh activities related to asbestos
    NIOSH continues to work actively to address issues related to 
asbestos-induced lung disease. We are continuing to track asbestosis 
deaths, mesothelioma deaths, and occupational exposures to asbestos and 
have plans to include updated findings in an upcoming new edition of 
the recurring NIOSH document, the ``Work-Related Lung Disease 
Surveillance Report.'' Updates are also available on the NIOSH Web 
site.
    NIOSH recently reported updated information on the occupational 
respiratory disease mortality among workers who mined, milled, and 
processed vermiculite contaminated with asbestiform fibers, including 
winchite, richterite, and tremolite from the mine near Libby, Montana. 
These workers had significantly increased rates of death from cancer, 
including lung cancer and malignant mesothelioma. They also had 
significantly increased rates of death from nonmalignant respiratory 
disease, including asbestosis and chronic obstructive pulmonary 
disease. Exposure-response relationships were demonstrated, with 
increasing fiber exposure associated with increasing mortality from 
lung cancer, asbestosis, and noncancerous chronic respiratory disease. 
This report adds to the growing body of literature documenting the 
adverse effects of exposure to Libby amphibole fibers.
    With regard to Libby, the activities of the Agency for Toxic 
Substances and Disease Registry (ATSDR), an important partner of NIOSH, 
should be noted. A medical screening program conducted by ATSDR in 
Libby revealed an unusually high rate of asbestos-related disease among 
participants. Although many of these participants were former mine 
workers, others were their household contacts or community members with 
possible environmental exposures. Based on these findings, ATSDR 
established a Tremolite Asbestos Registry, which will complement 
NIOSH's work by tracking the health outcomes of exposed individuals 
over time. To date, ATSDR has enrolled more than 4,000 individuals--
comprising 83 percent of former Libby mine workers, their household 
contacts and a defined set of other local residents--and will 
administer follow-up interviews and medical screenings on a regular 
basis. ``Take-home'' exposures--involving family members of workers who 
bring asbestos home on their hair, clothing, or shoes--is a well-
recognized hazard addressed by NIOSH in a 1995 report to Congress 
(http://www.cdc.gov/niosh/contamin.html), so ATSDR's inclusion of 
household contacts in the registry will contribute important 
information to the body of research. In addition to research, ATSDR 
will use the registry to provide participants with information about 
new therapies that may become available in the future. ATSDR is also 
studying exposures to asbestiform fiber-contaminated vermiculite ore 
from Libby that was processed at sites in California, Ohio, Minnesota, 
New Jersey, New York and Wisconsin. ATSDR plans to use the findings of 
the registry and studies conducted at processing sites to develop a 
research agenda for Libby amphibole-related research.
    NIOSH is doing research to clarify the relationships between fiber 
dimensions (length and diameter) and the risk for developing lung 
cancer or asbestosis through follow-up studies of a cohort of 
chrysotile-exposed South Carolina textile workers. NIOSH originally 
reported on this cohort in the 1980s. Exposures were originally 
evaluated by PCM. Since then, archived samples collected by NIOSH have 
been re-analyzed by transmission electron microscopy (TEM) to better 
evaluate fiber dimensions, including fibers too small to be seen by 
PCM. Also, mortality information about the cohort has been updated. 
Based on these data, fiber size-specific exposure estimates have been 
developed for the cohort. Analyses are underway to determine the 
influence of fiber length and width on lung disease risk. These 
findings will help to inform approaches to quantitative risk 
assessment, particularly the potential utility of risk assessment based 
on fiber size.
    NIOSH is also doing research in the area of exposure assessment. A 
recently published American Society for Testing and Materials (ASTM) 
International Standard--``Method for Sampling and Counting Airborne 
Fibers, Including Asbestos Fibers, In Mines and Quarries, by Phase 
Contrast Microscopy'' (D7200-06)--contains a proposed methodology for 
separating fiber-like particles other than asbestos from probable 
asbestos fibers. The new ASTM procedure has not yet been validated to 
confirm that it produces accurate, reproducible results. A current 
NIOSH study will address this issue by documenting the performance of 
the ASTM procedure. Another important issue in asbestos exposure 
assessment is sampling in dusty environments, such as mines. 
Traditional filter samplers quickly become overloaded with dust, 
limiting the ability to detect asbestos fibers. One approach to 
reducing this problem is to use a sampler that only collects particles 
small enough to reach the airways of the lung when inhaled, and not 
larger particles that mostly deposit in the mouth, nose, and throat. 
NIOSH is currently evaluating two such ``thoracic'' particulate 
samplers in comparison to the traditional filter sampler in two 
different mining environments.
    NIOSH is pursuing research relevant to the detection of asbestos-
related respiratory diseases. Traditionally, film-based chest 
radiographs have been used in epidemiological studies evaluating 
workers for pulmonary and pleural disease associated with asbestos 
exposure. This is because only film-based chest radiographs may be 
systematically classified for changes of dust-induced lung disease 
(pneumoconiosis) using the widely accepted International Labour 
Organization (ILO) classification system. However, in the United 
States, digital chest radiography has largely replaced film-based 
radiography. NIOSH has funded research to evaluate the impact of 
classifying digital, instead of film-based, chest x-rays on the 
detection and classification of pulmonary and pleural disease. Initial 
results suggest that the two methods do not differ significantly in 
detection of interstitial (lung tissue) processes, but do differ in 
detection of pleural processes, with fewer pleural changes detected in 
those undergoing digital chest radiography. In follow up to this 
finding, NIOSH is assisting ATSDR in performing a study to compare 
detection of pleural changes in those exposed to Libby amphibole by 
film-based and digital radiography, with findings of computed 
tomography scans of the chest serving as a ``gold standard.''
    In 2006, NIOSH published a Recommended Exposure Limit (REL) for 
another type of inorganic fiber, refractory ceramic fibers (RCF). 
Although RCF are man-made fibers which differ from asbestos in 
toxicity, many of the same issues relevant to asbestos such as fiber 
length, diameter, and biopersistence were considered in developing the 
NIOSH REL of 0.5 fibers per cc.
  asbestos and other mineral fibers: a roadmap for scientific research
    A major recent NIOSH effort has been the development of a draft 
``Roadmap'' document that details key scientific issues in asbestos and 
identifies research directions to address these issues. Key issues 
include the following:
Which minerals should be treated as asbestos?
    As already described, most regulatory definitions of asbestos do 
not explicitly include minerals such as winchite, richterite, and 
erionite, despite the known similar health effects of their fibers to 
those of the explicitly listed asbestos minerals. In addition, 
significant controversy exists regarding other types of mineral 
particles that have the dimensions of fibers. For example, El Dorado, 
California, is a site with natural deposits of amphibole that have been 
disturbed by construction and crushing of rock. Analyses of air and 
rock samples have identified the presence of actinolite in the form of 
needle-like crystalline structures called ``acicular/prismatic 
actinolite.'' Although many of these amphibole particles meet the 
dimensional criteria of asbestos fibers, they have a different 
crystalline structure from fibrous actinolite asbestos. A recent report 
by investigators from the University of California found that 
residential proximity to deposits of ``naturally occurring asbestos'' 
such as those in the vicinity of El Dorado was associated with 
increased risk for mesothelioma, implicating these minerals as a 
possible health hazard. It should be noted that this report did not 
include actual measurement of fiber exposures associated with residence 
in these areas.
    Asbestos minerals have analogs that are crystallized in non-
asbestiform (massive) structures. A controversial type of mineral 
particle is the ``cleavage fragment,'' which can be generated from 
massive forms of these analog minerals during their handling, crushing, 
or processing, as occurs in mining and construction. Using current 
analytical methods based on light microscopy, these ``cleavage 
fragments'' are often microscopically indistinguishable from 
asbestiform fibers of their asbestos mineral counterparts. The toxic 
potential of these mineral particles, in particular their 
carcinogenicity, has been an area of great controversy.
Are the specified dimensions of asbestos fibers appropriate?
    Currently, a mineral particle is detected by PCM and counted as a 
fiber if it has a length to width (``aspect'') ratio of 3:1 and length 
of at least 5 micrometers. These counting rules include particles with 
diameters greater than 3 microns, which are unlikely to reach the 
airways or the gas-exchange regions of the lungs when inhaled. Also, 
PCM cannot detect particles with diameters less than about 0.25 
micrometers, which, although not visible by PCM, are capable of causing 
harm. Finally, although longer fibers have been associated with greater 
potential for carcinogenicity, studies of fibers deposited in human 
tissues suggest that fibers less than 5 micrometers in length may also 
contribute to human disease, including cancer.
    The broad goals of the research outlined in the Roadmap are to: (1) 
provide a scientific framework for evidence-based worker protection 
recommendations; (2) address the broad range of mineral fibers to which 
workers are exposed; and (3) refine our understanding of fiber 
characteristics associated with toxicity. Strategic goals identified by 
the Roadmap are to: (1) develop improved sampling and analytical 
methods for mineral fibers; (2) develop information and knowledge on 
occupational exposures to the range of mineral fiber types and their 
health outcomes; and (3) develop a broader understanding of the 
important determinants of fiber toxicity. In particular, it would be 
useful to develop approaches that would make it possible to predict the 
ability of various mineral fiber types to cause human disease and apply 
this information for risk management.
    NIOSH has solicited public comment on the draft Roadmap document 
via docket submissions and a public meeting. The draft document was 
first made available to the public on February 28, 2007, and public 
comments were accepted into the docket from the time of posting until 
May 31, 2007. The public meeting was held on May 4, 2007. Peer 
reviewers have been selected and are being provided with a copy of the 
public comments as well as the draft Roadmap document. Revision of the 
document will take into account both public and peer review comments. 
The goals expressed in the Roadmap are ambitious. NIOSH plans to 
develop a range of partnerships to address these goals, including with 
other Federal agencies, labor, industry, academia, and other interested 
parties. Although NIOSH will focus on occupational safety and health, 
we will pursue opportunities to ensure that the results of research 
arising from the Roadmap can be extended outside of the occupational 
setting.
                               conclusion
    Despite the ability to prevent asbestos-related diseases by 
preventing exposure, they continue to be an important problem in the 
United States. At least in part because of the long lag in time between 
exposure and mortality, deaths from asbestos-related diseases such as 
asbestosis and mesothelioma have not yet declined. Furthermore, 
asbestos exposure continues to occur due to the presence of asbestos in 
older buildings and continued importation of asbestos-containing 
products from other parts of the world. Asbestiform erionite, a non-
serpentine, non-amphibole mineral fiber that is well-established as 
having toxicity similar to asbestos, is not included within regulatory 
definitions that are limited to the six commercial types of asbestos. 
Controversy surrounds the toxic potential of several other mineral 
fiber types, in particular acicular/prismatic actinolite identified in 
El Dorado, California; and ``cleavage fragments'' of non-asbestiform 
amphibole minerals encountered especially in mining and construction. 
NIOSH continues to work actively in this area and has developed a draft 
Roadmap describing current issues and research strategies to address 
these issues. Working with a range of partners, our ultimate goal is to 
develop, disseminate, and facilitate the adoption of evidence-based 
recommendations to better protect workers from diseases caused by 
asbestos and other mineral fibers.
    Thank you again for the opportunity to testify before you today. I 
would be happy to answer any questions you may have.
                                 ______
                                 
     Responses by David N. Weissman, M.D., to additional questions
                           from Senator Boxer
    Question 1. Your testimony states, ``using current analytical 
methods . . . cleavage fragments are often microscopically 
indistinguishable from . . . fibers of their asbestos mineral 
counterparts.''
    Please describe what that tells us about most federal definitions 
of asbestos, particularly given the need to protect public health from 
diseases associated with asbestos.
    Response. Phase contrast microscopy (PCM) is a light microscopy-
based method that is specified by OSHA and MSHA for use in determining 
the level of exposure to asbestos fibers. There is insufficient data to 
suggest that this method can accurately or reproducibly distinguish 
between asbestiform fibers of the six asbestos minerals on one hand; 
and ``cleavage fragments'' formed by handling, crushing, or processing 
of amphibole minerals crystallized in a massive habit on the other 
hand. Thus, no current practical definition of asbestos could 
distinguish between asbestiform fibers and cleavage fragments unless it 
specified the use of other analytical methods, such as electron 
microscopy, and provided guidance on how the analytical method would be 
performed and when it would be used.
    The public health impact of PCM's inability to distinguish between 
asbestiform fibers and cleavage fragments is not entirely clear, given 
the uncertainties about the toxicity of cleavage fragments. Those who 
believe that cleavage fragments are likely to have similar toxicity as 
asbestiform fibers would view the inability of PCM to distinguish 
between them as unimportant. Those who believe that cleavage fragments 
have less toxicity than asbestiform fibers would take the opposite 
view. Specifically, they would feel that undercounting of asbestiform 
fibers in mixed dust would result in underestimation of risk; and over-
counting of asbestiform fibers would result in over-estimation of risk. 
Definitive resolution of these differing viewpoints will require 
research to better document the ability of cleavage fragments to cause 
toxicity. In response to this need, CDC has nominated dusts containing 
a variety of mineral fibers for laboratory toxicology studies by the 
National Toxicology Program (NTP).

    Question 2. U.S. Geological Survey data indicates this country 
still imports more than 2,500 metric tons of asbestos a year as well as 
products that contain asbestos.
    Can you describe the types of diseases that may be associated with 
the use of these materials, and whether these diseases may be a concern 
for people who use these products in or around their homes?
    Response. Many finished asbestos-containing products continue to be 
imported into the U.S. These include products such as: asbestos-cement 
sheets, panels, and tiles; corrugated sheets; and automotive friction 
products. Asbestos exposure associated with these products could 
potentially occur in either work or home settings. Regardless of 
country of origin, sufficient exposure to asbestos in either setting 
would be associated with the potential to develop any of the diseases 
caused by asbestos. A special concern for exposure in the home setting 
is that children can inhale asbestos, which could potentially remain 
within their lungs for a lifetime. Another special concern for 
exposures in the home is that exposures can potentially occur at any 
time and are not limited to a 40-hour work week. Since asbestos is a 
carcinogen, even low exposures are of concern for their potential to 
cause malignancies. An important consideration in older homes is past 
installation of asbestos-containing products, such as tiles, shingles, 
or insulation. Libby vermiculite was widely used as loose attic 
insulation. Installation of newer asbestos-containing materials would 
also be a concern.
    When asbestos-containing products are identified in the home 
setting, steps must be taken to prevent exposure. The materials can 
either be removed or ``managed in place.'' Management in place involves 
prevention of exposure by encapsulation of asbestos-containing 
materials so they cannot break down and become aerosolized, resulting 
in exposure of home occupants.

    Senator Boxer. Thank you, sir.
    Captain Miller, U.S. Public Health Service and EPA.

 STATEMENT OF CAPTAIN AUBREY MILLER, M.D., M.P.H., U.S. PUBLIC 
 HEALTH SERVICE, REGION 8, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Dr. Miller. Good morning, Madam Chairman and members of the 
committee. I am Captain Aubrey Miller, a physician in the U.S. 
Public Health Service and currently a senior medical officer 
and toxicologist with the U.S. EPA in Denver. I am board 
certified in occupational medicine and have cared for patients 
with asbestos-related disease prior to beginning my Federal 
career.
    Over the last 8 years I have worked for both the Department 
of Health and Human Services and for EPA in their Denver 
offices, where my efforts have been largely focused on 
improving our understanding of the health effects associated 
with asbestos exposure in Libby, MT. During this time, I have 
also worked toward strengthening the health care infrastructure 
of the Libby community and helped to establish a new community 
health center to provide primary care for those in need.
    I have personally come to know the pain, suffering and 
courage of the good folks in Libby, like Les Skramsted and Mick 
Mills, who finally succumbed to this terrible disease. Our work 
is about these individuals and the countless others across 
America with ongoing exposures or illnesses from asbestos. 
Thank you for the opportunity to discuss EPA's perspective and 
progress in understanding the human health effects associated 
with exposures to asbestos.
    Asbestos is a general term for fibrous silicate minerals in 
the serpentine and amphibole classes, and include chrysotile, 
amphiboles, amosite, crocidolite, antophylite, tremolite and 
actinolite. Asbestos has been classified as a human carcinogen 
by the EPA and the World Health Organization. Mesothelioma and 
lung cancers are the malignancies most consistently and 
strongly associated with such exposures.
    The non-cancerous conditions related to asbestos exposure 
may be more prevalent than cancer and just as debilitating and 
lethal. The American Thoracic Society defines non-malignant 
asbestos-related disease to include conditions of interstitial 
pulmonary fibrosis, or asbestosis, benign pleural effusions, 
pleural fibrosis, both circumscribed and diffuse, and 
obstruction of pulmonary airflow.
    Asbestos diseases have a latency period ranging from 1 year 
to several decades, depending upon the health endpoints of 
concern. Once established, asbestos-related fibrosis can remain 
static or progress in severity in the absence of continued 
exposure. But they rarely regress.
    As a natural mineral, serpentine and amphibole deposits may 
be present as natural outcroppings and can be found in native 
soils in a number of communities in the United States and 
abroad. As a result, community members can be exposed to 
asbestos during various activities outdoors or in their homes. 
Studies of communities with such environmental exposures have 
found health effects similar to those observed in asbestos-
exposed workers. EPA is currently evaluating several sites 
impacted by such natural outcroppings.
    There is a scientific debate concerning the differences in 
the extent of disease caused by different fiber types and 
sizes. Some of these differences may be due to the physical and 
chemical properties of the different fiber types. For example, 
several studies suggest that amphibole asbestos types may be 
more harmful than chrysotile, particularly for mesothelioma. 
Studies also indicate that fiber size dimensions, the length 
and diameter, are important determinants in the risk for 
disease.
    Asbestos minerals can also occur in a non-fibrous or so-
called massive form that can be found geologically in some ore 
deposits in which fibrous asbestos minerals also occur. 
Cleavage fragments, small mineral shards that are often 
microscopically indistinguishable from typical asbestos fibers, 
can be generated from these non-fibrous forms of asbestos 
minerals during crushing or processing.
    Based upon scientific evidence from studies suggesting that 
the dimension, specifically length and diameter, as well as 
durability, may be more critical factors in causing disease 
than chemical or elemental composition, NIOSH and the Centers 
for Disease Control have recommended that the definition of 
asbestos encompass cleavage fragments from the non-fibrous 
forms of these minerals. EPA recognizes there is considerable 
controversy regarding the toxicity of fiber-like cleavage 
fragments. Because of this uncertainty, more work needs to be 
done to understand which of the many forms of asbestos or 
asbestos-like fibers are associated with adverse health 
effects. To this end, EPA is engaged in a number of activities 
to update and improve our understanding of the human health 
effects associated with asbestos exposure.
    EPA is currently developing a set of toxicological and 
epidemiological research projects to address data gaps and 
scientific uncertainty regarding the health effects from 
exposure to the Libby amphibole and other asbestiform fibers. A 
more detailed description of the Agency's efforts has been 
included in my written testimony.
    In conclusion, EPA will continue its efforts to increase 
our understanding on the health effects from asbestos and 
mineral fiber exposure. These efforts by EPA and its partners 
will provided needed health effects data and help inform 
Federal, State and local decisionmaking on how best to reduce 
and mitigate potential exposures.
    I will be pleased to answer any questions that the 
committee may have on these issues. Thank you.
    [The prepared statement of Dr. Miller follows:]
   Statement of Captain Aubrey Miller, M.D., MPH, U.S. Public Health 
             Service, U.S. Environmental Protection Agency
    Good morning Madame Chairman and members of the committee. I am 
Captain Aubrey K. Miller, MD., MPH, a physician in the U.S. Public 
Health Service and a Senior Medical Officer and Toxicologist for the 
U.S. Environmental Protection Agency (EPA), Region 8 Office. In 
addition to my experiences prior to working for the federal government 
caring for patients suffering from asbestos-related disease as a Board 
Certified occupational physician, over the last eight years my work has 
been directly focused on improving our understanding of the health 
effects associated with asbestos exposure in Libby, Montana. Further, 
the early activities of my involvement, while employed in the 
Department of Health and Human Services (DHHS) Region 8 Office, were 
focused on strengthening the health care infrastructure of the Libby 
community to better care for those affected by this terrible tragedy. 
Thank you for the opportunity to discuss EPA's perspective and progress 
in understanding the current state of the science concerning the human 
health effects associated with exposure to asbestos.
                        definitions of asbestos
    Asbestos is a general term for fibrous silicate minerals, including 
minerals in the amphibole and serpentine classes. A 1971 National 
Academy of Sciences (NAS) report distinguished the general term 
``asbestos'' and commercial varieties as follows:

          ``Asbestos'' is a generic term for a number of hydrated 
        silicates that, when crushed or processed, separate into 
        flexible fibers made up of fibrils. [footnote omitted]. 
        Although there are many asbestos minerals, only six are of 
        commercial importance: Chrysotile, a tubular serpentine 
        mineral, accounts for 95 percent of the world's production; the 
        others, all amphiboles, are amosite, crocidolite, 
        anthophyllite, tremolite, and actinolite. (NAS 1971).

    With respect to a definition of asbestos which is most relevant to 
our current understanding of health effects, the Centers for Disease 
Control, National Institute for Occupational Safety and Health (NIOSH), 
in 1990 testimony before the Occupational Safety and Health 
Administration (OSHA), and reiterated again in 2001, broadened its 
science-based definition of ``asbestos'' as a result of concerns about 
the microscopic identification of the six commercial forms of asbestos 
minerals. The six minerals can also occur in a non-fibrous (so-called 
``massive'') form. The non-fibrous mineral forms of the six asbestos 
minerals can be found geologically in the same ore deposits in which 
the fibrous asbestos minerals occur or in deposits where other 
commercially exploited minerals are mined (e.g., industrial grade 
talc). ``Cleavage fragments,'' small mineral shards that are often 
microscopically indistinguishable from typical asbestos fibers, can be 
generated from the non-fibrous forms of the asbestos minerals during 
their handling, crushing, or processing, and these ``cleavage 
fragments'' are often microscopically indistinguishable from typical 
asbestos fibers of the (fibrous) minerals.
    The elemental composition of the six asbestos minerals can vary 
slightly as a result of geological conditions such as pressure, 
temperature, or proximity of other minerals. Recognizing these 
variations in elemental composition, NIOSH stated that the six asbestos 
minerals can be defined by their ``solid-solution'' mineral series. For 
example, the mineral series tremolite-ferroactinolite contains the 
asbestos mineral actinolite. These mineral series are considered solid-
solutions in which cations (i.e., sodium, calcium, magnesium, iron, 
etc.) are replaced by other cations which can affect the elemental 
composition of the mineral without significantly altering the 
structure.
    NIOSH bases this expanded ``asbestos'' definition--encompassing the 
entire solid-solution mineral series for each of the six currently 
regulated asbestos minerals and including cleavage fragments from the 
non-fibrous forms of these minerals--on scientific evidence from 
cellular and animal studies suggesting that dimension, specifically 
length and diameter, as well as durability, may be more critical 
factors in causing disease than chemical or elemental composition [CDC 
2001]. EPA recognizes that there is considerable controversy regarding 
the toxicity of fiber-like cleavage fragments, and additional research 
will help to improve understanding of important health determinants.
                    where asbestos occurs naturally
    As a natural mineral, serpentine and amphibole deposits may be 
present as natural outcroppings. The fibers present may exhibit a range 
of mineral forms and morphologies. There are many communities where 
these minerals are present in native soils. Community members have been 
exposed to elevated ambient levels of these materials in outdoor air, 
to materials brought into the home (e.g., fibrous clays used for 
interior wall coverings), and during outside activities like farming. 
Residents in communities exhibit health effects similar to those noted 
in the occupation cohorts including pleural fibrosis, asbestosis, lung 
cancer, and mesothelioma. These deposits in some cases include minerals 
which were commercially mined and milled (chrysotile and crocidolite). 
In addition, health effects have also been seen in communities that are 
exposed environmentally to actinolite, tremolite, and erionite. 
Erionite, which is not asbestos, represents a third class of silicate 
minerals, zeolites or framework silicates. EPA is currently evaluating 
sites impacted by natural outcroppings of silicate minerals including 
actinolite-tremolite, anthopholyte, chrysotile, anthopholyte and 
erionite.
                             health effects
    Asbestos has been classified as ``carcinogenic to humans'' by EPA 
(1986) and as a ``Class A'' carcinogen by the World Health 
Organization. Although mesothelioma and lung cancer are the 
malignancies most consistently and strongly associated with such fiber 
exposures, cancers of the gastrointestinal tract (Jarvholm et al. 1984; 
Kolonel et al. 1985; Sanden, Naslund, & Jarvholm 1985), larynx (Blot et 
al. 1980; Burch et al. 1981; von Bittersohl 1977; Rubino et al. 1979), 
pancreas, (Selikoff and Seidman 1981), and ovary (Acheson et al. 1982; 
Wignall and Fos 1982) have also been identified. A recent review by the 
National Academy of Sciences Institute of Medicine concluded there was 
sufficient evidence to infer a causal association for laryngeal cancer; 
but, the evidence for pharyngeal, stomach and colorectal cancers is 
only suggestive, not sufficient (NAS 2006).
    The noncancerous conditions related to asbestos exposure may be 
more prevalent than cancer and just as debilitating and lethal. 
Exposure to asbestos fibers via inhalation is associated with noncancer 
diseases to the pleura and lungs. The American Thoracic Society (ATS) 
recently defined nonmalignant asbestos-related disease to include the 
conditions of interstitial pulmonary fibrosis (asbestosis), benign 
asbestos-related pleural effusions, pleural fibrosis (both 
circumscribed fibrosis, or plaques, and diffuse fibrosis), and 
obstruction of pulmonary airflow (ATS Documents 2004). Rounded 
atelectasis, a benign form of subpleural lung collapse, has also been 
associated with asbestos exposure (Terra-Filho et al. 2003). Asbestos 
diseases have latency periods ranging from a year to several decades, 
depending on the health endpoint of concern. The latency varies for 
nonmalignant effects, from approximately a year for pleural effusion to 
several years for asbestosis (Cugell and Kamp 2004). Once established, 
asbestos-related nonmalignant interstitial and pleural disorders may 
remain static or progress in severity in the absence of continued 
exposure, but they rarely regress (Becklake 1994). Asbestos-related 
pleural effects are often found in individuals without occupational 
exposures and even asbestosis has been noted in some communities where 
materials may have been brought into homes (Luce et al. 2000; Luce et 
al., 2004; Bernardini et al. 2003; Luo et al. 2003; Baumann et al. 
2007; Metintas et al. 2003).
    There is a scientific debate concerning the differences in the 
extent of disease caused by different fiber types and sizes. Some of 
these differences may be due to the physical and chemical properties of 
the different fiber types. For example, several studies suggest that 
amphibole asbestos types (tremolite, amosite, and especially 
crocidolite) may be more harmful than chrysotile, particularly for 
mesothelioma. Other data indicate that fiber size dimensions (length 
and diameter) are important factors for cancer-causing potential. Some 
data indicate that fibers with lengths greater than 5.0 mm are more 
likely to cause injury than fibers with lengths less than 2.5mm. (1 mm 
is about 1/25,000 of an inch). Additional data indicate that short 
fibers can contribute to injury. This appears to be true for 
mesothelioma, lung cancer, and asbestosis. However, fibers thicker than 
3.0 mm are of lesser concern, because they appear to have less of a 
chance for penetrating to the lower regions of the lung. (ATSDR Tox 
Profile for Asbestos (2001), p. 6.)
    Because of this uncertainty, more work needs to be done to 
understand which of the many forms of asbestos or asbestos-like fibers 
associated with adverse health effects require additional study. To 
this end, EPA in engaged in an asbestos toxicology research program.
 epa's health assessment activities for asbestos and silicate mineral 
                                 fibers
    EPA's Integrated Risk Information System (IRIS) database provides 
health assessments and tools for quantitative risk characterization 
which represent a consensus agency position. The current asbestos 
assessment was posted on IRIS in 1988 and provides cancer risk 
estimates based on a meta-analysis of 14 studies of workers exposed to 
commercial asbestos (primarily chrysotile, amosite, and crocidolite). 
The risk estimate represents both lung cancer and mesothelioma risk. At 
that time, EPA discussed many of the complexities regarding the health 
effects of asbestos, including: mineral form, fiber dimension, and 
fiber morphology. However, the exposure data available in the 
epidemiologic literature did not allow for refinement of the cancer 
risk estimate based on these factors (EPA 1986).
    In 1991, the EPA published a Health Assessment on vermiculite, 
reviewing the studies available at that time on workers exposed to 
amphibole asbestos-contaminated vermiculite (Libby, MT and the Enoree 
region of South Carolina). The document concluded that weight of 
evidence for asbestos-contaminated vermiculite is sufficient to show a 
causal relationship for increased lung cancer in miners and millers 
(EPA 1991).
    In preparation to update the asbestos health assessment, EPA held 
several conferences regarding asbestos toxicity, convening national 
experts on the mechanisms of fiber toxicity: ``Asbestos Health Effects 
Conference'' in 2001 and ``Mechanisms of Toxicity Workshop'' in 2003. 
In 2004 EPA initiated a health assessment focused on the noncancer 
effects of asbestos. In February 2006, EPA announced that it would 
begin a cancer health assessment for asbestos as well. In expectation 
of updating the cancer assessment, EPA has coordinated with NIOSH to 
reanalyze historical worker cohorts with state of the art exposure 
measurements for a key chrysotile study (Dement et al. 1994). EPA is 
continuing this collaboration and is working with nationally recognized 
experts from academia to conduct similar reanalysis, using state-of-
the-art exposure measurements for key studies of workers exposed to 
amosite (Levin et al. 1998; Seidman et al. 1986).
    As part of its ongoing activities, EPA is developing a set of 
research projects to assess the dosimetric and toxicologic effects of 
amphibole fiber-containing vermiculite ore from Libby, Montana. The 
objective of these projects is to address data gaps and scientific 
uncertainty for the quantitative characterization of health risks from 
exposure to the Libby amphibole and other asbestos-form fibers. The 
research plan for these projects was initiated from the recommendations 
of a multi-agency meeting in January 2007 and is now being revised in 
response to external peer review. Funding has been approved and 
research is anticipated to commence by July 2007. The research involves 
the following assessment studies:
    <bullet> Libby Amphibole RfC Development;
    <bullet> Libby Amphibole Cancer Assessment;
    <bullet> Fiber Size Distribution in Libby Vermiculite;
    <bullet> Dosimetry Model Development and Simulation Studies;
    <bullet> In Vitro Dissolution Assays;
    <bullet> In Vitro Toxicity Endpoints;
    <bullet> Comparative Toxicology In Mice and Rats;
    <bullet> Inhalation Toxicology In Rats;
    <bullet> New Epidemiologic Information From Libby, Montana and 
other cohorts; and
    <bullet> Interim Risk Methodology For Quantification Of Cancer Risk 
From Inhalation Exposure to Asbestos.
                    exposure and exposure mitigation
    Over the past several years, EPA conducted research designed to 
reduce uncertainties in asbestos exposure scenarios. This work was a 
collaboration among ORD's National Exposure Research Laboratory, 
National Risk Management Research Laboratory, and National Health and 
Environmental Effects Research Laboratory. A report addressing the 
state-of-the-science for various exposure scenarios was completed in 
2006. Additionally, a database of exposures, doses, and physical-
chemical properties has been developed for more than 40 asbestos 
fibers. An air sampling study was also completed, as was an analysis of 
the Comprehensive Soil Method.
    Workplace exposure mitigation practices have been in place for 
decades. To minimize exposure from building demolition, EPA has been 
working on an alternative to the National Emissions Standards for 
Hazardous Air Pollutants (NESHAP) method for demolition of buildings 
containing asbestos. Also, the California Air Resources Board and the 
Agency for Toxic Substances and Disease Registry (ATSDR) provide advice 
for limiting exposure to naturally occurring asbestos.
                                closing
    EPA will continue its efforts to increase our understanding on the 
health effects from asbestos and mineral fiber exposure. These efforts 
by EPA and those of its Federal, state, and local partners will provide 
needed health effects data and help inform Federal, state, and local 
decision making on how best to reduce and mitigate potential exposure. 
I will be pleased to answer any questions that the committee may have 
on these issues.
                              references:
    Acheson, E.D., Gardner, M.J., Pippard, E.C. & Grime, L.P. (1982). 
Mortality of two groups of women who manufactured gas masks from 
chrysotile and crocidolite asbestos: a 40-year follow-up. Br. J. ind. 
Med., 39, 344-348.
    Baumann F, Rougier Y, Ambrosi JP, & Robineau BP (2007). Pleural 
mesothelioma in New Caledonia: an acute environmental concern. Cancer 
Detect Prev. 2007;31(1):70-6.
    Becklake, M. R. (1994). ``Symptoms and pulmonary functions as 
measures of morbidity'', Ann.Occup.Hyg., vol. 38, no. 4, pp. 569-80, 
418.
    Bernardini P, Schettino B, Sperduto B, Giannandrea F, Burragato F, 
& Castellino N. (2003). [Three cases of pleural mesothelioma and 
environmental pollution with tremolite outcrops in Lucania] G Ital Med 
Lav Ergon. 2003 Jul-Sep; 25(3):408-11. Italian.
    Blot, W.J., Morris, L.E., Stroube, R., Tagnon, I. & Fraumeni, J.F., 
Jr (1980). Lung and laryngeal cancers in relation to shipyard 
employment in coastal Virginia. J. Natl Cancer Inst., 65, 571-575.
    Burch, J.D., Howe, G.R., Miller, A.B. & Semenciw, R. (1981). 
Tobacco, alcohol, asbestos, and nickel in the etiology of cancer of the 
larynx: a case-control study. J. Natl Cancer Inst., 67, 1219-1224.
    CDC 2001 Testimony of Kathleen M. Rest, Ph.D., M.P.A.
    Acting Director, CDC's National Institute for Occupational Safety 
and Health Before the committee on Health, Education, Labor and 
Pensions, U.S. Senate July 31, 2001; http://www.cdc.gov/washington/
testimony/ws073101.htm]
    Cugell, D.W. & Kamp, D.W. (2004). ``Asbestos and the pleura: a 
review'', Chest, vol. 125, no. 3, pp. 1103-1117.
    Dement, J. M. & Brown, D. P. (1994). ``Lung cancer mortality among 
asbestos textile workers: a review and update''. Ann.Occup.Hyg., vol. 
38, no. 4, pp. 525-32, 412.
    Jarvholm, B., Holmberg, E., Naslund, P. E., Sanden, A., & 
Zettergren, L. (1984). ``[Mesothelioma of the peritoneum--a neglected 
diagnosis?]''. Lakartidningen, vol. 81, no. 8, pp. 644-645.
    Kolonel, L. N., Yoshizawa, C. N., Hirohata, T., & Myers, B. C. 
(1985). ``Cancer occurrence in shipyard workers exposed to asbestos in 
Hawaii''. Cancer Res., vol. 45, no. 8, pp. 3924-3928.
    Levin, J, McLarty, J., Hurst, G., Smith, A., & Frank, A. (1998). 
Tyler asbestos workers: mortality experience in a cohort exposed to 
amosite. Occupational and Environmental Medicine, 55:155-160.
    Luce D, Billon-Galland MA, Bugel I, Goldberg P, Salomon C, Fevotte 
J, Goldberg M. (2004). Assessment of environmental and domestic 
exposure to tremolite in New Caledonia. Arch Environ Health.;59(2):91-
100.
    Luce D, Bugel I, Goldberg P, Goldberg M, Salomon C, Billon-Galland 
MA, Nicolau J, Quenel P, Fevotte J, & Brochard P. (2000). Environmental 
exposure to tremolite and respiratory cancer in New Caledonia: a case-
control study. Am J Epidemiol.;151(3):259-65.
    Luo, S., Liu, X., Mu, S., Tsai, S. P., & Wen, C. P. (2003). 
``Asbestos related diseases from environmental exposure to crocidolite 
in Da-yao, China. I. Review of exposure and epidemiological data''. 
Occup Environ Med, vol. 60, no. 1, pp. 35-41.
    Metintas, M., Metintas, S., Hillerdal, G., Ucgun, I., Erginel, S., 
Alatas, F., & Yildirim, H. (2005). ``Nonmalignant pleural lesions due 
to environmental exposure to asbestos: a field-based, cross-sectional 
study''. Eur.Respir.J., vol. 26, no. 5, pp. 875-880.
    National Academy of Sciences (1971). Asbestos - The Need for and 
Feasibility of Air Pollution Controls. NAS Press, Washington, DC.
    National Academy of Sciences (2006). Asbestos: Selected Cancers. 
NAS Press, Washington, DC.
    Rubino, G.F., G. Piolatto, M.L. Newhouse, G. Scansetti, G.A. 
Aresini and R. Murrary (1979). Mortality of chrysotile asbestos workers 
at the Balangero mine, Northern Italy. Br. J. Ind. Med. 36: 187-194.
    Sanden, A., Naslund, P.E., & Jarvholm, B. (1985). ``Mortality in 
lung and gastrointestinal cancer among shipyard workers''. 
Int.Arch.Occup.Environ.Health, vol. 55, no. 4, pp. 277-283.
    Seidman, H., Selikoff, I.J., & Gelb, S.K. (1986). ``Mortality 
experience of amosite asbestos factory workers: dose-response 
relationships 5 to 40 years after onset of short-term work exposure''. 
Am.J.Ind.Med., vol. 10, no. 5-6, pp. 479-514.
    Selikoff, I.J. & Seidman, H. (1981). Cancer of the pancreas among 
asbestos insulation workers. Cancer, 47 (Suppl.), 1469-1473.
    Terra-Filho, M., Kavakama, J., Bagatin, E., Capelozzi, V. L., Nery, 
L. E., & Tavares, R. (2003). ``Identification of rounded atelectasis in 
workers exposed to asbestos by contrast helical computed tomography''. 
Braz. J. Med. Biol.Res., vol. 36, no. 10, pp. 1341-1347.
    U.S. EPA. (1986). Airborne Asbestos Health Assessment Update. 
Prepared by the Environmental Criteria and Assessment Office, Research 
Triangle Park, NC. EPA 600/8-84/003F.
    U.S. EPA. (1991). Health Assessment Document for Vermiculite. 
Office of Health and Assessment, Washington, DC. EPA/600/8-91/037.
    von Bittersohl, G. (1977). On the problem of asbestos-induced 
carcinoma of the larynx (Ger.). Z. ges. Hyg., 23, 27-30.
    Wignall, B.K. & Fos, A.J. (1982). Mortality of female gas mask 
assemblers. Br. J. Ind. Med., 39, 34-38).

    Senator Boxer. Thank you very much.
    Our next and last panelist is Dr. Melanie Marty, chief, Air 
Toxicology and Epidemiology Branch from the California EPA. We 
welcome you.

 STATEMENT OF MELANIE MARTY, Ph.D., CHIEF, AIR TOXICOLOGY AND 
   EPIDEMIOLOGY BRANCH, CALIFORNIA ENVIRONMENTAL PROTECTION 
    AGENCY, OFFICE OF ENVIRONMENTAL HEALTH HAZARD ASSESSMENT

    Ms. Marty. Good morning, Madam Chair and members of the 
committee. I am a toxicologist with Cal/EPA.
    My testimony today focuses on naturally occurring asbestos 
in California, the assessment of potential health impacts from 
exposure and ways California is addressing exposure to 
naturally occurring asbestos.
    Asbestos was identified as a toxic air contaminant in 1986 
in California, based on the evidence that you just heard, 
asbestosis, lung cancer and mesothelioma in workers, and on the 
ubiquitous presence of asbestos in urban air due to its 
widespread use.
    The health effects assessment conducted for the 
identification of asbestos as a toxic air contaminant was based 
on studies of workers exposed to asbestos in a number of 
industrial settings. We evaluated the relationship between the 
extent of exposure to asbestos and the subsequent development 
of asbestos-related disease in the workers with a focus on the 
cancers caused by asbestos in order to assess cancer risk from 
exposure to asbestos of the general population in urban air.
    The workers in the occupational studies we used in our risk 
assessments were exposed to mixed forms of asbestos from 
relatively pure chrysotile to predominantly amphibole. Both 
types of asbestos are found naturally in the Sierra foothills 
and elsewhere in California and frequently together.
    When asbestos fibers become airborne, they can be inhaled 
deep into the lung. Some are cleared by normal physiological 
processes, but many fibers remain in the lung tissue 
essentially forever. Inhaled asbestos fibers can migrate to the 
lining of the chest wall, the pleura, and also be transported 
to other organs. There is no question that asbestos is a human 
carcinogen. You have heard my colleagues mention that as well. 
It is regulated as such in the United States by OSHA, in 
California and other countries.
    While many researchers consider the amphiboles to be 
substantially more potent than chrysotile in causing 
mesothelioma, toxicology studies in animals and human studies 
show that all forms of asbestos can cause mesothelioma, 
including chrysotile, and that further, are more or less 
equally potent in producing lung cancer, which accounts for the 
majority of the asbestos-induced cancers.
    The disease that has been most well investigated in 
relation to exposures to naturally occurring asbestos is 
mesothelioma, in part because it is a rare cancer and it is 
strongly associated with asbestos exposure. There are many 
studies that describe mesothelioma in people exposed as a 
result of the presence of asbestos in the soil in their 
communities in Greece, Turkey, New Caledonia, China and 
elsewhere. Many but not all of the mesotheliomas in these 
populations were related to use of the amphibole-containing 
soils in the community in various ways.
    Further, some studies have shown elevated mesothelioma and 
lung cancers in populations in close proximity to mines or 
asbestos factories where predominantly chrysotile asbestos-
containing products were made. It is difficult to use these 
studies to develop quantitative estimates of risk that 
Californians may face from naturally occurring asbestos, but 
these studies heighten concern about environmental exposure.
    The typical approach for assessing risk from environmental 
exposure is to use a long-term average concentration of the 
carcinogen in air. That gets difficult in the case in El Dorado 
County, where you have asbestos in the soil, because the 
exposures of concern are primarily episodic, short-term 
exposures to relatively high levels of asbestos occurring from 
activities that release soil-borne fibers into the air, for 
example, driving down a dirt road or playing baseball in 
asbestos-contaminated soil, making it difficult to actually 
quantitatively assess risk. However, episodic exposures are 
important in view of the long time asbestos fibers can remain 
in the body and the cumulative nature of the injury and risk.
    Also, there is general concern about exposing children to 
any carcinogen. Children breathe more on a body-weight basis 
than adults, thus experiencing higher exposures in the same 
setting. Cancer has a long latency between exposure and 
manifestation of the disease. So when exposure occurs during 
childhood, the risk from carcinogens, including asbestos, is 
higher, because there is more time to develop the disease.
    Cal/EPA estimated risks from episodic exposures related to 
serpentine rock used for surfacing unpaved roads. The agency 
conducted a number of studies, measuring fibers that became 
airborne after vehicles drove down such roads. Furthermore, EPA 
Region 9 conducted activity-based sampling and showed elevated 
levels of airborne fibers released by soil-disturbing 
activities, including sports and mountain biking, running and 
so forth.
    As a result of such investigations, the California Air 
Resources Board promulgated two airborne control measures 
designed to reduce the allowable level of asbestos in aggregate 
use for surfacing and to reduce dust generation during 
construction and grading activities. Cal/EPA also has mandates 
to ensure school sites are free of asbestos. Furthermore, we 
worked with local air districts and EPA Region 9 to educate 
citizens on the presence and dangers of asbestos in the soil 
and how they can reduce their exposures.
    In closing, many studies have found mesothelioma, lung 
cancer and pleural abnormalities in populations exposed to 
naturally occurring asbestos. The presence of asbestos fibers 
in soil can pose elevated risks of cancer when the fibers are 
released into the air from activities that disturb the soil, 
such as construction activities, driving on unpaved roads and 
sports. These episodic exposures are important and mitigation 
measures are necessary to reduce exposure to naturally 
occurring asbestos.
    Thank you.
    [The prepared statement of Dr. Marty follows:]
     Statement of Melanie Marty, Ph.D., Chief, Air Toxicology and 
Epidemiology Branch, California Environmental Protection Agency, Office 
               of Environmental Health Hazard Assessment
    Good morning Senator Boxer and Members of the committee. My name is 
Melanie Marty. I am a toxicologist in the California Environmental 
Protection Agency and I direct the Air Toxicology and Epidemiology 
Branch in the Office of Environmental Health Hazard Assessment, or 
OEHHA. We are the Cal/EPA department mandated to assess the health 
risks of exposure to chemicals in our environment. My testimony today 
focuses on naturally occurring asbestos, or NOA, in California, the 
assessment of potential health impacts from exposure, and ways 
California is addressing exposure to NOA.
    Asbestos was identified as a Toxic Air Contaminant in 1986 in 
California, based on the evidence that asbestos causes asbestosis, lung 
cancer and mesothelioma in workers, and the ubiquitous presence of 
asbestos in urban air due to its widespread use in brake lining, 
building materials and so forth.
    The health effects assessment conducted for the identification of 
asbestos as a Toxic Air Contaminant was based on studies of workers 
exposed to asbestos in a number of industrial settings (such as textile 
and other products manufacturing). We evaluated the relationship 
between extent of exposure to asbestos and subsequent development of 
asbestos-related disease in the workers, with a focus on the cancers 
caused by asbestos, in order to assess cancer risk from exposure to 
asbestos in ambient air.
    The workers in the occupational studies we used in our risk 
assessments were exposed to mixed forms of asbestos ranging from 
relatively pure chrysotile to predominantly amphibole. Both types of 
asbestos are found naturally in the Sierra foothills, frequently 
together.
    When asbestos fibers become airborne, they can be inhaled deep into 
the lung. While some are cleared by normal physiological processes, 
many fibers remain in the lung tissue forever. Inhaled asbestos fibers 
can migrate from the lung to the pleura (the lining of the chest wall), 
and can be transported to other organs as well.
    There is no question that asbestos is a human carcinogen, and it is 
classified as such by the International Agency for Research on Cancer, 
and the U.S. EPA. Asbestos is regulated as a human carcinogen by OSHA, 
as well as by many countries around the globe.
    As you have heard from other witnesses, in occupational settings, 
chrysotile and amphibole asbestos exposure causes lung cancer and 
mesothelioma, a rare and fatal cancer of the lining of the chest wall 
and abdomen, and nonmalignant respiratory disease such as asbestosis. 
While many researchers consider the amphiboles to be substantially more 
potent than chrysotile in causing mesothelioma, all forms of asbestos 
can cause mesothelioma and are more or less equipotent in producing 
lung cancer, which accounts for a majority of asbestos-induced cancers. 
The disease that has been most well investigated in relation to 
exposures to naturally occurring asbestos is mesothelioma, in part 
because it is a rare cancer and strongly associated with asbestos 
exposure.
    Although initial studies focused on workers, there are many studies 
that describe mesothelioma in people exposed as a result of the 
presence of asbestos in the soil in their communities in Greece, 
Turkey, New Caledonia, and China. Many but not all of the mesotheliomas 
in these populations were related to use of the amphibole-containing 
soils in the community in various ways. Further, some studies have 
shown elevated mesothelioma and lung cancers in populations in close 
proximity to mines or asbestos factories where predominantly chrysotile 
asbestos-containing products were made. I submitted a short 
bibliography of key papers (there are many more studies) regarding 
environmental exposures to asbestos and cancer as well as a copy of 
some of these papers for your information. While it is difficult to use 
these studies to develop quantitative estimates of risks that 
Californians may face from naturally occurring asbestos, these studies 
heighten concerns about environmental exposures to asbestos.
    I'd like to make a few comments on the difficulties of assessing 
risk from exposure to naturally-occurring asbestos present in the soil. 
The typical approach for assessing risk from environmental exposure to 
airborne carcinogens is to use long-term average concentrations of the 
carcinogen in the air in the calculation.
    But in the case of naturally-occurring asbestos in the soil, the 
exposures of concern are primarily episodic short-term exposures to 
relatively high levels of asbestos occurring from activities that 
release soil-borne fibers into the air, for example, while driving down 
a dirt road, or playing in asbestos-contaminated soil. It is difficult 
to determine an average air concentration to use in the typical cancer 
risk assessment calculation. However, episodic exposures to asbestos 
are important, in view of the long time asbestos fibers can remain in 
the body and the cumulative nature of the injury and risk.
    There is general concern among scientists about exposing children 
to any carcinogen. Children breathe more on a body weight basis and 
thus experience higher doses than an adult in the same setting. Cancer 
has a long latency between exposure and manifestation of the disease; 
this is particularly true with asbestos-induced mesothelioma where 
there appears to be a long average latency, on the order of 30 to 40 
years in most cases. When exposure occurs during childhood, as opposed 
to adulthood, the risk from carcinogens including asbestos is higher 
because there is more time to develop the disease.
    Cal/EPA has tried to estimate risk from episodic exposures related 
to serpentine rock used for surfacing unpaved roads. The Agency 
conducted studies which measured asbestos fibers in the air after 
vehicles have driven down such roads. Any way one cuts the data, it is 
clear that asbestos fiber exposures are elevated, particularly very 
close to these roads, and the cancer risk is elevated as well. Further, 
USEPA Region 9 conducted activity-based sampling, measuring the 
airborne fibers released by soil-disturbing activities including 
playing baseball, riding a mountain bike or running along an unpaved 
trail. These measurements clearly indicate that activities that disturb 
the soil result in locally elevated asbestos fiber concentrations.
    I would like to touch briefly on some of the mitigation measures 
that have been put in place in California. The California ARB 
promulgated an airborne toxic control measure designed to reduce the 
allowable level of asbestos in aggregate and other materials used for 
surfacing unpaved roads. The local Air Pollution Control Districts in 
areas with asbestos in the soil have adopted measures to reduce dust 
generation during construction and grading activities. The Dept of 
Toxic Substances Control as part of its mandate to ensure that school 
sites are safe to build on, evaluates sites for the presence of 
asbestos in the soil, and requires mitigation and maintenance of such 
sites to reduce as much as is practicable the exposure of children 
attending these schools. In addition, there has been an effort by ARB 
and the local air districts to educate citizens on the presence of and 
dangers of asbestos in the soil, and on ways they can reduce their 
exposures. Information including fact sheets on these activities have 
been submitted for your review. And finally, we have been actively 
working with USEPA Region 9 to evaluate exposures and risk and provide 
information to the public in El Dorado County about asbestos in their 
soil.
    In closing, many studies have found mesothelioma, lung cancer, and 
pleural abnormalities in populations exposed to naturally occurring 
asbestos. The presence of asbestos fibers in soil can pose elevated 
risks of cancer (above background asbestos risks) when the fibers are 
released into the air from activities that disturb the soils. 
Construction activities, driving on unpaved roads surfaced with 
asbestos-containing rock, and other activities that people do 
(including sports) can elevate the concentration of airborne fibers in 
the immediate vicinity and expose individuals engaged in those 
activities to elevated fiber levels. These episodic exposures are 
important and increase the risk of asbestos-induced cancers to a level 
that is of regulatory concern. Finally, mitigation measures are 
necessary to reduce exposures to NOA.
    Thank you for the opportunity to testify.
                                 ______
                                 
           Some Key References for Cancer from Environmental 
                         Exposures to Asbestos
    Berry M. (1997) Mesothelioma incidence and community asbestos 
exposure. Environ Res 75:34-40.
    Horton K et al. (2006) A review of the Federal Governmen's Health 
Activities in Response to Asbestos-Contaminated ore found in Libby, 
Montana. Inhalation Toxicol 18: 925-40.
    Luce D et al. (2000) Environmental exposure to tremolite and 
respiratory cancer in New Caledonia: A case-control study. Am J 
Epidem151:259-65.
    Luo S, et al. (2003) Asbestos related diseases from environmental 
exposure to crocidolite in Da-yao, China. I. Review of exposure and 
epidemiological data. Occup Environ Med 60:35-42.
    Magnani C et al. (1995) Pleural malignant mesothelioma and non-
occupational exposure to asbestos in Casale Monferrato, Italy. Occup 
Environ Med 52:362-7.
    Maule MM, et al. (2007) Modeling mesothelioma risk associated with 
asbestos exposure. Environ Health Perspect. Doi:10.1289/ehp.9900 
(available at http://dx.doi.org/) online March 22, 2007.
    Metintas S, et al. (2002) Malignant mesothelioma due to 
environmental exposure to asbestos:Folow-up of a Turkish cohort living 
in a rural area. Chest 122:2224-9.
    Paoletti L et al. (2000) Unusually high incidence of malignant 
pleural mesothelioma in a town of Eastern Sicily: An epidemiological 
and environmental study. 55:392-8.
    Sakellariou K et al. (1996) Malignant pleural mesothelioma from 
nonoccupational asbestos exposure in Metsovo (north-west Greece): slow 
end of an epidemic? Eur Respir L 9:1206-10.
    Smith A and Wright C. (1996) Chrysotile asbestos is the main cause 
of pleural mesothelioma. Am J Ind Med 30:252-66.
california government web sites related to naturally occurring asbestos
    1. The California EPA, Air Resources Board has a number of fact 
sheets and posted documents related to the identification of asbestos 
as a Toxic Air Contaminant and the presence of asbestos in California 
soils:
    http://www.arb.ca.gov/toxics/asbestos/asblinks.htm
    http://www.arb.ca.gov/toxics/asbestos/asbestos.htm
    The following provides a link to the 1986 health effects assessment 
for asbestos as a Toxic Air Contaminant:
    http://www.arb.ca.gov/toxics/id/summary/summary.htm
    2. The California EPA, Office of Environmental Health Hazard 
Assessment has a fact sheet on asbestos health hazards:`
    http://www.consrv.ca.gov/cgs/minerals/hazardous--minerals/asbestos/
index.htm
    3. The California EPA, Department of Toxic Substances control 
school site assessment program evaluates school sites for presence of 
naturally occurring asbestos as part of their program to ensure 
adequate protection of public health at schools. They have several 
documents regarding activities to reduce exposure located at the 
following link:
    http://www.dtsc.ca.gov/Schools/index.cfm#Environmental--
Advisories--and--Guidance
    4. The California Geological Survey web site contains numerous 
publications regarding the presence of asbestos in California soils 
including maps of various areas with known asbestos in the soil.:
    http://www.consrv.ca.gov/cgs/minerals/hazardous--minerals/asbestos/
index.htm
                               __________

    Senator Boxer. Thank you very much.
    I want to thank the panel. Let me try to cut to the chase 
here. I have a few questions for Dr. Weissman.
    Dr. Weissman, this country still imports more than 2,500 
metric tons of asbestos a year, as well as products that 
contain asbestos. Can you describe the types of diseases 
associated with the use of these materials and whether these 
disease may be a concern for people who use these products in 
or around their homes?
    Dr. Weissman. As we have heard, the types of diseases that 
are caused by asbestos exposure break into cancerous conditions 
and non-cancerous conditions. Among the non-cancerous 
conditions are asbestosis, which is a fibrosing lung disease 
that causes shortness of breath and impaired respiratory 
function. Also, asbestos can damage the pleura, which is the 
tissue lining the surfaces of the lung and chest wall, 
resulting in fibrosis. It can either by plaques or more 
extensive fibrosis that can constrict the lungs.
    From the side of carcinogenic effects, lung cancer, 
mesothelioma, there are also associations with cancer of the 
larynx and cancers of the gastrointestinal tract.
    With regard to the impact of continued exposure to 
asbestos, in protecting workers, there is something called the 
industrial hygiene hierarchy of controls, which is the approach 
to reducing exposure to reduce disease. Really the No. 1 best 
way to reduce disease caused by a hazardous exposure is to 
eliminate the exposure. The No. 2 thing that we think about is 
whenever possible substituting for other products that are less 
hazardous. Then we get into other kinds of controls, like 
engineering controls and respirators.
    Senator Boxer. So limiting exposure would certainly be 
achieved if we were to, I am not asking your opinion on this, 
stop the importation so the products wouldn't have it, that 
would limit the exposure, obviously, to the products that were 
still on the market. So I ask you specifically if it would 
impact people around the home, who might be exposed. I am 
assuming you would say yes. You are not making a distinction 
between workers and people in their homes. You are saying if 
you are exposed to it, it could be a problem, is that correct?
    Dr. Weissman. That is correct.
    Senator Boxer. OK. I just wanted to note, I am taking this 
from the USGS Minerals Yearbook, the importations include 
corrugated cement sheet, flat cement panel sheet, cement pipe, 
tube and pipe fittings, other cement products, yarn and thread, 
cord and string, woven or knitted fabric, articles for us in 
civil aircraft gaskets, other building materials, brake lining 
and pads, mounted brake linings for tractors. I am going to put 
this into the record without objection.
    [The referenced material follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Boxer. I guess as I listen to you, and I so 
appreciate the panel, we had some questions from Senator Vitter 
and raised by my Ranking Member on a certain type of product 
that perhaps that is a safe form. I wanted to ask you about 
chrysotile. What I want to know is whether exposure to this 
type of asbestos has adverse health impacts.
    Dr. Weissman. Yes.
    Senator Boxer. What would they be?
    Dr. Weissman. Yes, chrysotile asbestos is hazardous and has 
the same health impacts as other types of asbestos. There is a 
debate in the literature over the potency, over whether you 
need the same dose of chrysotile to cause one of the health 
effects, which is mesothelioma. But it certainly causes all of 
the same health effects.
    Senator Boxer. So you would agree with Dr. Marty, who made 
that point. And I see that Dr. Miller is shaking his head.
    OK. I guess my last question is this. In a lot of these 
issues, the more vulnerable populations are more at risk. Have 
you found that in this whole thing of asbestosis? For example, 
if a worker comes home and hugs a child, and he had asbestos 
fibers on him, have you had any studies that indicate that the 
more vulnerable populations would be more apt to get sicker 
earlier, or have there been no studies of that?
    Dr. Weissman. We don't have any information from NIOSH 
about take-home exposures of families. I would defer to Dr. 
Miller on that.
    Senator Boxer. Dr. Miller or Dr. Marty, either.
    Dr. Miller. With respect to that, our concern is certainly 
that children, being exposed at an earlier age, at a minimum 
would have a longer period of life to express disease. Those 
fibers get into their lungs, they are durable, they are going 
to stay in their lungs and they will have that.
    Another part of that concern is, are children just more 
susceptible, at the developmental time of their life.
    Senator Boxer. That is why I asked the question. I wrote a 
bill called The Children's Environmental Health Protection Act. 
It makes the point that when we set standards for anything, 
when we do laws about anything, we have to focus on the 
children, because they are developing and it may be more 
dangerous.
    Dr. Marty, do you have any comment on that, exposure to 
most vulnerable, like our children?
    Ms. Marty. Yes. I think for children, we also have to 
recognize that they probably have higher exposures in the same 
setting as an adult, simply because they breathe more on a body 
weight basis and particle deposition appears to be higher. This 
would probably be the same for fiber in a child's lung than in 
an adult's lung.
    Senator Boxer. So it is more a proportion of their body, 
because of their size. I think the point that Dr. Miller makes 
is important as well, that because they would be exposed at 
this early age, the disease would take shape at a younger age 
than an adult.
    Ms. Marty. Yes.
    Senator Boxer. So if an adult is exposed at age 30, it may 
take how many years on average to get mesothelioma?
    Ms. Marty. Thirty, approximately.
    Senator Boxer. But if it is a child, they could die at 36 
or 40.
    Ms. Marty. And there are definitely case reports in the 
literature of children being exposed from take-home exposure or 
from environmental exposure and having mesothelioma at a 
relatively young age.
    Senator Boxer. I think, colleagues, this is a really 
important point, that when we ban asbestos and we ban materials 
like asbestos, we are really protecting the children, in 
addition to everybody else.
    Senator Vitter.
    Senator Vitter. I just wanted to ask all the panelists 
their impression or summary of the science on specifically 
chlor-alkali production.
    Dr. Weissman. I don't have any comments on that. I come at 
it purely from my expertise as a physician. And as a physician, 
any potential exposure creates the potential for disease. But 
as to the criticality of use of asbestos in the process and the 
viability of alternatives, it is outside of my expertise.
    Dr. Miller. I don't have specific knowledge of that 
production. But concerns would be the production, processing, 
transportation of these materials and the disposal of it. While 
it may be controlled in the work environment, and that can be 
done with a lot of toxic substances we deal with, our concerns 
with this situation, as with other asbestos products in 
commerce would be the concerns of how it is handled, what is 
done with it and who may be exposed outside of those controlled 
conditions.
    Ms. Marty. In other words, someone mined it, someone milled 
it, someone packed it in bags before it ever got into the 
diaphragm.
    Senator Boxer. Senator, do you have any further questions?
    Senator Vitter. No, I am fine.
    Senator Boxer. OK, thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    I may have defined the disease incorrectly in my earlier 
statement. I used the term asbestosis. I kind of thought that 
was a coverall for all forms of the illness derived from 
exposure. But the people who came to see me, the family I 
described, who, three of them were terminally ill, it was 
mesothelioma. And a very close personal friend of mine was a 
physician named Dr. Irving Selikoff. He had a practice in 
Patterson, NJ, where I earlier described the fact that high 
school mates of mine worked in an asbestos factory and suffered 
some terrible results as a consequence of that very short 
exposure. As I hear you talk, the latency period suggests that 
there is a time bomb in the body of these folks who have been 
exposed. And when it is going to go off, we are not sure. But 
we are sure of one thing, that it is going to explode.
    I would ask you this, Dr. Miller. Prevention is the ideal 
program to avoid this. Is treatment available for mesothelioma 
or related lung disease?
    Dr. Miller. Just going back to the first element of your 
question, we certainly see asbestos exposures, low exposures, 
resulting in disease of great concern. As a matter of fact, we 
have been working closely with Dr. Selikoff at Mount Sinai on 
research on this. They had actually done work at Patterson and 
looked at the households, the home contacts of these workers, 
and even people that worked there for just a short time and 
looked at the household contacts of those workers. They found 
that there was very high elevation of disease in these folks in 
their homes, just as a result of the workers' contamination, 
and bringing it home.
    They even looked at some folks that were either born in the 
house or came into the house subsequent to the workers' 
stopping, with just that residual contamination. It would 
suggest that residual contamination of asbestos in their home 
is producing this, not even having an active worker coming in 
and out and shaking off their clothes and washing them. So that 
is of great concern.
    Certainly the efforts are to prevent this, to prevent these 
diseases from occurring. I am not familiar with the current 
treatments of mesothelioma, and I wouldn't be the best to try 
and comment on that. I am not sure if my colleagues here could 
do that.
    Senator Lautenberg. Do either one of our friends at the 
table have any comments on treatment possibilities?
    Dr. Weissman. The bottom line is that the pulmonary 
fibrosis caused by asbestos exposure, asbestosis, the treatment 
is only symptomatic. There is no treatment for the underlying 
process. That is also the case for diffuse pleural thickening, 
the pleural fibrosis that constricts the lungs, and of the 
treatment results for the cancers that are caused by asbestos 
are dismal.
    Senator Lautenberg. It is essentially a death sentence if 
exposed.
    Dr. Miller, based on your work at EPA, is there any safe 
level of exposure to asbestos that would not cause disease to 
follow?
    Dr. Miller. Thank you for the question, Senator. Asbestos 
is one of the first diseases I studied on entering occupational 
health and it is one that I thought we had resolved. A 
situation like Libby, MT came up and caused me to go back in 
and try to reevaluate this and look at the evidence that is 
available. Asbestos was first described to cause disease back 
in 50 A.D., by Pliny the Elder. So the fact is, we have been 
struggling with this for a long, long time.
    The issue of what is safe, to our understanding there is no 
safe level that has been identified. The more you are exposed 
to asbestos, the more it increases your risk for disease. The 
fact is, we have seen disease, while fairly rare, resulting 
from people that had relatively inconsequential exposures, very 
short exposures, children of a parent that worked in an 
asbestos factory for a short time.
    So at this point in time, we do not know of a safe level 
with respect to asbestos.
    Senator Lautenberg. Madam Chairman, may I take 1 more 
minute?
    Senator Boxer. Yes.
    Senator Lautenberg. I would ask this, also. Dr. Miller, 
last week a New Jersey school was forced to close its doors 
because asbestos was found in one of the classrooms. Are there 
Federal resources available to assist State and local school 
districts in helping to prevent exposure as a result of that 
condition?
    Dr. Miller. I can't comment entirely. I know that EPA has 
been involved in a number of situations in providing technical 
assistance and certainly I personally provide technical 
assistance to schools, as you have mentioned, with respect to 
trying to do appropriate testing and evaluation and assisting 
with discussions about appropriate remediation.
    So as far as active programs from the Federal side, I think 
it mostly resides in the domain of technical assistance in 
trying to help folks evaluate these situations and provide 
technical assistance in that respect.
    Senator Lautenberg. Thank you. Thank you, Madam Chairman.
    Senator Boxer. Thank you. Senator Carper.
    Senator Carper. Thank you. My thanks to our witnesses for 
coming this morning.
    I missed your testimony. I am going to ask you a question, 
I will ask you all the same question. I apologize for missing 
your testimony. But I just want you to take maybe a minute 
apiece and give me what you think should be our takeaway from 
your testimony. If we remember nothing else of what you said, 
what might that be?
    I understand, while they are thinking about that, I 
understand, Madam Chair, that Senator Murray is moving forward 
with the legislation. I think that is good. I understand that 
they are making at least one modification with respect to 
production of chlorine and trying to model it after what they 
are doing in the European Union. I think that makes sense. I 
understand that there is some issue maybe involving last year's 
definition involving common rocks to try to make an 
accommodation there. Going back to last year's definition, I 
think if those two changes are made, I think we have a bill 
that is going to roll right out of here and get to the Senate 
floor and through the Congress.
    With that having been said, let me ask of our panelists, 
any takeaway you would like to share with me? Let's start with 
Dr. Marty, if we could.
    Ms. Marty. I think the upshot is that all forms of asbestos 
cause asbestos-related disease, chrysotile, amphiboles, and 
even things that aren't quite called asbestos, at least yet. 
Environmental exposures are a concern. We have studies across 
the world showing an epidemiological way that mesothelioma 
incidence is elevated in populations that have naturally 
occurring asbestos in their soil and we must reduce exposures 
as much as is practicable.
    Senator Carper. All right, thank you.
    Captain? I used to be a captain in the Navy.
    Dr. Miller. I think it is important with respect to this 
issue, a lot of what we have been focusing on has kind of been 
defined by mineralogists and by techniques that have been 
available, older techniques that were available at the time we 
started into this. And what we really want to focus on is 
capturing those fibers which are causing illness and not being 
limited by either antiquated methods or older understandings of 
disease and exposure.
    So with that, I really want, I guess, to further the 
understanding of what are the fibers, what are the minerals 
that are causing this problem. There are things about the 
fibers we measure, that we measure a certain sector. As Dr. 
Weissman mentioned, these phase contrast optical microscopy 
fibers. But we know that there are fibers outside of that phase 
contrast optical microscope, looking at things under a 
microscope versus a big microscope, a TEM microscope, which we 
use and have been using in our environmental situation in Libby 
and across the country.
    So to use this, we see a lot more. Our understanding is 
there are a lot of these fibers that have toxic effects. As a 
matter of fact, the shapes and what the fibers look like, I 
believe Senator Inhofe provided a diagram of pictures of rocks 
and fibers. Rocks and fibers, it is not one or the other. They 
run across a gamut. They have different sizes and shapes, from 
one extreme of being a willowy looking fiber to another extreme 
of being kind of a short, stubby, rock-like material.
    Senator Carper. Captain, I asked for a 1-minute takeaway. I 
want to make sure Dr. Weissman gets to speak. So finish up.
    Dr. Miller. So in between, these fibers all have health 
effects that we need to be concerned about and captured in 
whatever efforts we make to control and ban asbestos.
    Senator Carper. Thank you.
    Dr. Weissman?
    Dr. Weissman. Senator, I have three big points. First, 
there are still a lot of people getting disease because of past 
exposures. We need to think about them.
    Second, even at our permissible exposure limit for 
asbestos, there is still an appreciable, detectable risk of 
developing diseases, including lung cancer. It is a very 
hazardous thing to be exposed to.
    Third, and finally, we need research. We need better 
exposure assessment methods that include all of the hazards, 
that count all of the hazardous fibers to which people are 
exposed, not just those that we can see under a light 
microscope. And we need to understand the toxicities of all the 
different fiber types and drive our public policy based on 
that. So there is still room to do better.
    Senator Carper. Good. Thank you very much for that 
response. My thanks to all of you and thank you, Madam Chair.
    Senator Boxer. Let me thank the panel. For my takeaway, 
Senator Carper, I took away that there is no safe level of 
exposure and the kids are the most vulnerable.
    In terms of people still getting sick, I thank you, Dr. 
Weissman, because Patty Murray's bill does get help to those 
people. I think that is a very important point.
    We thank this panel. You have been just terrific, thank you 
very much.
    We invite our last panel--oh, I forgot that we have been 
joined by the wonderful Senator Klobuchar, who I missed, even 
though I shook her hand on the way in. I am sorry. Senator, you 
are welcome to sit over here. The floor is yours, you can use 
it either for questions or an opening statement. You have 5 
minutes.
    Senator Klobuchar. I just have a few quick questions. That 
is of you, Dr. Weissman, first, and about your work with NIOSH. 
You talked about the need for research. So I was wondering what 
type of monitoring and tracking system NIOSH has in place now 
for asbestos-related diseases?
    Dr. Weissman. It is not a perfect system by any means. The 
primary stream of data that we rely upon for surveillance is 
mortality data, which is based on death certificates. Death 
certificates are well known to incompletely capture all of the 
cases of disease. In addition, since 1999, the electronic data 
bases that are abstracted from death records don't include 
information about usual occupation and usual illness.
    So we can track things that are tightly related to asbestos 
exposure, like asbestosis and mesothelioma. But things like 
lung cancer that have a background in the population can be 
caused by other things than asbestosis. We have some trouble 
tracking that. But death data is really the main thing that we 
have to work with.
    Senator Klobuchar. So do you think there is potential for 
under-reporting of asbestos-related illnesses, then?
    Dr. Weissman. That is right, because we depend upon the way 
that people fill out death certificates. It is well known that 
death certificates under-report.
    Senator Klobuchar. And you were talking about how there are 
more cases being diagnosed from the past, people have gotten 
this from the past. Is there a large amount of asbestos-related 
product still in existence in the United States?
    Dr. Weissman. Yes. There are reservoirs of asbestos in 
older buildings where the asbestos is being managed in place 
but can still be encountered when buildings are demolished or 
renovated. Then there is still important of asbestos-containing 
products.
    Senator Klobuchar. What kinds of products are those?
    Dr. Weissman. Things like automotive friction products, 
cement products that contain asbestos.
    Senator Klobuchar. Does better equipment, I guess I would 
ask all of you this, like ventilators or some kind of personal 
dust respirators, does that result in lower illness? Have any 
of you looked into this?
    Dr. Weissman. Respirators are considered in one of the, in 
what we call the industrial hygiene hierarchy. They are the 
least preferred method of control, because even if someone 
wears them, they might not work. Then also, people have to wear 
them whenever they are exposed, and they might not always know 
when they are exposed.
    So respirators are the least preferred method to protect 
people.
    Senator Klobuchar. Do you want to add anything to that?
    Dr. Miller. I think with respect to protection, NIOSH-
approved personal protection equipment and controls are the 
most appropriate.
    Senator Klobuchar. I have heard, I think one of the other 
witnesses who is going to testify talked about the need to 
better coordinate with States to improve the surveillance of 
fiber-related illnesses. In fact, I guess I would ask you as 
well, Dr. Weissman, about how NIOSH, OSHA, both of them are 
currently coordinating with State governments to address 
asbestos-related diseases?
    Dr. Weissman. NIOSH has an activity with the States to do 
State-based surveillance for occupational diseases. So we have 
a granting program. Not every State has a grant under that 
program. But it supports State-based surveillance for diseases. 
Different States have somewhat different portfolios of what 
they monitor for. But that is the main NIOSH interaction with 
States in terms of surveillance.
    In terms of OSHA, our interaction is largely from hazard 
surveillance. OSHA, under an agreement with NIOSH, provides us 
with their compliance data and allows us to track levels of 
exposure, which appears in our surveillance report that we put 
out at intervals.
    Senator Klobuchar. Thank you very much.
    Senator Boxer. Senator Inhofe said he had no questions for 
this panel. So we are going to thank you again, and I am sorry, 
Senator Klobuchar. I am so pleased that you are here and to 
have you on this committee is just so fortunate for America.
    Senator Klobuchar. Thank you very much. I am glad you are 
here, too.
    [Laughter.]
    Senator Boxer. Now we will call up our third panel, or our 
second panel but third group of witnesses. Barry Castleman, 
Sc.D., Environmental Consultant; Ann Wylie, Ph.D., University 
of Maryland, Department of Geology; David Weill, M.D., 
director, Lung and Heart-Lung Transplant Program, Stanford 
School of Medicine; Richard Lemen, Ph.D., M.S.P.H., former 
director of Division of Standards Development and Technology 
Transfer at NIOSH, Assistant Surgeon General, U.S. Public 
Health Service, retired; and Linda Reinstein, executive 
director and co-founder, of the Asbestos Disease Awareness 
Organization.
    We will start with Dr. Castleman, an environmental 
consultant. We will ask each of you to speak for 5 minutes. We 
will put your full statement into the record and then we will 
start with questions.
    Senator Inhofe. Madam Chairman?
    Senator Boxer. Yes.
    Senator Inhofe. Let me do a U.C., here, first if I could.
    Senator Boxer. Of course.
    Senator Inhofe. We received just yesterday a letter from 
the El Dorado County Office of Education regarding this hearing 
and their experience with non-asbestiform rock that has been 
mistaken as dangerous asbestiform. I would like to include this 
in the record.
    Senator Boxer. Of course, without objection, it will be 
done.
    [The referenced material follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Boxer. Dr. Castleman, we welcome you. Please 
proceed.

 STATEMENT OF BARRY CASTLEMAN, Sc.D., ENVIRONMENTAL CONSULTANT

    Mr. Castleman. Thank you, Senator Boxer.
    I have worked for 35 years with U.S. Government agencies, 
non-governmental organizations, international agencies on 
asbestos issues. I also testify as an expert witness about the 
public health history of asbestos, the subject of my doctoral 
thesis.
    I work with other public health workers all over the world 
on asbestos, and we all hope to see the United States join 
about 40 other countries that have banned asbestos.
    The World Trade Organization has concluded that controlled 
use of asbestos products is unrealistic, supporting national 
asbestos bans. Here, as we have noted, the EPA tried to ban 
asbestos, but the rules were overturned in a court challenge.
    There is broad support for banning asbestos in the United 
States today. A statement in support of the Ban Asbestos in 
America Act has been endorsed by 18 groups, including leading 
American unions, environmental groups and asbestos victims 
groups, groups including the AFL-CIO, the Service Employees 
International Union, the Natural Resources Defense Council, the 
White Lung Association, Asbestos Diseases Awareness 
Association. There are also a number of groups from around the 
world that have also joined in this, showing the tremendous 
impact on the rest of the world of the United States having not 
up until now banned asbestos. So I offer this for the record, 
the statement and the groups that have endorsed it.
    U.S. consumption of asbestos annually is now what it used 
to be in a single day in 1973. It is about one 400th of what it 
was at its peak. There is practically nothing left of the 
asbestos industry here. The main use appears to be in roofing 
products and one process for making chlorine. The European ban 
on asbestos has no exemption for roofing products and they 
don't seem to have any problem with that. Here too we have 
plenty of alternative materials.
    As for chlorine, it is made by two processes, two old ones 
and one modern one. One of the old processes is the diaphragm-
cell process, in which an asbestos diaphragm has been used. The 
newer membrane-cell process is the only type used in new plant 
construction since 1987 around the world, because it is much 
more energy efficient and it doesn't use mercury or asbestos.
    There were questions raised about the exposures that you 
can get in this industry, Senator. Asbestos exposures arise 
from transport and storage of sacks of asbestos involving tears 
in the sacks that must be identified and sealed and the 
spillage cleaned with special vacuum cleaners; cutting open and 
emptying sacks of asbestos; transferring sacks into slurry 
mixing tanks can cause additional exposures; if there is any 
spillage of the slurry, that has to be cleaned up very 
carefully or you have the drying of the material and the 
creation of an airborne asbestos hazard.
    Then the diaphragm has to be properly handled and stored 
again, providing for the possibility of exposure. Then the 
hydro-blasting for removal and replacement of the asbestos is 
another possible source of area contamination and drying and 
airborne exposure. Then you have the waste asbestos from all of 
this that has to be dealt with as well as the personal 
protective clothing that workers may wear, throw away garments 
that then are hazardous waste themselves. I have comments on 
this in my prepared statement, Senator.
    The diaphragm-cell chlorine plants can also be operated 
with non-asbestos diaphragms, as Senator Boxer pointed out 
there, available from companies including PPG in the United 
States, which has used it in their own plants. So they can 
replace the asbestos diaphragms with non-asbestos, or they can 
convert to the membrane process. In Japan, the chlorine 
industry is solely membrane cell. In Europe, I think there are 
only three plants left using asbestos diaphragms.
    I would say that there shouldn't be a statutory exemption 
for the chlorine industry. They should have to justify that 
based on current technology to the EPA along with any other 
party that wants to have an exemption to the ban that Senator 
Murray has put into her bill.
    The main problem, as pointed out, is the import of asbestos 
products. I simply would point out that these products compete 
against safer products made in the United States. There is just 
no reason why they should be allowed to be continuing to be 
imported.
    As for contaminant asbestos, there are problems with talc. 
Four months ago I sent a letter with several other scientists 
to the Consumer Product Safety Commission. There is a notorious 
talc in upstate New York that is contaminated with asbestos. 
People have died with asbestosis, lung cancer and mesothelioma 
from mining the stuff. Yet the company that makes it persists 
in selling the stuff as if it doesn't have asbestos, and making 
mineralogical arguments to that effect. Meanwhile, this product 
is being used in consumer products used all over the United 
States.
    Senator Boxer. Can you wrap up, Doctor?
    Mr. Castleman. Sure. So I think that it is very important 
for the Government to deal with the issue of contaminant 
asbestos and talc, vermiculite and construction stone. We can 
definitely deal with a ban on commercial forms of asbestos very 
quickly and I hope you will proceed to do that.
    [The prepared statement of Mr. Castleman follows:]
     Statement of Barry Castleman, Sc.D., Environmental Consultant
    Members of the committee, thank you for inviting me to testify 
about public health issues related to asbestos exposure in America 
today. I have worked on public health issues surrounding asbestos for 
35 years, including product bans at the Consumer Product Safety 
Commission and regulations at EPA, OSHA, and FDA. My bachelor's degree 
is in chemical engineering, my masters is in environmental engineering, 
and my doctorate is in public health policy from the Johns Hopkins 
School of Hygiene and Public Health. I will discuss public health 
issues related to present asbestos hazards and banning asbestos in the 
U.S.
                               background
    The public health and corporate history of asbestos were the 
subject of my doctoral thesis and a 900-page book (asbestos: Medical 
and Legal Aspects). The book is in its 5th edition and has been cited 
in judicial opinions up to the Supreme Court. I have testified about 
this history as an expert witness in courts across this country since 
1979.
    It is tragic that so much of the public health catastrophe we are 
seeing now was not only foreseeable but foreseen long ago. The cancer 
hazard of breathing asbestos dust was noted in The New York Times, 
Business Week, Scientific American, and Newsweek all before this time 
in the year 1950. But it would not be until after social developments 
led Congress to establish the EPA, OSHA, and NIOSH in 1970 that workers 
and the public were first protected from or even warned about the 
dangers of most asbestos products. So it was not until 1973 that our 
use of asbestos peaked, at around 800,000 metric tons. U.S. consumption 
of asbestos for the year 2006 was down to around 2000 metric tons, 
approximately the amount we used each day in 1973.
    Americans are now dying from asbestos cancers and asbestosis at the 
rate of 10,000 per year, as a result of past asbestos use. That is more 
than one death per hour. The medical literature is replete with tragic 
cases of mesothelioma in people with minimal occupational and 
environmental exposures to asbestos. The World Trade Organization has 
rejected the idea that there is really such a thing as ``controlled 
use'' of asbestos, citing do-it-yourself home repair as a prominent 
example of something no government can make safe through regulations. 
Starting in the early 1980s, Sweden and other countries pressed 
manufacturers to substitute asbestos in vehicle brakes so they could 
impose national asbestos bans.
    The U.S. EPA tried to phase out the major uses of asbestos in 
regulations published in 1989, but the rules were overturned in a court 
challenge. EPA was unable to persuade the Department of Justice to 
appeal the court's 1991 decision, leaving the matter to Congress to 
resolve.
                        u.s. asbestos use today
    The main problem now is imported asbestos products, commercial 
asbestos product manufacture is almost extinct in the U.S. Because 
there is practically no restriction on what can be sold with asbestos 
in the U.S., we continue importing asbestos-containing brake linings, 
asbestos gaskets, asbestos yarn and thread, etc., despite the fact that 
these products are no longer made in the U.S. Given the abject lack of 
OSHA enforcement of asbestos product labeling requirements, there is a 
real concern that some imported asbestos products are not even labeled 
with the required health warnings.
    The last U.S. asbestos mine closed in 2002. U.S. consumption of 
commercial asbestos in domestic manufacturing seems to be limited now 
to roofing felts and related products, and chlorine manufacturing (see 
below). No asbestos roofing products are needed or allowed in the many 
countries of Europe where asbestos has been banned for over 10 years 
(e.g., Sweden, Germany, Italy, France, Denmark, Holland), and 
alternative non-asbestos roofing products are widely available here. 
U.S. brake manufacturers no longer use asbestos, and the auto industry 
has already stopped using asbestos brakes in new vehicles and 
replacement parts throughout Europe and elsewhere.
              asbestos exposure in chlorine manufacturing
    Asbestos has long been used in the diaphragm-cell process for 
making chlorine. This process and the old mercury-cell process are 
still operated, although a newer and more environmentally and 
technically superior membrane-cell process has been the only type built 
anywhere in the world for the past 20 years. Some diaphragm and mercury 
cell plants have been converted to membrane cells. Power requirements 
are substantial for chlorine manufacture, and the membrane cell process 
requires 15-20 percent less energy than diaphragm cells.
    Asbestos exposures in the chlorine industry arise from transport 
and storage of sacks of asbestos, typically involving tears in the 
sacks that must be identified and sealed, with spillage cleaned with 
high-efficiency vacuum filters. Cutting open and emptying sacks of 
asbestos and transferring asbestos into slurry mixing tanks can cause 
additional exposures. The empty sacks are an additional exposure 
source, they must be carefully gathered up, placed in sealed 
containers, and landfilled at approved sites. Storage and handling of 
partially used sacks are also sources of exposure. If the slurry is 
spilled, this has to be meticulously cleaned up right away, because 
once it dries it becomes a source of airborne asbestos exposure. 
Handling and storage of prepared or purchased pre-deposited asbestos 
diaphragms can cause additional exposures. Hydro-blasting for removal/
replacement of asbestos diaphragms is another possible source of area 
contamination, drying, and airborne exposure. The water used for hydro-
blasting has to be contained and the asbestos filtered from it. The 
waste asbestos from this water and the spent diaphragms have to go to a 
landfill that accepts asbestos.
    To some degree, workers can be protected against these asbestos 
exposures if they wear respirators that will remove some of the 
asbestos from the air they breathe, and if they wear personal 
protective clothing such as disposable coveralls. But these safeguards 
are partial. The respirators must be fit-tested and properly 
maintained; and even the protective clothing is a hazardous waste that 
requires special precautions for disposal. Chlorine Institute pamphlet 
137, Guidelines: Asbestos Handling for the Chlor-Alkali Industry, 
recommends personal protective clothing and respirators only for 
workers exposed in excess of the permitted limits in the OSHA standard, 
which is all that is legally required. But OSHA has admitted that 
compliance with its limits will not fully prevent deaths from asbestos. 
Dr. Richard Lemen and NIOSH epidemiologists estimate that exposure at 
OSHA's permissible exposure limit for asbestos will still cause 5 
deaths from lung cancer and 2 deaths from asbestosis in every 1000 
workers exposed for a working lifetime. (L. Stayner et al., Exposure-
Response Analysis of Risk of Respiratory Disease Associated with 
Occupational Exposure to Chrysotile Asbestos. Occ. Env. Med. 54: 646-
652, 1997).
    While company manuals may state that the workers are supposed to 
observe various precautions to minimize asbestos exposure, there is 
virtually no OSHA inspection of these workplaces, and the usual 
combination of production demands, Gulf coast heat and humidity, and 
carelessness will assure that things are not always done ``by the 
book'' to minimize workers' asbestos exposure.
    In the past 15-20 years, non-asbestos diaphragms have become 
available for relatively simple replacement in asbestos diaphragm cell 
plants. These are sold by Eltech/DeNora and PPG Industries in the U.S. 
The non-asbestos diaphragms cost more and last longer than asbestos. 
Although two-thirds of the chlorine made in the U.S. in 2006 was from 
diaphragm cells, I don't know how many of these used non-asbestos 
diaphragms. The technology continues to advance, however, and has had 
wide acceptance in Europe, where the European Union's temporary 
exemption allowing asbestos use in chlorine manufacturing comes up for 
reconsideration next year. I understand that there are only 3 chlorine 
plants in Europe still using asbestos diaphragms.
    PPG Industries has been a leader in the development of non-asbestos 
``Tephram'' diaphragms, and PPG is also a major producer of chlorine in 
the U.S. I understand that PPG routinely replaces non-asbestos Tephram 
diaphragms in its asbestos diaphragm-cell units when they are taken 
down for periodic maintenance. I do not know of any technical reasons 
why other diaphragm-cell chlorine manufacturers could not do the same 
thing.
    Therefore, if chlorine manufacturers want extra time to convert to 
non-asbestos technology, perhaps that could be allowed but with the 
requirement that when the equipment is shut down for maintenance 
overhauls, the new diaphragms used be non-asbestos. A similar several-
year time frame might be allowed for diaphragm-cell units that 
manufacturers want to convert to membrane cells.
  contaminant-asbestos in talc, vermiculite, stone, and other minerals
1. Talc
    Aside from commercial asbestos minerals that have been used for the 
past century in various products, asbestos also occurs as a contaminant 
in other minerals. This has been long recognized, and at times the 
occurrence of asbestos fibers in these products has even been noted in 
advertisements for them. For example, it was repeated that 
``asbestiform varieties are common'' in a 1966 brochure describing 
NYTAL, the trade name for a talc mined in New York by R. T. Vanderbilt 
Company.
    Health officials had long ago noted that New York talc miners were 
dying from lung scarring, including asbestos bodies in the scarred lung 
tissues and pathology ``similar to [findings] reported in asbestosis.'' 
(FW Porro et al., Pneumoconiosis in the Talc Industry. Am. J. Roent. 
Radium Therapy 47: 507-524, 1942. Quote from FW Porro et al., Pathology 
of Talc Pneumoconiosis with Report of an Autopsy. North. N. Y. Med. J. 
3: 23-25, 1946). New York state labor protection officials noted that 
other writers had attributed talc lung scarring to the fibrous 
varieties of talc, and observed that, for New York talc miners, ``In 
general, the clinical, [chest X-ray], and pathological findings were 
similar to those observed in asbestosis.'' (M Kleinfeld et al., Talc 
Pneumoconiosis. Arch. Ind. Health 12: 66-72, 1955; M Kleinfeld et al., 
Talc Pneumoconiosis/A Report of Six Patients with Postmortem Findings. 
Arch. Env. Health 7: 101-115, 1963) So it should have come as no 
surprise that these talc miners also had an excessive death rate from 
cancers of the lung and pleura (M Kleinfeld et al, Mortality among Talc 
Miners and Millers in New York State. Indust. Hyg. Review 9: 3-12, 
1967).
    Starting in 2002, there have been published reports of cases of 
mesothelioma, considered a signal tumor for asbestos exposure, among 
New York talc miners. An epidemiology report sponsored by R. T. 
Vanderbilt Company found 2 cases among the 782 white men who had been 
employed for at least one day at the New York talc mines between 1948-
1989 (Y Honda et al., Mortality among Workers at a Talc Mining and 
Milling Facility. Ann. Occup. Hyg. 46: 575-585, 2002) R. T. Vanderbilt 
Company has stipulated that, subsequent to the period covered in this 
study, at least 5 more cases of mesothelioma have occurred among its 
employees (Hirsch vs. RT Vanderbilt Co. Middlesex Co. NJ Superior 
Court, Nov. 2, 2006). It appears that some of these cases were the 
subject of workers' compensation claims.
    Meanwhile, independent pathologists reported finding at least 8 
confirmed cases of mesothelioma among New York state talc miners and 
millers as of 1986, and added 5 new cases (MJ Hull et al., Mesothelioma 
among Workers in Asbestiform Fiber-bearing Talc Mines in New York 
State. Ibid. Suppl. 1, 132-136, 2002) Commercial amphibole asbestos 
fibers were virtually absent in the lung tissues of all 10 cases 
subjected to pathological examination, indicating that other 
occupational asbestos exposures (e.g., in construction) were not 
responsible for these mesotheliomas of these workers.
    R. T. Vanderbilt denies that there is asbestos in its talc and that 
its talc causes asbestos diseases. It is interesting to read internal 
memoranda of the Johns-Manville Corporation, the country's largest 
asbestos company, shortly after J-M bought a talc mine in the early 
1970s. J-M's talc had asbestos in it, and J-M labeled it accordingly, 
pursuant to the 1972 OSHA asbestos regulations. This upset executives 
at Vanderbilt, who claimed that J-M placing asbestos warnings on 
containers of talc was causing a ``big stink'' and ``irreparable 
damage'' to Vanderbilt in 1974. J-M laboratories proceeded to examine 
the Vanderbilt talc product grades microscopically. Their comments on 
what they found were expressed in internal memos that only came to 
light in recent years, after the consummation of the J-M bankruptcy 
plan in 1988.
    The J-M people found plenty of asbestos in the New York talc and 
used very strong language about Vanderbilt's insistence that there was 
no asbestos in its talc:
    It is apparent that the R. T. Vanderbilt presentations to OSHA, 
NIOSH, FDA, MESA, etc. are based on something less than the truth. I 
feel it difficult to believe that they could be so grossly misinformed 
as to what their materials really are.
    (RS Lamar, J-M Internal Correspondence, Oct. 11, 1974)
    The R. T. Vanderbilt position with respect to labeling must be 
deliberately perfidious; they cannot be this misinformed. Slim 
Thompson, their technical director, has a Ph.D. in mineralogy. At the 
moment, Vanderbilt is misleading their customers and confusing ours 
with the decision not to label. Ultimately, the truth will out, and 
they will be forced to label.
    (RS Lamar, ``An Assessment of the J-M Position with Talc,'' J-M 
Internal Correspondence, Mar. 20, 1975)
    The truth still hasn't won out, I am sorry to say. Fully 32 years 
after this was written by a morally offended official at the largest 
asbestos corporation in America, R. T. Vanderbilt still sells talc that 
they say has no asbestos hazards.
    As a result, this talc is used commercially in an unknown number of 
industrial processes and consumer products, endangering thousands, 
perhaps millions, of unwitting workers, consumers, and children. Along 
with two other scientists, I filed a complaint with the Consumer 
Product Safety Commission about Durham's Water Putty, a product sold 
across the country in Ace Hardware stores, because it exposes users to 
airborne asbestos arising from the product's ingredient of Vanderbilt 
talc (Jan. 29, 2007). The Center for Environmental Health, in Oakland, 
filed a complaint last month with the California Attorney General's 
Office, asserting that Durham's product has violated state law because 
it has been sold without cancer warning labeling. The Connecticut 
Department of Public Health filed another complaint with CPSC about 
asbestos hazards to school children from Vanderbilt talc in art clay 
products (Feb. 6, 2007). In 2006, a jury awarded $3.3 million to the 
estate of a New Jersey potter, finding that Vanderbilt's talc was a 
substantial cause of his death. Only Vanderbilt knows what other 
commercial uses and products expose the American people to this talc.
    The people in this country urgently require the government's 
protection against the sale of such products by manufacturers who 
prefer to play semantic games over what mineralogists and government 
regulations call ``asbestos'', while people continue to be unknowingly 
exposed to mortal peril. The grossly excessive number of mesotheliomas 
among the New York talc mine and mill workers is very powerful evidence 
that this material is lethal and should be regulated as asbestos and 
banned when asbestos is banned.
                             2. vermiculite
    We have seen this suppression of contaminant-asbestos health 
warnings in other cases. WR Grace sold vermiculite insulation that was 
contaminated with asbestos until 1990, ultimately placing it in 
millions of homes in the U.S. and Canada. The company had been called 
the Vermiculite and Asbestos Corporation when it opened in 1919, and 
Montana State Board of Health reports on the high asbestos exposures of 
the workers were sent to the company in the 1950s and 1960s. WR Grace 
sold this material without applying OSHA asbestos warning labels first 
required in 1972. By 1985, a ``Personal and Confidential'' memo 
reviewed the serious business problems from Grace continuing to sell 
vermiculite products that contained asbestos (RC Walsh, Feb. 2, 1985). 
Noting the difficulty of continuing to obtain insurance, one of the 
parties to this exchange commented that this ``increases attractiveness 
of setting business up as a subsidiary or some other legal form to 
distance it from Grace assets.'' Criminal proceedings are currently 
pending against Grace executives for selling this product as they did, 
but it was a public health failure that the government had not taken 
earlier action to prevent the widespread sale and exposure of millions 
of people to this deadly product. (A. Schneider, Big Asbestos 
Prosecution in Jeopardy, U.S. Argues. Seattle Post-Intelligencer, June 
5, 2007) http://seattlepi.nwsource.com:80/local/318479--
grace05.html?source=rss
    Vermiculite is still mined in the U.S. by Virginia Vermiculite. 
Mine Safety and Health Administration (MSHA) officials have raised 
concern about asbestos exposure of workers at this site and at plants 
receiving and processing this material. Vermiculite has been widely 
used in such products as potting soil, insulation, and cat litter.
    (A. Schneider, Virginia Miners at Risk from Asbestos. Seattle Post-
Intelligencer, Oct. 4, 2000) http://seattlepi.nwsource.com/
uncivilaction/asb04.shtml
                                3. stone
    Asbestos can also be present in basic stone used in construction. 
In 2005, research was published linking residence in areas of 
California with naturally-occurring asbestos outcrops and increased 
risk of mesothelioma (Pan et al., Am. J. Resp. Crit. Care Med. Oct. 
2005). Dr. Marc Schenker, one author of this study, expressed concern 
about the health hazard faced by people with environmental exposure in 
areas where land development was proceeding in El Dorado County, 
California, and other areas where asbestos minerals are known to be 
present in the soil in significant amounts. http://
www.medicalnewstoday.com/medicalnews.php?newsid=32149
                                iron ore
    There has been controversy for at least 35 years over asbestos-like 
material in the host rock of ore mined in the Iron Range of Minnesota. 
By March 2006, State officials identified 35 deaths from mesothelioma 
among the miners, in addition to 17 fatal cases previously known to 
have occurred between 1988-1996. http://www.startribune.com:80/462/
story/1250516.html
    What is needed is a process whereby the EPA does surveillance of 
possible sources of contaminant-asbestos around the country, starting 
with Vanderbilt talc and Virginia Vermiculite, using USGS mineral 
survey maps to help identify hot spots. Then, as operations of concern 
are discovered, there needs to be a process of investigation, first for 
the government to realistically sample the products of these operations 
and do bulk sample analysis. Then, if there is any concern over public 
and worker exposure, the company should have to disclose its commercial 
customer list to EPA. EPA could then contact the customers to see how 
the material is handled, ask what products it is used to make, and 
assess what asbestos exposures result for workers, consumers, and 
people living where the stuff is shipped, processed, and put to end 
use. In annual reports, EPA should disclose what operations it has 
under investigation, and summarize the state of these investigations, 
describing the commercial uses of the suspect materials. And of course, 
the EPA needs the authority to close operations and stop the sale of 
products that are deemed a threat to public health.
   broad support for banning asbestos in the u.s. and international 
                              implications
    A statement in support of the Ban Asbestos in America Act of 2007 
has been endorsed by groups that have been active on asbestos issues 
for many years in the U.S. and around the world. These include trade 
unions, leading environmental groups, asbestos victims' groups, and 
medical and public health groups. I ask that this statement and list of 
supporters be made a part of the record of this hearing.
    You can see that there are many groups from other countries that 
signed the statement in support of banning asbestos in the U.S., 
countries where asbestos is still used and is the subject of public 
health struggles. I work with people all over the world on asbestos, 
and everywhere the local asbestos industry points to the U.S. and says, 
``But asbestos is not banned in the United States.'' It would be great 
value to public health workers the world over if the U.S. finally 
banned asbestos. It would significantly assist efforts in Brazil, 
India, South Africa, Thailand, and many other countries. So, on behalf 
of the rest of the world and the people in our country, I urge you to 
ban asbestos in the U.S. now. It is long past time for the U.S. to take 
a 21st century position on this issue and catch up to Croatia by 
banning asbestos.
    I have not been paid by anyone for my preparation and testimony 
here today. Nor do I represent anyone but myself, a public health 
worker. Thank you for inviting me to speak.
                                 ______
                                 
Responses by Barry Castleman to Additional Questions from Senator Boxer
    Question 1. What benefits do businesses get when developing or 
using alternatives to asbestos?
    Response. Businesses benefit by developing safer alternatives to 
asbestos products in a number of ways. They have improved labor and 
community relations, compared to firms persisting in asbestos use. They 
avoid damaging publicity that often comes with resistance of employees, 
consumers, and plant neighbors to asbestos use. They don't have to 
spend money complying with EPA and OSHA asbestos standards (e.g., 
industrial ventilation system fixed and operating costs, periodic 
employee medical exams and air sampling, 30-year retention of medical 
records, cancer warning product label requirements, hazardous waste 
disposal requirements, etc.). They save money on group life, group 
health, workers' compensation, and product liability insurance. They 
will be around a lot longer than companies still using asbestos, 
because asbestos is hazardous, discredited technology losing markets 
worldwide.

    Question 2. Your testimony contained disturbing references to 
individuals in business that potentially hid information on health 
threats related to their products that may contain asbestos. In your 
experience, have other businesses potentially tried to hid information 
that their products may contain material that cold cause diseases 
associated with asbestos?
    Response. There are widespread examples of businesses that hid 
information that the use of their products could cause asbestos 
diseases. Many examples are given in my book, Asbestos: Medical and 
Legal Aspects (5th Ed., 2005). Despite published reports between 1932-
1964 from around the world that commercial asbestos products were 
causing death and disease, and despite workers' compensation claims 
around the country by workers harmed by asbestos products in 
construction in the 1940s and 1950s, no asbestos products appear to 
have borne even mild health warning labels before 1964. No manufacturer 
placed health warnings on brake linings, drywall patching compounds, 
and many other asbestos products until after they were required to by 
OSHA in 1972, sometimes many years after (e.g., Ford, Chrysler). OSHA 
has failed for 35 years to monitor the marketplace to assure that 
required labels were placed on asbestos products, so that products we 
import today may well contain asbestos that is not disclosed by foreign 
manufacturers and distributors. This problem is mainly confined to 
imports, as there are practically no commercial asbestos products made 
in the U.S. anymore.
    Other businesses selling products with contaminant-asbestos have 
withheld information from consumers to this day, and the scale of this 
menace is unknown. I gave examples in my statement of asbestos-
contaminated talc from R. T. Vanderbilt and vermiculite from Virginia 
Vermiculite. These companies deny that there is asbestos in their 
products, which are sold to commercial customers. At the customers' 
plants, workers are consequently unaware of the danger they face in 
handling these materials. The products go out to the public with no 
labeling warning of the cancer danger that the dust can pose. Workers 
are also endangered by disturbing, extraction, and construction 
involving iron ore in Minnesota, where there have been a large number 
of mesotheliomas among the workers, and extracting stone in El Dorado 
County, California.
    One product containing Vanderbilt talc is Durham's Water Putty, 
which has been analyzed and shown to contain asbestos; airborne 
asbestos is released in alarming concentrations when the product is 
used. With two other scientists, I urged the Consumer Product Safety 
Commission to get this product off the market on January 29, 2007; we 
also urged CPSC to investigate all other commercial applications of 
Vanderbilt talc. No reply has yet come from CPSC, and this appears to 
be a matter of considerable public health importance.

    Question 3. Please submit a copy of the statement of support for 
Senator Murray's bill that you discussed a the hearing.
    Response. [The ``Statement in Support of the Ban Asbestos in 
America Act of 2007'' follows.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Response by Barry Castleman to an Additional Question from 
                             Senator Inhofe
    Question. Please describe, to the best of your knowledge, every 
instance in which you testified or were deposed as an expert witness 
for any party in asbestos litigation or were officially retained to 
provide expert advice to any party involved in asbestos litigation. For 
each instance provide the following:
    (a) The name of the case, (b) Court (and whether State or Federal); 
(c) The name of the party that retained you or for whom you provided a 
deposition or testimony; (c) The dates on which you were deposed or 
testified or were otherwise retained; (d) What service you provided 
(testimony, deposition, etc.); (e) An explanation of the nature of your 
testimony or deposition; (f) Who paid you, and please provide the 
invoice (if you have the records).
    Response. My records of my work as an expert witness in asbestos 
litigation are limited, and I am providing what I can. I have kept a 
running listing of trial and deposition testimony since starting this 
work in 1979. There is a one-line entry for each testimony, listing the 
name of plaintiff, whether trial or deposition, location of State or 
Federal court where the case was filed, and date. (Attachments: 
``Castleman Testimony 1979-1993''; and for 1993 to date, ``trials'')
    In all cases but one in which I have testified, I was retained by 
plaintiffs. In that one, I was a witness for the United States of 
America in the U.S. Court of Claims. There, Johns-Manville Corporation 
was suing the government for partial reimbursement for damages paid by 
J-M to workers with asbestos diseases, arising from J-M's sale of 
asbestos products (without health warning labels) for shipbuilding 
during World War II. This was in 1987.
    Two of the cases I have testified in were property damage cases, 
the rest were personal injury cases brought by workers, their family 
members and survivors. The property damage claims were brought by the 
State of Maryland and by Chase Manhattan Bank. The State of Maryland 
and Chase were suing asbestos product sellers for the costs of 
carefully removing and replacing asbestos products in their buildings.
    My testimony in asbestos litigation is referred to as ``State-of-
the-art'' testimony. It is about the public health and corporate 
history of asbestos, the subject of my doctoral thesis at Johns 
Hopkins. I trace the history of knowledge about the dangers of 
asbestos, describing the earliest and most significant reports of 
asbestosis, then various forms of cancer, tracking the development of 
knowledge as the population-at-risk was gradually recognized to be 
increasing with the addition of different populations of workers and 
other individuals over time. I describe what individual corporations 
and industries did as the problem of asbestos disease arose in 
different ways for them, based on a historic record replete with 
documents from institutional, governmental, and corporate archives.
    The knowledge available in medical writings, safety publications, 
government publications, laws, industry trade magazines, major 
newspapers, encyclopedias, etc. is, on the whole, the standard against 
which the defendants' conduct is judged. In these cases, the 
manufacturers are held to the knowledge of experts about the hazards of 
the products they are selling to the public, and the product seller has 
the duty to warn about lethal, non-obvious hazards. Similarly, premises 
owners, such as oil and chemical companies, that bring in contract 
workers, have a duty to warn and protect these workers against hazards 
that the premises owners know or should know are there.
    Payment for my services in litigation has been by the law firms 
that have hired my services, the U. S. Treasury, Chase Manhattan Bank, 
and the State of Maryland. I do not retain invoices after receiving 
payment of my bills, I am just a single person working as an 
independent consultant in occupational and environmental health. I try 
to minimize paperwork burdens for myself, as I have not employed any 
full-time employees since starting as a consultant in 1975.
                                 ______
                                 
                                 Trials
    Asner, trial, Baltimore s.c., Nov. 17
    Asbestos Cases III, deposition, Charleston WV s.c., Dec. 8
                                  1994
    Dikun, trial, Ft. Lauderdale s.c., Jan. 24
    Adams, trial, Baltimore s.c., Feb. 23, 24, 28
    Gordon, deposition, Austin s.c., Feb. 25
    Chavers, deposition, Mobile s.c., Mar. 24
    Rones, deposition, Washington DC s.c., Apr. 21
    Hannon, trial, Baltimore s.c., Apr. 27
    Purcell, trial, Portland s.c., May 3-4
    Monahan, trial, L.A. s.c., June 16, 17, 20,21
    Norris, trial, Wilmington s.c., June 30
    One Wilshire, deposition, L.A. s.c., Sept. 13
    Chase Manhattan, deposition, New York f.c., Nov. 1; and Feb. 22, 
Oct. 9, 1995
    Olson, trial, Sydney Australia Dust Diseases Tribunal, Dec. 10-11
                                  1995
    Adams, deposition, Baltimore s.c., Jan . 5, 12
    Wiggins, trial, San Francisco s.c., Jan. 10-11
    One Wilshire, trial, Los Angeles s.c., Mar. 20, 22
    White, trial, Austin s.c., April 13
    In Re Asbestos, deposition, Travis Co. TX, May 12
    Bowser, trial, San Francisco s.c., May 26-27
    Adams, trial, Baltimore s.c., June 6-7
    Richmond, trial, San Francisco s.c., June 14
    Boyd, videotaped evidence deposition, Spokane s.c., June 29
    Automobile worker asbestos cases, deposition, Birmingham MI s.c., 
Sept. 7
    Hicks, deposition, Bloomington IL s.c., Oct. 12
    Zumas, trial, Baltimore s.c., Oct. 25, 30, Nov. 6
    Heisler, deposition, Cincinnati s.c., Oct. 26
    Dye, trial, San Francisco s.c., Oct. 31-Nov. 1
    White, trial, Austin s.c., Nov. 2
    Hicks, trial, Bloomongton IL s.c., Nov. 7-8
    Sirbaugh, trial, Martinsburg WV s.c., Nov. 15
    Drake, trial, San Antonio s.c., Dec. 5
                                  1996
    Crabtree, trial, Bloomington IL s.c., Jan. 17
    Sloan, deposition, San Francisco s.c., Feb. 13
    Butler, deposition, San Francisco s.c., Feb. 14
    Lee, trial, Brunswick GA s.c., Mar. 14
    Chaney, deposition, San Antonio s.c., Mar. 14
    Greive, deposition, Baltimore s.c., April 2
    Sherer, trial, Bloomington s.c., May 20
    Pusey, trial, Wilmington s.c., May 23
    Anderson, deposition, Little Rock, June 6
    Danilowicz, trial, San Francisco s.c., June 13-14
    Williams, deposition, San Francisco, June 13
    Williams, trial, San Francisco s.c., June 14
    Roa, trial, Portland OR f.c., July 19
    Perepechko, deposition, Chicago s.c., Sept. 4
    White, deposition, El Paso, Sept. 5
    Biebel, trial, Baltimore, Oct. 7-9
    Buyard, trial, Los Angeles, Oct. 31
    Overly, deposition, San Francisco, Nov. 4
    Adams, videotaped deposition, Houston s.c., Nov. 6
    Overly, trial, San Francisco, Nov. 12-13
    Childress, deposition, San Francisco, Nov. 13
    Becknell, trial, Bloomington, Nov. 15, 18
    Childress, trial, San Francisco, Nov. 21, 22, 25
    Ronzini, trial, New York s.c., Dec. 9-10
    Scanlon, deposition, Chicago s.c., Dec. 20
                                  1997
    Arthur, trial, Wilmington s.c., Feb. 21, 24
    Ehret, deposition, L.A. s.c., May 9
    Crowe, trial, Cleveland s.c., May 21
    Ehret, trial, Los Angeles, May 28
    Driver, trial, Dallas s.c., June 25
    Derr, deposition, Wilmington, July 8
    Sanchez, trial, SF s.c., July 30-31
    Abshire, deposition, Charleston WV, Sept. 22
    Britton, French, depositions, Bloomington s.c., Oct. 13
    DeBolt, trial, Bloomington s.c., Nov. 13
    Pruitt, trial, San Francisco s.c., Nov. 19
    Varga, trial, Fairfield CA s.c., Nov. 20
    Trujillo, deposition, Albuquerque s.c., Dec. 5
    Harpham, deposition, L.A. s.c., Dec. 6
    MONMASS, deposition, Morgantown WV, Dec. 29
                                  1998
    Armstrong, deposition, San Francisco s.c., Jan. 2
    Group 119, deposition, San Francisco s.c., Jan. 2
    Valadez, deposition, San Francisco s.c., Jan. 2,5
    Armstrong, trial, San Francisco s.c., Jan. 6
    Group 119, trial, San Francisco s.c., Jan. 7-8
    Burgess, trial, Bloomington, Jan. 26
    Schedel, trial, Bismarck ND, Jan. 28
    Valadez, trial, San Francisco, Feb. 4-5
    Burks, trial, San Francisco, Feb. 5-6
    Lowery, trial, Baltimore, Feb. 10
    Ball, trial, Cleveland s.c., Feb. 25
    Group 129, trial, San Francisco s.c., Mar. 9-11
    Group 131, deposition, San Francisco, Mar. 12
    Silveira, trial, San Francisco, Apr. 23
    Woods, deposition, Chatanooga s.c., Apr. 27
    Cosey, trial, Fayette MS s.c., May 21
    Brady, deposition, Buffalo NY s.c., June 4
    Gramley, trial, Cleveland, July 10
    Frost, deposition, Bloomington IL, July 28
    Cavitt, deposition, Cameron TX, July 30
    Padron, evidence deposition, Cameron TX, Aug. 3
    Charley, deposition, Cedar Rapids Iowa, Nov. 2
    Henderson, deposition, Charlotte NC, Nov. 9
    Corbal, deposition, L.A., Dec. 8
    Briggs, evidence deposition, Beaumont TX, Dec. 10
    1999
    Missik, deposition, Cleveland s.c., Jan. 15
    Lilienthal, deposition, San Francisco s.c., Jan. 16-17, Feb. 15
    Salke, deposition, Bridgeport CT s.c., Feb. 11
    Luevano, deposition, Oakland CA s.c., Feb. 19
    Lilienthal, trial, S.F. s.c., Feb. 22
    Raper, deposition, Dallas s.c., Mar. 11-12
    Brittin, trial, Bloomington s.c., Mar. 15-16
    Sanford, deposition, S.F. s.c., Apr. 2
    Harris, deposition, Waycross GA s.c., Apr. 14
    Zeleny, deposition, Chicago s.c., Apr. 15
    Epperson, trial, Dallas s.c., May 28
    Taylor, deposition, San Francisco s.c., June 1, 1999
    Malang, deposition, San Francisco s.c., June 2
    Townes, trial, Augusta GA s.c., June 16
    Shank, trial, Cleveland s.c., June 28-29
    Sanchez, trial, El Paso s.c., July 29
    Rasmussen, deposition, San Francisco s.c., Aug. 9, 15
    Powell, deposition, San Francisco s.c., Aug. 24
    Miller, deposition, Bloomington s.c., Aug. 30
    Thompson, deposition, Seattle s.c., Aug. 31
    Widing, deposition, San Francisco s.c., Sept. 10
    Ball, trial, Cleveland s.c., Sept. 23
    Albright, deposition, Salisbury NC s.c., Oct. 3
    Thompson, trial, Everett WA s.c., Oct. 12
    Jones, deposition, Cleveland s.c., Oct. 22
    Hoppmann, deposition, San Francisco s.c., Oct. 22
    Chiasson, deposition, Los Angeles s.c., Nov. 2
    Castillo, trial, El Paso s.c., Nov. 4
    Raigoza, deposition, S.F. s.c., Nov. 11
    Haig, deposition, S.F. s.c., Nov. 15
    Hart, trial, Canton NY, Nov. 16
    Hedrick, deposition, Fayette MS, Nov. 22
    Grizzle and McElheney, depositions, S.F. s.c., Nov. 23
    Gotter, deposition, Bloomington, Dec. 17
                                  2000
    Cicchillo, trial, Cleveland s.c., Jan. 27
    Hollis, trial, Wilmington s.c., Feb. 1
    Chavers, deposition, S.F. s.c., Feb. 2-3
    Chavers, trial, S.F. s.c., Feb. 3
    Peralta, deposition, El Paso s.c., Mar. 27
    McLeod, deposition, Buffalo NY s.c., Apr. 3
    Hines, deposition, SF s.c., May 1
    Burnside, deposition, WV s.c., May 12
    Ockerman, deposition, Oakland CA s.c., May 21
    Ockerman, trial, Oakland s.c., May 22
    Thornton, deposition, San Francisco s.c., June 9
    Kasun, trial, Milwaukee s.c., June 16 and 19
    Pavolini, deposition, San Francisco s.c., June 21
    Pavolini, trial, San Francisco, June 25-26
    Davis, deposition, San Francisco s.c., June 26
    Perez, trial, San Francisco s.c., July 10-12
    Tolbertson, trial, San Francisco s.c., July 20
    Chiasson, trial, Los Angeles s.c., Aug 1-2
    Chiasson, deposition, L.A. s.c., Aug. 1
    Davis, trial, San Francisco s.c., Aug. 21-22
    Pickle, deposition, San Francisco s.c., Aug. 25
    Atchison, deposition, Oakland CA s.c., Aug. 28
    Kinsman, deposition, San Francisco s.c., Sept. 7
    Bouldin, deposition, Houston s.c., Sept. 8
    Lyons, deposition, Washington D.C., Sept. 11
    Emrick, trial, Portland OR s.c., Oct. 9-11
    Moro, deposition, San Francisco s.c., Nov. 7
    Moore, deposition, Daingerfield TX s.c., Dec. 29
                                  2001
    Gault, deposition, San Francisco s.c., Jan. 3
    Overly, trial, San Francisco s.c., Jan. 5
    Vasen, deposition, SF s.c., Jan. 8
    Jestes, deposition, SF s.c., Jan. 12
    Hoskins, deposition, Kansas City MO s.c., Jan. 22
    Jacobs, deposition, Dallas s.c., Jan. 25
    Lambertson, deposition, SF s.c., Feb. 13
    Hoskins, trial, Kansas City MO s.c., Mar. 1
    Jones, trial, New York NY s.c., Mar. 2
    Dunn, trial, Oakland CA s.c., Mar. 5
    Lee, trial, SF s.c., Mar. 6
    Edwards, deposition, SF s.c., Mar. 8 and 12
    Watkins, deposition, SF s.c., Mar. 9
    Highsmith, deposition, Brunswick GA s.c., Mar. 21
    Branscum, deposition, SF s.c., Mar. 27
    Padalecki, deposition, Houston s.c, Apr. 9
    Kingsland, trial, New York s.c., May 21
    Peterman, trial, Portland OR s.c., May 24-25
    Alexander, deposition, SF s.c., May 29
    Chandler, deposition, SF s.c., June 11
    Calhoun, deposition, Bloomington s.c., June25
    Smith, trial, SF s.c., June 27
    Stanfill, deposition, SF s.c., July 2
    Wass, deposition, Seattle s.c., July 13
    Rasmussen, deposition, SF s.c., July 16
    Thompson, deposition, El Paso s.c., July 20
    Moore, trial, Daingerfield TX s.c., July 23
    Shingle, deposition, SF s.c., July 24
    Miller, deposition, Salisbury NC s.c., July 27
    Carter, deposition, SF s.c., Aug. 3
    Shingle, trial, SF s.c., Aug. 14
    Novo, deposition, Baltimore s.c., Aug. 17
    Hunt, deposition, Bloomington IL s.c., Aug. 21
    Petruzzelli, deposition, New Haven CT s.c., Aug. 24
    Steenberger, deposition, Marshall TX s.c., Aug. 24
    Alber, deposition, Boulder CO s.c., Aug. 27
    Amos, deposition, Charleston WV s.c., Aug. 28
    Book, deposition, S.F. s.c., Sept. 6
    Skinner, deposition, Austin s.c., Sept. 7
    Peterson, deposition, SF s.c., Sept. 14
    Kiber, trial, Bloomington IL s.c., Sept. 25
    Kinsman, deposition, Seattle s.c., Sept. 28
    Turley, deposition, S.F. s.c., Sept. 28
    Henderson, trial, Greenville SC s.c., Oct. 10
    Dressler, deposition, SF s.c., Oct. 12
    Jernigan, trial, Wilmington s.c., Oct. 16
    Wilson, trial, Baltimore s.c., Oct. 18
    Gerke, deposition, Oakland s.c., Oct. 19, 24
    Stringfellow, trial, Little Rock s.c., Oct. 23
    Colwell, deposition, Oakland CA s.c., Oct. 23
    Guerra, deposition, Oakland CA s.c., Oct. 26
    Cargile, deposition, Baltimore s.c., Oct. 30
    Kiber, trial, Bloomington s.c., Nov5
    Elliott, deposition, S.F. s.c., Nov. 6
    Henderson, deposition, Oakland CA s.c., Nov. 6
    Weiner, trial, Bethlehem PA s.c., Nov. 28
    Jordan, deposition, San Francisco s.c., Dec. 11
    Wells, deposition, SF s.c., Dec. 13
    Brown, deposition, SF s.c., Dec. 14
                                  2002
    Jacques, deposition, Chicago f.c., Jan. 3
    Campbell, deposition, SF s.c., Jan. 15
    Franklin, deposition, SF s.c., Jan. 15
    Burns, trial, SF s.c., Jan. 22
    Todak, deposition, SF s.c., Feb. 14
    Jones, trial, Atlanta s.c., Feb. 20
    Tolbertson, deposition, SF s.c., Mar. 1
    Meiers, deposition, Cleveland s.c., Mar. 4
    Meiers, trial, Cleveland s.c., Mar. 7
    Todak, trial, SF s.c., Mar. 12-13
    Totman, deposition, Providence s.c., Mar. 21
    Cave, deposition, SF s.c., Mar. 22
    Peterson, deposition, Oakland s.c., Mar. 29
    Matteson, deposition, New York s.c., Apr. 22
    Matteson, trial, New York s.c., Apr. 24
    Brown, deposition, Oakland CA s.c., Apr. 25
    Anderson, deposition, Port Gibson MS s.c., Apr. 26
    Flores, deposition, Corpus Christi TX s.c., May 1
    Farrell, deposition, SF s.c., May 3
    Peterson, trial, Oakland s.c., May 6
    Anderson, deposition, Port Gibson MS s.c., May 10
    Kuhn, deposition, SF s.c., May 17
    Robinson, deposition, SF s.c., May 20
    Trinchese, deposition, SF s.c., June 3, 17
    Rivenbark, trial, Galveston s.c., June 4-5
    Highsmith, trial, Atlanta s.c., June 6
    Bennett, deposition, SF s.c., June 7
    Caruso, trial, Springfield IL s.c., June 11-12
    McCarthy, deposition, Los Angeles s.c., June 19
    Trinchese, trial, SF s.c., June 28
    Roca, deposition, Wilmington DE s.c., July 1-2
    McCarthy, trial, Los Angeles s.c., July 11
    Sledz, deposition, Baltimore s.c., July 29
    Schmidt, deposition, Cleveland s.c., Aug. 5
    Probst, deposition, Cleveland s.c., Aug. 9
    Jensen, deposition, SF s.c., Aug. 16
    Otten, deposition, SF s.c., Aug. 19
    Nelson, deposition, SF s.c., Aug. 21
    Barry, deposition, Galveston TX s.c., Aug. 29
    Hansen, deposition, SF s.c., Aug. 30
    Anderson, trial, Port Gibson MS s.c., Sept. 5
    Frederick, deposition, SF s.c., Sept. 16
    Kuhl, deposition, SF s.c., Sept. 17 and July 25, 2003
    Langford, deposition, Center, TX s.c., Sept. 26
    Graham, deposition, S.F. s.c., Oct. 2
    Lansford, trial, Center TX s.c., Oct. 9
    Gunderson, deposition, SF s.c., Oct. 11
    Shauan, deposition, Providence RI s.c., Oct. 14
    Campbell, trial, Seattle s.c., Oct. 17
    Vincent, deposition, Wilmington s.c., Oct. 21
    Flood, deposition, Chicago s.c., Nov. 7
    Bottner, deposition, S.F. s.c., Nov. 8
    Couch, deposition, S.F. s.c., Nov. 8
    Consolini, deposition, Providence RI s.c., Nov. 18
    Gunderson, trial, S.F. s.c., Nov. 19
    Scott, deposition, S.F. s.c., Nov. 19
    Wallstrom, deposition, S.F. s.c., Nov. 20
    Wirt, deposition, Dallas s.c., Nov. 25
    Yoakum, deposition, Cameron TX s.c., Nov. 26
    Rhynes, deposition, S.F. s.c., Nov. 27
    Skelton, deposition, S.F. s.c., Dec. 2
    Miller, trial, Austin s.c., Dec. 3-4
    Cash, trial, Wilmington s.c., Dec. 10
    Kruchuk, deposition, SF s.c., Dec. 27
                                  2003
    Kubik, deposition, Warren OH s.c., Jan. 3
    Clark, deposition, S.F. s.c., Jan. 13
    Hofstetter, deposition, Alton IL s.c., Jan. 16
    Sargent, deposition, Amarillo s.c., Jan. 17
    Roseman, trial, Indianapolis s.c., Jan. 21-22
    Falcone, trial, New Haven CT s.c., Jan. 30
    Wells, deposition, S.F. s.c., Jan. 31
    Kavanaugh, deposition, West Palm Beach s.c., Feb. 1
    Kubik, trial, Warren OH s.c., Feb. 4
    Davis, trial, Cleveland s.c., Feb. 5
    Richardson, deposition, SF s.c., Feb. 6
    Lundsford, trial, SF s.c., Feb. 14
    Kavanaugh, trial, Palm Beach FL, Feb. 18
    Lee, deposition, SF s.c., Feb. 21
    Niemeier, deposition, SF s.c., March 3
    Mintz, deposition, SF s.c., March 7
    Dexter, deposition, NYC s.c., March 17
    Sparks, trial, Beaumont TX s.c., March 26-27
    Lilly, deposition, Charleston WV s.c., Apr. 4
    Griffith, deposition, SF s.c., Apr. 30
    Curtright, deposition, SF s.c., May 1
    Wajer, deposition, Baltimore s.c., May 9
    Kelley, deposition, SF s.c., May 12
    Green, deposition, SF s.c., May 19
    Marr, deposition, Dallas, May 23
    Brackett, deposition, Orange TX, May 27, 2003
    Lukac, trial, Warren OH, May 28
    Pernowsky, deposition, Cleveland s.c., May 29
    Toma, deposition, SF s.c., June 2
    Gomez, trial, NY s.c., June 3, 9
    Gartner, trial, Minneapolis s.c., June 19-20
    Miller, deposition, Bloomington IL s.c., June 24
    Andrade, deposition, SF s.c., June 24
    Connor, deposition, SF s.c., June 24
    Prasel, deposition, Cameron TX s.c., July 1-2, 21-22
    Marshell, trial, Alameda CA s.c., July 9
    Bangs, deposition, SF s.c., July 14
    Tripp, deposition, SF s.c., July 25
    Robinson, trial, Marietta GA, Aug. 12
    Nolan, deposition, Chicago s.c., Aug. 15
    Keyser, deposition, SF s.c., Aug. 22
    Waishes, deposition, Wilmington s.c., Sept. 8
    Wirts, trial, Baltimore s.c., Sept. 15
    Bertucci, deposition, New Orleans, Oct. 3
    Huck, deposition, Oakland s.c., Oct. 6
    Weller, deposition, Cleveland s.c., Oct. 20
    Robinson, deposition, Wilmington s.c., Oct. 21
    Martin, deposition, Houston s.c., Oct. 24
    Davis, deposition, Houston s.c., Oct. 31
    Polito, trial, Rochester NY s.c, Nov. 21
    Anzulis, deposition, Baltimore s.c., Nov. 24
    Mikolich, deposition, SF s.c., Dec. 1
    Chauvin, deposition, New Orleans s.c., Dec. 15
    Lombardo, deposition, San Francisco s.c., Dec. 16
    Baker, deposition, San Francisco s.c., Dec. 16
    Ward, deposition, Belton TX s.c., Dec. 19
    2004
    Jameson, deposition, Seattle, Jan. 6
    Harris, deposition, SF s.c., Jan. 12
    Ross, deposition, SF s.c., Jan. 16
    Smith, deposition, SF s.c., Jan. 16
    Williamson, deposition, Jacksonville s.c., Jan. 19
    Douglas, deposition, Orange TX s.c., Jan. 20
    Jones, deposition, New Orleans s.c., Jan. 26
    Ford, deposition, Wilmington s.c., Jan. 30
    Korenek, deposition, Cameron TX s.c., Feb. 9
    Amento, trial, Philadelphia s.c., Feb. 10
    Munro, deposition, Indianapolis s.c., Feb. 23
    Mason, deposition, Beaumont s.c., Feb. 24
    Logston, deposition, Louisville s.c., Mar. 1
    Stephens, trial, Angleton TX, Mar. 2
    Prather, trial, Dallas, Mar. 3
    Dori, deposition, Sweetwater TX s.c., Mar. 5
    Kubic, deposition, Warren OH s.c., Mar. 8
    Wise, trial, SF s.c., March 11
    Dori, trial, Sweetwater TX s.c., Mar. 19
    Braden, deposition, SF s.c., Mar. 22
    Stover, deposition, SF s.c., Mar. 22
    Donahue, deposition, SF s.c., Mar. 28
    Roberts, deposition, Houston s.c., Apr. 2
    Rhines, deposition, Covington Co. MS, Apr. 12
    Burdo, deposition, Cleveland s.c., May 7
    Whitney, trial, Los Angeles s.c., May 19
    Mills, deposition, Corpus Christi, June 1
    Kolson, trial, Ebensburg PA, June 9
    Compton, deposition, Bloomington, June 10
    Garzee, trial, Peoria, June 11
    Wilson, deposition, SF s.c., June 14
    Coleman, deposition, Cleveland s.c., June 25
    Carter, deposition, Oakland s.c., July 2
    Kell, deposition, SF s.c., July 13
    Odum, deposition, Copiah Co. MS, July 16
    Carter, trial, Oakland s.c., July 20
    Wilson, deposition, SF s.c., July 27
    Hinchman, deposition, Houston s.c., July 28
    Kruger, deposition, SF s.c., Aug. 3
    Pisani, deposition, SF s.c., Aug. 9
    Pretko, deposition, Dallas s.c., Aug. 20
    Kennedy, deposition, Portsmouth OH, Aug. 26
    Ocegueda, deposition, SF s.c., Sept. 7
    Lorenzino, deposition, Oakland s.c., Sept. 24
    Barone, deposition, Warren OH s.c., Sept. 27
    Cameron, deposition, Bloomington IL s.c., Sept. 30
    Tracy, deposition, Oakland s.c., Oct. 1
    Anthony, trial, NY s.c., Oct. 6
    Gadeleta, trial, NY s.c., Oct. 8
    Bearer, deposition, SF s.c., Oct. 11
    Giesick, deposition, SF s.c., Oct. 11
    Bishop, deposition, New Orleans s.c., Oct. 18
    Marco, deposition, St. Louis s.c., Oct. 19
    Cullison, deposition, Austin s.c., Oct. 22
    Gendreau, deposition, SF s.c., Nov. 4
    Coen, deposition, Milwaukee s.c., Dec. 20
    Brown, deposition, SF s.c., Dec. 21
    McWard, deposition, Peoria s.c., Dec. 23
                                  2005
    Bruner, deposition, SF s.c., Jan. 10
    Hamilton, trial, Cleveland s.c., Jan. 13
    Zavacky, deposition, Cleveland s.c., Jan. 14
    Walsh, deposition, S.F. s.c., Jan. 14
    Walraven, deposition, Boston s.c., Jan. 17
    Hargrave, deposition, Edwardsville IL, Jan. 31, Feb. 28
    Aukland, deposition, Cleveland s.c., Feb.4
    Poore, deposition, Houston s.c., Feb. 7
    Plathe, trial, St. Paul s.c., Feb. 16
    Bruner, trial, SF s.c., Feb. 23
    Miller, deposition, SF s.c., Mar. 14, 30
    Flax, deposition, Baltimore s.c., Mar. 21
    Hoover, deposition, SF s.c., Apr. 5
    Konecny, deposition, SF s.c., Apr. 8
    Coffey, trial, Buffalo s.c., April 13
    Bouhanna, deposition, Boston s.c., Apr. 15
    Clark, deposition, SF s.c., May 19
    Pendergast, deposition, NY s.c., May 20
    Rizzi, trial, NY s.c., May 26-27, 31
    Goodman, deposition, Tacoma s.c., June 10
    Nisselius, deposition, SF s.c., July 7
    O'Halloran, deposition, SF s.c., July 8
    Hartford, deposition, SF s.c., July 11
    Lightsee, deposition, Brunswick GA s.c., July 15
    Ammons, deposition, Brunswick s.c., July 15
    Dawson, trial, Wilmington s.c., July 14 and 18
    Cotton, deposition, Beaumont s.c., Aug. 5
    Grisez, deposition, SF s.c., Aug. 10
    Lantz, trial, SF s.c., Aug. 12
    Ballenger, deposition, SF s.c., Aug. 15
    Dukes, deposition, Bloomington s.c., Aug. 17
    Schadt, deposition, Edwardsville IL s.c., Sept. 1
    Coca, deposition, SF s.c., Sept. 2
    Orlando, trial, NY s.c., Sept. 8
    Kleineke, deposition, Cleveland s.c., Sept. 9
    Dukes, trial, Bloomington IL s.c., Sept. 26
    Lightsee, trial, Atlanta f.c., Sept. 27
    Barnhill, deposition, SF s.c., Sept. 29
    Hicks, deposition, Newport News s.c., Sept.30
    Dodson, deposition, Kansas City MO s.c., Oct. 4
    Fletchner, deposition, NY s.c., Oct. 14
    Richardson, deposition, Baltimore s.c., Oct. 28
    Jellum, trial, St. Paul s.c., Nov. 8
    White, trial, Bloomington IL s.c., Nov. 15-16
    Franklin, deposition, Louisville s.c., Nov. 18
    Riggle, deposition, Dallas s.c., Nov. 21
    Adamson, deposition, Atlanta s.c., Nov. 22
    Demster, deposition, SF s.c., Dec. 5
    Cerny, deposition, Cleveland s.c., Dec. 6
    Parsons, deposition, Ft. Lauderdale s.c., Dec. 9
    Saenz, deposition, Cameron TX s.c., Dec. 19
    Jacobelly, deposition, SF s.c., Dec. 22
    Thalman, deposition, Galveston s.c., Dec. 27
                                  2006
    Whiting, deposition Cleveland s.c., Jan. 4
    Pisani, deposition, SF s.c., Jan. 5
    Konecny, deposition, SF s.c., Jan. 9
    Potts, deposition, Cleveland s.c., Jan. 13
    Horr, trial, Oakland s.c., Jan. 18
    Robinson, deposition, Angleton TX, Jan. 30
    Thalman, trial, Galveston s.c., Feb. 1
    Betti, deposition, SF s.c., Feb. 13
    Smyth, trial, NY s.c., Feb. 16
    Stroker, deposition, Oakland s.c., Feb. 21
    Ryan, trial, Edwardsville IL s.c., Feb. 23-24
    Woolston, deposition, Wilmington s.c., Feb. 27
    Garrison, trial, Cleveland s.c., Mar. 1
    Wallace, trial, Austin s.c., Mar. 2
    Kovacevich, deposition, Houston s.c., Mar. 3
    Troncali, deposition, Galveston s.c., Mar. 10
    Jagid, deposition, New Brunswick NJ s.c., Mar. 13
    Hellen, trial, Angleton TX s.c., Mar. 16
    Brent, deposition, Edwardsville IL s.c., Mar. 22
    Gortney, deposition, Beaumont TX s.c., Mar. 23
    Slanina, deposition, Houston s.c., Mar. 24
    Gregory, deposition, Kansas City MO s.c., Apr. 3
    Miller, deposition, SF s.c., Apr. 6
    Stone, deposition, Great Falls MT s.c., Apr. 10
    Terrance, deposition, Baton Rouge s.c., Apr. 11
    Burgeson, deposition, SF s.c., Apr. 12
    Halsema, deposition, Oakland s.c, Apr. 13
    Campbell, deposition, SF s.c., Apr. 13, 18
    Miller, deposition, SF s.c., Apr. 17
    Spurgeon, deposition, Edwardsville s.c., May 1
    Sells, deposition, Cleveland s.c., May 3
    Faulkoner, deposition, Wagoner OK s.c., May 8
    Robinson, trial, Houston s.c., May 10
    Flexner, trial, NY s.c., May 12
    Fulton, deposition, SF s.c., May 15
    Finnefrock, deposition, Cleveland s.c., May 18
    King, deposition, Angleton TX s.c., May 19
    Dancho, deposition, Chicago s.c., May 22
    Haanstra, deposition, SF s.c., May 26
    Bolen, trial, Garden City NY s.c., May 30
    Giero, deposition, Los Angeles s.c., June 1
    Jones, deposition, SF s.c., June 5
    Gibson, deposition, Beaumont s.c., June 19
    Loboda, deposition, NY s.c., June 26
    Pitts, deposition, Fredericksburg VA s.c., June 28
    Price, deposition, Oakland s.c., July 10, Aug. 12
    Jones, trial, Newport News VA s.c., July 12
    Jones, trial, SF s.c., July 31
    Poindexter, deposition, Angleton TX s.c., Aug. 3
    Christian, deposition, SF s.c., Aug. 10
    Sutterfield, deposition, Houston s.c., Aug. 11
    Hoser, deposition, New Brunswick NJ s.c., Aug. 14
    Hegele. deposition, SF s.c., Aug. 17
    Reese, trial, Bloomington IL s.c., Aug. 28
    Siegwald, deposition, Dallas s.c., Aug. 29
    Ferrera, deposition, Dallas s.c., Aug. 29
    Bergin, deposition, SF s.c., Sept. 7
    Adair, deposition, Orange TX, Sept. 8
    Copenhaver, deposition, Dallas s.c., Sept. 8
    Ard, deposition, Beaumont s.c., Sept. 8
    Price, trial, Oakland s.c., Sept. 11
    Pounds, deposition, SF s.c., Sept. 11
    Homewood, deposition, Houston s.c., Sept. 18
    Voight, deposition, Houston s.c., Sept. 18
    Lindquist, deposition, Providence RI s.c., Sept. 22
    Anderson, deposition, Denver s.c., Sept. 25
    Rodriguez Negron, deposition, L.A. s.c., Sept. 28
    Sheffield, deposition, Oakland s.c., Oct. 2
    Shreiner, trial, Wilmington s.c., Oct. 3-4
    Colella, trial, New York s.c., Oct. 10, 12, 17
    Luckey, deposition, Houston s.c., Oct. 13
    Hewitt, deposition, SF s.c., Oct. 16
    Whitlock, deposition, SF s.c., Oct. 16
    Boyer, trial, Boston s.c., Oct. 20
    Johnson, deposition, Memphis s.c., Oct. 23
    Cable, deposition, Bridgeport CT, Oct. 24
    Hogan, deposition, Oakland s.c., Nov. 6
    Stewart, trial, Wilmington s.c., Nov. 9
    Oney, deposition, Houston s.c., Nov. 13
    Blessing, trial, Bloomington s.c., Nov. 16
    Young, deposition, Seattle s.c., Nov. 20
    Whitlock, trial, SF s.c., Nov. 21
    Duncan, deposition, Dallas s.c., Dec. 12
    Morell, deposition, Edinburg TX s.c., Dec. 19
                                  2007
    Anzulis, deposition, Baltimore s.c., Jan. 5
    Dodd, deposition, Edwardsville IL s.c., Jan. 8
    Duncan, deposition, Edwardsville IL s.c., January 16
    Boyle, deposition, SF s.c., Jan. 18
    Link, deposition, Cleveland s.c., Jan 19
    Knight, deposition, Houston s.c., Jan. 22
    Gomez Gonzales, trial, NY s.c., Jan. 24
    Foster, deposition, Angleton TX s.c., Jan. 26
    Malcolm, deposition, Bloomington IL, Jan. 29
    Lathrop, deposition, SF s.c., Feb. 2
    Drinkwater, deposition, SF s.c., Feb. 2
    Jones, deposition, Boston s.c., Feb. 5
    Pollard, trial, Galveston s.c., Feb. 7
    Metzger, deposition, Wilmington s.c, Feb. 12
    Irvin, trial, Edmonton KY s.c., Feb. 15
    Lee, deposition, Salisbury NC, Feb. 20
    Pinedo, deposition, SF s.c., Feb. 26
    Melon, deposition, Dallas s.c., Mar. 2
    Murray, trial, Oakland s.c., Mar. 5
    Farmer, deposition, SF s.c., Mar. 9
    Rincon, trial, SF s.c., Mar. 16,19
    Ridgley, deposition, Baltimore s.c., Mar. 22
    Graves, deposition, Edwardsville IL, Mar. 23
    Monroe, trial, Edwardsville IL, Mar. 27
    Beckler, deposition, Dallas s.c, Mar. 30
    Bock, deposition, Richmond s.c., Apr. 2
    Melon, trial El Paso s.c., Apr. 5
    Justice, deposition, Wilmington s.c., Apr. 9
    Martin, trial, NY s.c., Apr. 25-26
    Cox, trial, Cleveland s.c., May 4
    Rodamer, deposition, SF s.c., May 7
    Felker, trial, SF s.c., May 8
    Passig, deposition, SF s.c., May 10
    Asworth, deposition, Orange TX s.c., May 14
    Heppe, trial, Bloomington s.c., May 15
    Gilson, deposition, Atlanta s.c., May 18
    Lucadamo, deposition, Providence s.c., May 25
    Stirm, deposition, SF s.c., June 4
    Ormonde, deposition, SF s.c., June 6
    Dachauer, deposition, SF s.c.,June 11
    Matel, deposition, SF s.c., June 21
    Cook, deposition, Baltimore s.c., June 22
    Buttitta, deposition, Hackensack NJ, July 2
    Dachauer, trial, SF s.c., July 9-10
    Scott, deposition, SF s.c., July 13
    Gardner, deposition, Houston s.c., July 16
    Eubanks, deposition, SF s.c., July 17, 25
    Venturini, trial, Bloomington s.c., July 18-19
    Lagrone, deposition, Wilmington s.c., July 23
    Lagrone, trial, Wilmington s.c., July 24

    Senator Boxer. Thank you, sir. Thank you very much.
    Now, Dr. Ann Wylie, University of Maryland Department of 
Geology.

    STATEMENT OF ANN G. WYLIE, Ph.D., PROFESSOR OF GEOLOGY, 
                     UNIVERSITY OF MARYLAND

    Ms. Wylie. Thank you, Madam Chairman and members of the 
committee.
    I am pleased to be here today to speak to you about 
definitions, in particular, the definition of asbestos and the 
definition of asbestos fiber. I have been a professor for 35 
years, and I have developed over this time expertise on the 
properties of minerals that produce human disease when inhaled. 
I provided a written text from which the following short 
summary is taken.
    The Federal definitions of fiber and asbestos both date 
back to the early 1970s. Let me first address the definition of 
fiber.
    As defined, a fiber is any particle that fits into a 
particular size and shape category. The category is large, and 
it includes a wide range of particle sizes and shapes. Included 
in this range are rock fragments as well as asbestos fibers.
    The size and shape category is not specific for asbestos. 
These non-asbestos particle that fit this category are very 
common. They may be found in bedrock in large portions of the 
United States. Epidemiological studies of miners exposed to 
these particles have found no excess of asbestos-related 
diseases.
    The first pictures that I have shown over here are 
particles in both of these that fit the definition of fiber. 
The one on the left is asbestos; the one on the right is rock 
fragments. Rock fragments meeting the fiber definition from 
South Dakota are shown in this photograph. This is the site at 
Leeds, SD of one of the negative studies for asbestos-related 
diseases among the miners.
    Asbestos is well-studied and well-characterized. A better 
dimension definition of asbestos fiber would be relatively 
simple to construct.
    I also mention the definition of asbestos. The Federal 
description of asbestos, in my view, needs to be amended. It 
needs to explicitly include these asbestos fibers from Libby, 
MT. These are the mineral winchite, and it is not listed in the 
Federal regulatory definition of the minerals that make up 
asbestos. As you can see from this photomicrograph, this is 
actually an electron micrograph, these are clearly asbestos.
    A more comprehensive description of asbestos and an 
accurate, scientific definition of asbestos fiber will exclude 
non-asbestos particles. They can be incorporated into 
regulatory policy without compromising protection against 
asbestos-related diseases. I would be happy to answer 
questions.
    [The prepared statement of Dr. Wylie follows:]
     Statement of Ann G. Wylie, Ph.D., Professor of Geology at the 
                         University of Maryland
    My name is Ann G. Wylie. I hold a baccalaureate degree from 
Wellesley College and a Ph.D., from Columbia University. I am Professor 
of Geology at the University of Maryland. I have spent more than 30 
years studying asbestos and the minerals that compose it.
    I am here today to discuss the both the scientific and the federal 
regulatory definition of asbestos.
                           regulatory history
    In the early 1970s the United States lagged behind the rest of the 
world in the strict regulation of occupational exposure to airborne 
asbestos. Regulation of asbestos was one, if not the first, major 
initiative of both EPA and OSHA when they were formed at this time. 
Needless to say, these two agencies were in a hurry.
    OSHA wrote a definition of asbestos and specified a method for its 
measurement; both were incorporated into law. Together these comprise 
the federal regulatory definition of asbestos.
    The federal regulatory definition was written without any 
consultation with the mineral experts at the United States Geological 
Survey or the U.S. Bureau of Mines, and, consequently, it was not 
mineralogically correct.\1\
---------------------------------------------------------------------------
    \1\ OSHA's list of asbestos is also incomplete. One very public 
effect of the latter mistake is that most of the asbestos occurring at 
Libby Montana is not technically covered by asbestos regulations. 
(Verkouteren and Wylie, 2000)
---------------------------------------------------------------------------
    OSHA's regulatory definition identified mineral names without 
specifying the asbestiform character. This is the same as saying that 
hail and snow are the same thing. Both are ice, but everyone knows that 
they are not the same and that have different potentials for harm.
    The measurement method, called the membrane filter method\2\, 
compounded the definitional problem. The foundation for the membrane 
filter method was developed in the 1960s in British factories that 
utilized asbestos. The particles included in exposure estimates were 
specified by both a minimum length and a minimum length to width ratio. 
A length of >5 micrometers was chosen to reflect an acceptable level of 
reproducibility among analysts.\3\ A length to width ratio of 3:1 was 
also specified, but its choice was not explained. Whatever the reason, 
3:1 was arbitrary. It is not a scientific definition of a fiber, it 
does not reflect the length to width ratio of asbestos fibers, and it 
was not chosen because of any studies linking it to health effects.
---------------------------------------------------------------------------
    \2\ Leidel et al., 1979
    \3\  Addingley, C.F., 1966; Lynch et al., 1970
---------------------------------------------------------------------------
    Because of the membrane filter method, particles longer than 5 
micrometers with a length to width ratio of 3:1 or higher meet what has 
become known as the Regulatory Fiber Definition (RFD). They are also 
referred to as ``federal fibers.''
    The effect of these two specifications, a mineralogically incorrect 
definition of asbestos and the development of an arbitrary Regulatory 
Fiber Definition (RFD), is that sometime during the 1970s, rock 
fragments, sometimes called cleavage fragments, became fibers and 
fragments of six minerals became de facto asbestos.
    In 1992, OSHA examined this issue in detail. They concluded that 
there was no scientific evidence that cleavage fragments have the same 
health potential as asbestos. OSHA removed them from the asbestos 
standard.\4\ I am not aware of any epidemiological, animal or cellular 
studies that have been done since the OSHA decision that would change 
this conclusion.
---------------------------------------------------------------------------
    \4\ OSHA, 1992
---------------------------------------------------------------------------
    NIOSH disagreed with OSHA, and up to this time, it has been the 
practice of NIOSH to assume that the RFD describes the size and shape 
of fibers that correlate with their potential to cause human 
disease\5\. The RFD was also recently applied by EPA in the El Dorado 
Hills, CA, study. It is clear that there is disagreement within the 
regulatory community of the appropriateness of the RFD in the 
protection of health.
---------------------------------------------------------------------------
    \5\ NIOSH, 2007
---------------------------------------------------------------------------
    NIOSH has just opened this question for study.\6\ This year, NIOSH 
issued a White Paper outlining in detail a research agenda to examine 
this question and held public hearings on it last month. The adverse 
health effects of asbestos are widely known and, with the exception of 
the differences between chrysotile-asbestos and amphibole-asbestos, are 
not in dispute. What the NIOSH White Paper addresses is the need to 
examine the health effects of nonasbestos particles that meet the RFD.
---------------------------------------------------------------------------
    \6\ NIOSH, 2007
---------------------------------------------------------------------------
    While the NIOSH White Paper does not provide evidence that 
challenges OSHA's 1992 decision, it calls for study of the issue, 
including, animal inhalation studies, epidemiological studies of 
miners, and cell culture studies. These are necessary before the health 
effects of nonasbestos particles that meet the RFD can be understood 
fully.
    Why is this issue still in debate after the 1992 OSHA decision? 
Partly, I believe, that it comes from (1) lack of knowledge about the 
nature of asbestos, (2) acceptance of the hypothesis that only the 
size, shape, and durability of mineral particles affect their 
carcinogenic potential, and (3) a reluctance to change.
                         the nature of asbestos
    Asbestos is unusual.\7\ It is a mineral habit, like snow and hail 
are habits of ice. Habit is a form of ``growth''.
---------------------------------------------------------------------------
    \7\ Wylie, 1979, 1993, 1988; Verkouteren and Wylie, 2002
---------------------------------------------------------------------------
    Asbestos grows as bundles of single fibers, (referred to as 
fibrils), that are easily separated from each other by hand pressure. 
The geologic environment that enables asbestos to form is limited and 
involves the presence of warm, water-rich conditions and open 
underground spaces.
    Fibrils have narrow widths and extraordinary tensile strength 
imparted to them by their strong outer layers. They are difficult to 
break and their strength makes them flexible and almost impossible to 
grind. They are able to enter the body because of their narrow widths 
and they are retained because their lengths (as much as several hundred 
micrometers) thwart the body's mechanisms to remove them.
    Asbestos can form from a number of different minerals. A mineral 
name implies only a particular atomic arrangement of a fixed set of 
elements in particular proportions. Mineral names are not synonyms for 
asbestos, just like ice is not a synonym for snow although snow is made 
of ice. To specify asbestos, the mineral name is followed by the term 
asbestos, e.g., tremolite-asbestos. Two forms of asbestos have a 
specific name, e.g., crocidolite is riebeckite-asbestos, and amosite is 
cummingtonite-grunerite asbestos.
    The dimensions of asbestos fibrils found in occupational air and in 
the lung of asbestos workers are published in the literature, providing 
the basis for a dimensional definition of asbestos fibers. Although 
accurate dimensional definitions of asbestos may have been unnecessary 
in monitoring asbestos factories, mills and mines where what was in the 
air was only asbestos, they are essential in a mixed dust environment, 
essential when dealing with environmental exposures, and essential if 
asbestos were to be banned in the United States
    Published data on the width of asbestos fibers found in bulk 
samples, on air monitoring filters, and in lung tissue show that 
asbestos is composed of mineral fibrils that are less than 1 micrometer 
in width.\8\ Fibrils wider than 1 micrometer are brittle (lack tensile 
strength) and cannot be used as asbestos.\9\ The widths vary somewhat 
within and among asbestos deposits, but the range is narrow. The 
dimensions of the most abundant forms of asbestos are similar: 
crocidolite fibrils are about 500 to 2000 A in width, amosite and 
anthophyllite-asbestos are about 2000 to 10,000 A in width, and 
chrysotile-asbestos is about 200-650 A.\10\
---------------------------------------------------------------------------
    \8\ Wylie et al.,1993
    \9\ See Zoltai, 1981, for an excellent discussion.
    \10\ Polygonal serpentine fibers may have diameters up to 10,000A. 
Baronnet and Devouard, 2005.
---------------------------------------------------------------------------
    Other types of asbestos have equally narrow widths. Actinolite-
asbestos has fibril widths of 600-2000 A and tremolite-asbestos fibrils 
range from about 2000 to 6000 A. At Libby Montana, mean widths are 
about 5000A and the range is 2000 to about 10,000A.\11\
---------------------------------------------------------------------------
    \11\ Wylie et al., 1993
---------------------------------------------------------------------------
    Studies of the lung burden of asbestos workers also report very 
narrow fibers. Martha Warnock measured 3723 fibers from lung tissue 
from 27 mesothelioma cases and identified them as crocidolite, 
tremolite-asbestos, anthophyllite-asbestos, actinoliteasbestos, 
chrysotile-asbestos, amosite, or other by TEM. More than 60 percent of 
the fibers are either amosite or chrysotile-asbestos. The mean width of 
the entire population was 2600 A; for amosite it was 2300 A and for 
chrysotile-asbestos, 600 A. Similar dimensions were observed by Warnock 
in asbestosis and lung cancer cases.\12\
---------------------------------------------------------------------------
    \12\ Warnock, 1989
---------------------------------------------------------------------------
    The width of asbestos fibers is independent of length.\13\ Width is 
the same no matter how long the fibers because width is an independent 
characteristic imparted during the ``growth'' of the fibers.
---------------------------------------------------------------------------
    \13\ Siegrist and Wylie, 1980
---------------------------------------------------------------------------
    Berman et al.\14\ extensive and careful evaluation of the 13 
different rat experiments conclude that the fibers that contribute to 
tumor risk are <4000A in width or they are bundles and aggregates of 
such fibers. Stanton and others also find that fibers less than 5000 or 
less in width are most likely to be carcinogenic. The NIOSH White Paper 
states: ``Fibers and particles with diameters less than 0.5um (5000 A) 
are more likely to cross membranes and translocate to pleural and 
peritoneal spaces and are more likely to enter the lymphatic and 
circulatory systems.'' Thus, not only is the width of asbestos a 
defining characteristic, it is key to its carcinogenicity.
---------------------------------------------------------------------------
    \14\ 1995
---------------------------------------------------------------------------
    Cleavage fragments are different. Cleavage fragments, formed by 
crushing rock, get wider as they get longer and width is therefore 
dependent on length\15\. They do not possess the asbestos 
characteristic of high tensile strength and their surfaces are 
different in fundamental ways. While a 40 micrometer asbestos fiber 
could easily have a width of 0.2 micrometers, such dimensions could 
never be formed by breakage and no cleavage fragments have such 
dimensions.
---------------------------------------------------------------------------
    \15\ Siegrist and Wylie, 1980
---------------------------------------------------------------------------
                       size and shape hypothesis
    The hypothesis that only dimensions and durability (biopersistence) 
determine a mineral particles potential to cause mesothelioma, lung 
cancer, laryngeal cancer, and asbestosis is known as the Stanton 
Hypothesis. It was based on a large number of experiments in which 
Stanton and coworkers at the NCI implanted a number of different 
fibrous materials in rats.\16\ They found that the number of long thin 
fibers highly correlated with the sarcomas that developed after 
implantation. Other researchers have found similar results\17\.
---------------------------------------------------------------------------
    \16\ Stanton et al., 1981
    \17\ Bertrand, and Pezerat, 1980, Davis et al., 1991, Smith et al., 
1979, Pott et al., 1974.
---------------------------------------------------------------------------
    If the Stanton Hypothesis is correct, then any biopersistent 
particle that has the dimensions of real asbestos should have the same 
carcinogenic potential as asbestos. In fact, we know that this is often 
the case for asbestiform fibers. Long thin fibers of erionite, a 
mineral not regulated as asbestos, are thought to be responsible for a 
high incidence of mesothelioma among several small villages in 
Turkey.\18\ Furthermore, the long, thin fiber (not specifically 
regulated as asbestos by the federal government) from Libby ,Montana, 
has been identified as the agent in a number of mesothelioma cases 
among those occupationally exposed\19\.
---------------------------------------------------------------------------
    \18\ Baris, 1987, Wagner et al., 1985
    \19\ Amandus et al., 1987; Sullivan, 2007.
---------------------------------------------------------------------------
    However, we also know from the experience of miners exposed to 
other durable long, thin fibers such as fibrous talc\20\ that all 
durable long, thin fibers are not the same. Many studies have shown the 
importance of the surface in the biological activity of mineral 
fibers.\21\ Understanding the basis of the carcinogenicity of mineral 
fibers requires further study.
---------------------------------------------------------------------------
    \20\ IARC, in press; Honda et al., 2002; Gamble, 1993; Stille and 
Tabershaw, 1982
    \21\ For example: Chamberlain and Brown, 1978; Feuerbacher et al., 
1980; Flowers, 1980; Marchisio and Pernis, 1963; Schlipkoter et al., 
1963; Brown et al., 1990; Weitzman and Graceffa, 1984; Weitzman and 
Weitberg, 1985; Hochella (1993) provides an excellent discussion of the 
variability of surface chemistry, structure and reactivity of mineral 
surfaces that may affect biological activity.
---------------------------------------------------------------------------
    Can the Stanton Hypothesis be used to justify concern for 
nonasbestos, durable, RFD particles? If the RFD corresponds to a high 
carcinogenic potential, then many mineral particles would be potential 
carcinogens. Many common durable minerals break into elongated 
particles that conform to the RFD even though they are not asbestiform 
and do not have the dimensions of asbestos fibers. These include 
pyroxenes, feldspars, zeolites, some sheet silicates, and many other 
mineral groups. In fact, the Appalachian and Rocky Mountain Chains 
contain abundant minerals that would form particles meeting the RFD 
when crushed.
    What does the epidemiology tell us? The studies that have examined 
the epidemiology of workers exposed to dusts that contain nonasbestos 
amphibole particles that meet the RFD have found no asbestos-related 
diseases. Amphiboles make up 5 percent of the Earth's crust and, 
although a large group of minerals of variable chemical 
composition\22\, most amphibole fragments exceed 3:1 in length to width 
ratio if they are longer than 5 micrometers. These studies include 
miners and millers from a talc mine in New York, gold miners from Lead, 
South Dakota; vermiculite workers at Enoree, South Carolina; and iron 
miners from the Minnesota taconite iron district.\23\
---------------------------------------------------------------------------
    \22\ Leake et al., 1997, 2004
    \23\ McDonald et al., 1988, McDonald et al., 1978, Brown et al., 
1986, Higgins et al., 1983, Cooper et al., 1992, Honda et al., 2002, 
Gamble, 1993, Steeland and Brown, 1995, Stille and Tabershaw, 1982
---------------------------------------------------------------------------
    Asbestos fibers do meet the RFD. They exceed the 3:1 length to 
width ratio. But because of their narrow widths, they also exceed a 5:1 
and a 10:1 and most exceed a 20:1 ratio. Therein lays the problem. 
While asbestos fibers conform to the RFD, they are not DEFINED by it, 
and they cannot be separated from other mineral particles by it. While 
we know that it is very likely that among amphiboles it is the size and 
shape that affects their carcinogenicity, the question is ``What size 
and what shape?''
          reluctance to change the regulatory fiber definition
    Neither OSHA nor MSHA consider cleavage fragments to be asbestos. 
NIOSH has put the issue up for discussion. It is time for this issue to 
be resolved.
                              conclusions
    I conclude by asking you to support the work that NIOSH has 
proposed to address unanswered questions about the carcinogenicity of 
nonasbestos mineral particles. I also ask that the National Institute 
of Standards and Technology (NIST) be funded to develop new analytical 
methods for identifying and monitoring asbestos, and that NIEHS fund a 
comprehensive risk assessment. At the present time, these issues are 
being decided in the courts, not the appropriate venue for scientific 
discourse.
                               References
    Addingley, C.F., 1966, Asbestos dust and its measurement. Annals of 
Occupational Hygiene, v.9, p.73-82.
    Baronnet, A., and Devouard, B., 2005, Microstructures of common 
polygonal serpentines from axial HRTEM imaging, electron diffraction 
and lattice-simulation data, Canadian Mineralogist, v.43, p.513-542.
    Baris, Y.I., 1987, Asbestos and erionite related chest diseases. 
Publication Somih Ofset Matbaackilik Limited Company, Ankara-Turkey.
    Berman, D.W., Crump, K.S., Chatfield, E.J., Davis, J.M. G., and 
Jones, A.D., 1995, The sizes, shapes and mineralogy of asbestos 
structures that induce lung tumors or mesothelioma in AF/HAN rats 
following inhalation, Risk Analysis, v. 15, p. 181-195.
    Bertrand, R., and Pezerat, H., 1980, Fibrous Glass: Carcinogenicity 
and Dimensional characteristics in Biological Effects of Mineral 
Fibres, Wagner, J.C. Ed., IARC Scientific Publications p.901-911.
    Brown, D.P., Kaplan, S.D., Zumwalde, R.D., Kaplowitz, M., and 
Archer, V.E., 1986, Retrospective cohort mortality study of underground 
gold mine workers. In Silica, Silicosis, and Cancer, D.F. Goldsmith, 
D.M. Winn and C.M. Shy, Eds., Praeger Publishers, New York, p.335-350.
    Brown, G.E,M Carthew, P., Hoskins, J.A., Sara, E., and Simpson, 
C.F. 1990, Surface modifications can affect the carcinogenicity of 
asbestos, Carcinogenesis, v. 11. p.1883-1885.
    Chamberlain, M., and Brown, R.C., 1978, The cytotoxic effects of 
asbestos and other mineral dusts in tissue culture cell line, British 
Journal of Experimental Pathology, v.59,
    p. 183-189.
    Cooper, W.D., Wong, O., Trent L.S., and Harris, F., 1992, An 
updated study of taconite miners and millers exposed to silica and non-
asbestiform amphiboles. Journal of Occupational Medicine, v.34, p. 
1173-1180.
    Davis, J.M.G., Addison, J., McIntosh, C., Miller, B. G., and Niven, 
K., 1991, Variations in the carcinogenicity of tremolite dusts samples 
of differing morphology, Annals of the New York Academy of Sciences, 
v.643, p.473-490.
    Feurerbacher, D.G., Dimataris, G.T., Mace, M., L., Marshall, M.V., 
and McLemore, T.L., 1980, Comparative cytotoxicity of mutagenicity of 
organosilane reacted chrysotile asbestos (Abstract) Clay Mineral 
Society Annual Meeting, p. 34.
    Flowers, E.S, chemical detoxification of asbestos fibers, in 
Proceedings, National Workshop on Substitutes for Asbestos, A. Levin 
and H. Allsbury, eds, EPA-560/3-80001, Washington D.C., p. 489-496.
    Gamble, J.F, 1993, A nested case control study of lung cancer among 
New York talc workers, International Archives of Occupational and 
Environment Health, v.64, p.449
    456.
    Higgins, I.T.T. Glassman, J.H., Oh, M.S. and Cornell, R.G., 1983, 
Mortality of Reserve mining Company employees in relation to taconite 
dust exposure, American Journal of Epidemiology, v. 118, p.710-719.
    Hochella, M.f., 1993, Surface Chemistry, structure, and reactivity 
of hazardous mineral dust, in Health Effects of Mineral Dusts, Guthrie, 
G.D., and Mossman, B.T. eds, Reviews in Mineralogy V.28, Mineralogical 
Society of America, p.275-308.
    Honda, Y., Beall, C., Delzell, E., Oestenstad, K., Brill, I., and 
Mathews, R., 2002, Mortality among Workers at a Talc Mining and Milling 
Facility. Annals of Occupational Hygiene, v.46, p.575-585.
    Hume, L.A. and Rimstidt, J.D., 1992, The biodurability of 
chrysotile asbestos, American Mineralogist, v.77, pp1125-1128.
    International Agency for Research on Cancer (IARC), in press, 
Report of the Workgroup on Talc, Carbon Black and Titanium Dioxide, 
Lyon, France.
    Leake, B.E. et al. 1997, Nomenclature of amphiboles: Report of the 
subcommittee on Amphiboles of the International Mineralogical 
Association, Commission on new Minerals and Mineral Names, Canadian 
Mineralogist, v.35, p.219-246.
    Leake B.E. et al, 2004, Nomenclature of amphiboles: Additions and 
revisions to the International Mineralogical Association's amphibole 
nomenclature, American Mineralogist, v. 42, p.883-887.
    Leidel, N.A., Bayer, S.G., Zumwalde, R.E., and Busch, K.A., 1979, 
Membrane filter method for evaluating airborne asbestos fibers, U.S. 
Department of Health Education and Welfare, NISSH, USPHS/IOSH technical 
report n. 79-127.
    Lynch, J.R., Ayer, H.E., and Johnson, D.L., 1970, The 
interrelationships of selected asbestos exposure indices. American 
Industrial hygiene Journal, v.31, p. 598-604.
    Marchisio, M.A. and Pernis, B., 1963, The action of vinylopydidine-
polymers on macrophages cultivated in vitro in presence of tridymite 
dust, Grundfragen Silikoseforsch v. 6, p. 245-247.
    McDonald, J.D., Gibbs, G.W., Liddell, F.D.K., and McDonald, A.D., 
1978, Mortality to cummingtonite-grunerite. American Review of 
Respiratory Disease, v. 118, p. 271-277.
    McDonald, J.C., McDonald, A.D., Sebastien, P., and Moy, K, 1988, 
Health of vermiculate miners exposed to trace amounts of fibrous 
tremolite. British Journal of Industrial Medicine, v.45, p. 630-634.
    National Institute of Occupational Safety and Health (NIOSH), 2007, 
Asbestos and Other Mineral Fibers: A Roadmap for Scientific Research, 
February 2007 draft, presented at Public Meeting, Washington , D.C, May 
4, 2007, 47 pages.
    Occupational Safety and Health Administration (OSHA), 1992, Final 
Rule: Occupational exposure to asbestos, tremolite, anthophyllite and 
actinolite, Federal Register 57(110), p. 24310-24331.
    Pott, F., Huth, F., Friedrichs, K.H., 1974, Tumorogenic effects of 
fibrous dusts in experimental animals, Environmental Health 
Perspectives, v.9., p. 313-315.
    Schlipkoter, H.W., Dolgner, R., and Brockhaus, A., 1963, The 
treatment of experimental silicosis, German Medical Month, v. 8, p.509-
514.
    Siegrist, H.G. and Wylie, A.G., 1980, Characterizing and 
discriminating the shape of asbestos particles, Environmental Research 
v.23, p.348-361
    Smith, W.E., Hubert, D., Sobel, H., and Marquet E., 1979, Biologic 
tests of tremolite in hamsters, Dusts and Disease, p.335-339.
    Stanton, M., Layard, M., Tegeris, A., Miller, E., May, M., and 
Morgan, E.,1981, Relation of Particle dimension to carcinogenicity in 
amphibole asbestos and other fibrous minerals, Journal of the National 
Cancer Institute v.67, p.965-975.
    Steeland, K., and Brown, D., 1995, Mortality study of gold minerals 
exposed to silica and nonasbestiform amphibole minerals: an update with 
14 more years of follow-up, American Journal of Industrial Medicine, 
v.27, p.217-229.
    Stille, W.T., and Tabershaw, I.R., 1982, the mortality experience 
of upstate New York talc workers, Journal of Occupational Medicine 
v.24, p.480-484.
    Sullivan, P.A., 3 January 2007, Vermiculite, Respiratory Disease 
and Asbestos Exposure at Libby Montana: Update of a Cohort Mortality 
Study, Environmental Health Perspectives, doi:10.1289/eph.9481 at 
http://dx.doi.org/. 38 pages.
    Weitzman S.A., and Weitberg, A.b., 1985, Asbestos-catalyzed lipid 
peroxidation and its inhibition by deferoxamine. Biochemical Journal, 
v.225, p. 259-262.
    Verkouteren, J.R. and Wylie, A.G., 2002, Anomalous optical 
properties of fibrous tremolite, actinolite, and ferro-actinolite, 
American Mineralogist v.87, p. 1090-1095.
    Virta, R.L., Shedd, K., Wylie, A.G. and Snyder, J.G., 1983, size 
and Shape Characteristics of amphibole asbestos(Amosite) and amphibole 
cleavage fragments (actinolite, cummingtonite) collected on 
occupational air monitoring filters. Aerosols in mining and Industrial 
Work Environments, v.2, p. 633-643.
    Wagner, J.C., Berry, G. and Skidmore, J.W., 1976, Studies on the 
carcinogenic effects of fiber glass of different diameters following 
intrapleural inoculation in experimental animals, NIOSH 76-151, p.193-
197.
    Wagner, J.C., Skidmore, J.W., Hill, R.J., and Griffith, D.M., 1985, 
Erionite exposure and mesothelioma in Rats, British Journal of Cancer, 
v.51, p. 727-730.
    Warnock, M.D., 1989, Lung Asbestos burden in shipyard and 
construction workers with mesothelioma: comparison with burdens in 
Subjects with asbestosis or lung cancer. Environmental Research, v.50, 
p. 68-85.
    Weitzman, S.A., and Graceffa, P., 1984, Asbestos catalyzes hydroxyl 
and superoxide radical generation from hydrogen peroxide, Archives of 
Biochemistry and Biophysics, v. 228, p. 373-376.
    Werner, A.J., et al., 1995, Asbestiform riebeckite (crocidolite) 
dissolution in the presence of Fe chelators: implications for mineral-
induced disease. American Mineralogist, v.80, p. 1093-1103.
    Wylie, A. G., 1979, Optical Properties of the Fibrous Amphiboles, 
Annals of the New York Academy of Sciences, v.330, p. 611-612.
    Wylie, A.G., 1988, Relationship between the growth habit of 
asbestos and the dimensions of asbestos fibers, Mining Engineering, p. 
1036-1040.
    Wylie, A. G., 1993, Modeling asbestos populations: a fractal 
approach, Canadian Mineralogist, v.30, p. 437-446.
    Wylie, A. G. and Verkouteren, J.R., 2000, Amphibole asbestos from 
Libby, Montana: Aspects of nomenclature. American Mineralogist v. 85, 
p. 1540-1542.
    Wylie, A.G., Bailey, K.F. Kelse, J.W., and Lee, R.J., 1993, The 
importance of width in asbestos fiber carcinogenicity and its 
implications for public policy, American Industrial Hygiene Association 
Journal v. 54, p. 239-252.
    Yada, K., 1967, Study of Chrysotile asbestos by a high resolution 
electron microscopy, Acta Crystallographica, v.23, p.704-707.
                                 ______
                                 
 Response by Ann G. Wylie to an Additional Question from Senator Inhofe
    Question. Are there universally accepted methods by which minerals 
with asbestiform morphology can be distinguished via testing from 
chemically similar cleavage fragments?
    Response. Asbestos is a commercial term describing a group of 
highly fibrous silicate minerals composed of very narrow fibrils that 
easily separate by hand pressures yet possess tensile strength that is 
higher than the same minerals in a different form. These physical 
properties are universally understood as the characteristics necessary 
for the term asbestos to apply. It has been in use for at least 130 
years. E. S. Dana, then curator of the Mineral Museum at Yale, and J.D. 
Dana, Professor of Physics, also at Yale, published a Textbook of 
Mineralogy in 1877 in which they gave the following definition of 
asbestos:
    ``Trernolite, actinolite, and other varieties of amphibole, 
excepting those containing much alumina, pass into fibrous varieties, 
the fibres of which are sometimes very long, thin, flexible and easily 
separable by the fingers and look like flax. These kinds are called 
asbestos.''
    Since this definition was written, it is known that the form of 
serpentine known as chrysolite can also be asbestos. The properties the 
Danas describe are the same for both chrysotile-asbestos and amphibole-
asbestos and are distinctly different from chemically similar materials 
that fragment by cleavage.
    The identification of a mineral as amphibole or serpentine is 
readily accomplished by a chemical analysis and an x-ray diffraction 
pattern, the universally recognized basis for mineral 
identification.\1\ In hand specimens of known amphibole or serpentine, 
where long thin fibers that look like flax\2\ are visible and hand 
pressure can be applied to determine if the fibers are flexible and 
easily separable, the Dana definition of asbestos is universally 
accepted.
---------------------------------------------------------------------------
    \1\ There are other recognized methods of identification, but x-ray 
d most reliable and its results are unequivocal.
    \2\See photographs attached.
---------------------------------------------------------------------------
    Another definition has been developed over the past 20 years for 
identification of asbestos in material taken from bulk samples and 
examined under the optical microscope. To apply this definition, the 
identification of the mineral as serpentine or amphibole must be known. 
It has never to my knowledge been criticized and it is widely used; 
applying the term ``universal'' however, suggests that it would be 
accepted by mineralogists worldwide and I cannot say that it has been 
so widely discussed. It would probably surprise mineralogists not from 
the United States that a definition is needed at this level since the 
Danes' definition is so clear and has served so well for so long. This 
definition of asbestos at the microscope level for ao rp--ption of 
asbestos fibers is as follows:
    The following characteristics of a population of asbestos fibers 
can be observed by light microscopy and enable it to be distinguished 
from a chemically similar population of cleavage fragments:
    (1) Aspect ratios of 20: I and greater for particles longer than 5 
micrometers are common.
    (2) Fibers are composed of very thin fibrils, often less than 0.5 
micrometers, which occur in bundles.
    (3) Fibers wider than 0.5 micrometers display splayed ends, 
demonstrating their fibrillar structure.
    (4) Matted masses of individual fibers may be found in some samples
    (5) Long fibers frequently display curvature, a sip of flexibility.
    There is no accepted method by which asbestos can be distinguished 
from cleavage fragments on a particle by particle basis on air 
monitoring or water filtration filters. The NIOSH fiber definition is 
not specific for asbestos. However, I believe, and I so testified, that 
it is possible to develop a method that will enable a sufficiently 
accurate distinction between asbestos fibers and cleavage fragments 
found on air and water monitoring filters such that reliable exposure 
estimates/concentrations of each can be made. The method would be based 
on the unusual and distinctive dimensional characteristics of asbestos 
that are already well known and well described in the published 
literature. The National Institute of Standards and Technology has the 
experience and knowledge to develop such a method.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Senator Boxer. Thank you very much.
    Dr. Weill.

 STATEMENT OF DAVID WEILL, M.D., ASSOCIATE PROFESSOR, DIVISION 
 OF PULMONARY AND CRITICAL CARE MEDICINE, STANFORD UNIVERSITY 
                  MEDICAL CENTER, STANFORD, CA

    Dr. Weill. Good morning, Senator Boxer and members of the 
committee. Thank you for the opportunity to testify.
    I will comment today specifically on the differences in 
toxicity associated with a variety of inhaled fibrous and non-
fibrous minerals. These minerals are often grouped under the 
broad category of asbestos, but there are fundamental 
differences among these minerals in terms of their potential to 
cause human disease.
    My testimony is from a clinician's point of view, using 
appropriate support from the scientific background. As was 
mentioned, I hold several positions at the Stanford University 
Medical Center, including Director of the Lung and Heart-Lung 
Transplant Program. I am also a ``B Reader,'' certified by 
NIOSH as competent to classify chest x-rays for lung conditions 
such as those caused by exposure to asbestos dust.
    I have also had the opportunity to testify before the U.S. 
Senate Judiciary Committee when it was considering the FAIR Act 
legislation in 2005 as well as the Texas State legislature when 
it was considering legislation addressing the handling of 
asbestos and silica claims. It is of course a privilege to 
testify before you here today.
    Asbestos exposure, as you have heard today, can lead to 
both non-malignant and malignant diseases, such as lung cancer 
and mesothelioma. The asbestos-related diseases, and for that 
matter, all pneumoconiosis, are dose-dependent, meaning that 
increased level and total amount of exposure results in 
increased risk and/or severity of the disease. Conversely, as 
workplace exposures have been substantially reduced in the last 
several decades, asbestos-related health effects have also 
become less prevalent.
    While our focus here today is to discuss the differences 
between asbestiform and non-asbestiform substances, it is 
important to note that there are important differences, even 
among various asbestos fiber types, and considerable evidence 
that different types of asbestos have different potentials to 
cause disease. While many epidemiologic studies have 
demonstrated an association between asbestos exposure and 
mesothelioma, the asbestos-mesothelioma association is 
particularly strong in occupations that involve heavy amphibole 
exposure, such as shipyard workers and insulators.
    The message of these studies is simple: different asbestos 
fiber types have different potential to cause disease.
    Now, examining the health effects of amphibole minerals 
more closely. There has been a considerable body of literature 
about the health effects of cleavage fragments derived from 
non-fibrous amphibole minerals, specifically whether or not 
they can cause human disease.
    Although I am by no means a mineralogist, I have some 
understanding about the physical properties of these fibers and 
cleavage fragments. Most amphibole minerals are non-
asbestiform, designated as such because they have different 
characteristics that make them behave differently. Cleavage 
fragments result from a physical manipulation of these non-
asbestiform particles.
    They are sometimes difficult to distinguish from amphibole 
asbestos fibers using standard counting procedures. Based on 
the scientific literature in my experience as a clinician, I 
have three general opinions regarding the health effects of 
cleavage fragments. No. 1, the different properties of 
asbestiform amphibole fibers and non-asbestiform cleavage 
fragments impact human health differently and should not be 
considered as the same. No. 2, animal data reveal lack of 
pathogenicity; and No. 3, human epidemiologic studies have 
established no association between cleavage fragments and human 
disease.
    Others testifying here today will describe in detail the 
differences in physical properties of asbestos fibers and 
cleavage fragments. In the interest of time, I will skip any 
discussion of these physical properties, except to say that the 
fundamental physical difference between amphibole asbestos 
fibers and cleavage fragments results in each having very 
different health effects. That is my first opinion that I want 
to express.
    Now my second opinion, specifically that there are animal 
studies involving exposure to cleavage fragments, not finding 
any adverse health effects from these exposures, I have also 
outlined in my written testimony. I wanted to be able to skip 
to my third opinion, looking at human epidemiologic studies 
involving exposure to cleavage fragments, specifically that 
they have not found any adverse health effects. The 
occupational settings for these studies include gold, nickel 
and taconite mines, as well as talc and pottery workers and 
tunnel diggers. In each of these cohorts, no excess 
mesothelioma, lung cancer of pneumoconiosis risk could be shown 
from exposure to cleavage fragments.
    Fortunately, with the institution of policies which limit 
occupational exposure to asbestos, the incidence of asbestos-
related lung conditions is decreasing. Further, it is my 
opinion that not all types of asbestos have the same potential 
to cause human disease. Even further, cleavage fragments are 
naturally occurring and rarely meet the regulatory definition 
of asbestos fiber.
    Currently, there is no existing evidence that cleavage 
fragments are pathogenic for the reasons that I reviewed. The 
impetus to perform----
    Senator Boxer. Doctor, could you just wrap up?
    Dr. Weill. Sure.
    Senator Boxer. Thank you.
    Dr. Weill. The impetus to perform epidemiologic studies on 
substances that may have a human health risk evolve from 
hypothesis-generating information that suggest there might be a 
risk. I do not believe such data exists with regard to cleavage 
fragments.
    I feel my opinions today are based on the scientific 
evidence already available. Thank you for the opportunity to 
testify, and I hope my perspective is helpful.
    [The prepared statement of Dr. Weill follows:]
   Statement of David Weill, M.D., Associate Professor, Division of 
   Pulmonary and Critical Care Medicine, Stanford University Medical 
                          Center, Stanford, CA
    Senator Boxer, Senator Inhofe, and Members of the committee: Thank 
you for the opportunity to testify before you about the health effects 
of asbestos. I will comment today specifically on the differences in 
toxicity associated with a variety of inhaled fibrous and non-fibrous 
minerals. These minerals are often grouped under the broad category of 
``asbestos,'' but there are fundamental differences among these 
minerals in terms of their potential of each mineral to cause human 
disease. My testimony is from a clinician's point of view, using 
appropriate support from the scientific literature.
    I'll begin by telling you a bit about my background. I am board 
certified in Pulmonary and Critical Care Medicine. Currently, I hold 
several positions at the Stanford University Medical Center, including 
Associate Professor of Medicine in the Division of Pulmonary and 
Critical Care Medicine, and I am the Director of the Lung and Heart--
Lung Transplant Program.
    I am also a ``B Reader,'' which means I have been certified by the 
National Institute of Occupational Safety and Health (``NIOSH'') as 
competent to classify chest x-rays for lung conditions such as those 
caused by exposure to asbestos dust. At Stanford, we are referred and 
treat patients with both common and rare respiratory conditions. Such 
referrals include patients with both occupational and non-occupational 
diseases.
    I have also had the opportunity to testify before the United States 
Senate Judiciary Committee when it was considering the FAIR Act in 2005 
and the Texas State Legislature regarding legislation addressing the 
handling of asbestos and silica claims. It is of course a privilege to 
testify before you here today.
                       heath effects of asbestos
    Asbestos exposure can lead to nonmalignant conditions such as 
asbestosis (a parenchymal fibrotic lung disease) and pleural changes 
(pleural effusion, pleural thickening, pleural plaques, and rounded 
atelectasis), as well as malignant conditions such as lung cancer and 
mesothelioma. The asbestos-related diseases and, for that matter, all 
pneumoconiosis, are dose-dependent, meaning that increased level and 
total amount of exposure results in increased risk and/or severity of 
the diseases. Conversely, as workplace exposures have been 
substantially reduced in the last several decades, asbestos-related 
health effects have become less prevalent.
              health effects of different asbestos fibers
    Asbestos is the commercial designation for 6 fibrous minerals of 
two broad types: serpentine and amphibole. Chrysotile is the only type 
of serpentine asbestos, while there are five different amphibole 
asbestos fibers: crocidolite, amosite, tremolite, actinolite, and 
anthophyllite. While our focus here today is to discuss the differences 
between asbestiform and non-asbestiform substances, it is important to 
note that there are important differences even among various asbestos 
fiber types and considerable evidence that different types of asbestos 
have different potentials to cause disease. While many epidemiologic 
studies have demonstrated an association between asbestos exposure and 
mesothelioma, the asbestos-mesothelioma association is particularly 
strong in occupations that involved heavy amphibole asbestos exposure, 
such as shipyard workers and insulators.
    The message of these studies is simple: different asbestos fiber 
types have different potential to cause disease.
                  health effects of cleavage fragments
    Now, let's examine the health effects of amphibole minerals more 
closely. There has been a considerable body of literature about the 
health effects of cleavage fragments derived from non-fibrous amphibole 
minerals, specifically whether they can cause human disease. Although I 
am by no means a mineralogist, I have some understanding about the 
physical and chemical properties of asbestos fibers and cleavage 
fragments, particularly as they are important to the development of 
human lung disease.
    Most amphibole minerals are ``non-asbestiform'', designated as such 
because they have different characteristics that make them behave 
differently. Cleavage fragments result through the physical 
manipulation of these non-asbestiform particles and are sometimes 
difficult to distinguish from amphibole asbestos fibers using standard 
counting procedures.
    Based on the scientific literature and my experience is a 
clinician, I have three general opinions regarding the health effects 
of cleavage fragments:
    (1) The different properties of asbestiform amphibole fibers and 
non-asbestiform cleavage fragments impact human health differently and 
should not be considered as the same;
    (2) Animal data reveal a lack of pathogenicity;
    (3) Human epidemiological studies have established no association 
between cleavage fragments and human disease
physical properties of amphibole asbestos fibers and cleavage fragments
    First, a bit about the different properties of asbestos fibers and 
cleavage fragments. Although the non-asbestiform and asbestos 
amphiboles are chemically similar, they differ with regards to 
morphology. Asbestiform amphiboles are made up of fiber bundles that 
run parallel to each other, which when they split, form single fibrils. 
Each individual fibril is long, thin, and very flexible. Non-
asbestiform amphiboles are not unidirectional fibers but run in two or 
more different planes, forming a prism. These non-asbestiform 
structures do not break down into fibers or fibrils but instead into 
cleavage fragments that are thick and short and therefore not likely to 
be inhaled into the more distant (or deep) parts of the lung.
    If one then compares more closely asbestiform and non-asbestiform 
amphiboles, they differ with respect to three important 
characteristics: surface properties, tensile strength, and dissolution.
    1. Surface properties. The outside surface of amphibole asbestiform 
fibers is smooth, free of defects, and very strong, largely because 
there are no crevices or cracks in the fiber surface that can be 
subject to degradation strategies present after inhalation into the 
lung. This is not the case in non-asbestiform structures that have 
mechanical planes that can be exploited and lead to degradation.
    2. Tensile strength. Amphibole asbestos fibers have inherent 
flexibility, giving them great tensile strength. Cleavage fragments, 
however, are inflexible and brittle, making them vulnerable to physical 
stress.
    3. Dissolution properties. The human body's natural defenses, 
particularly macrophages, generate an acidic environment to break down 
inhaled particles in the lungs. Amphibole asbestos fibers are resistant 
to acidic dissolution and are said to be biopersistent, meaning they 
remain in the lungs indefinitely. Cleavage fragments have surface 
defects or cracks that make these fragments amenable to acidic 
dissolution, which enables the body's natural defenses to expel them.
    These fundamental physical differences between amphibole asbestos 
fibers and cleavage fragments result in each category of minerals 
having different health effects. Cleavage fragments are generally too 
wide to penetrate into the deep parts of the lung, particularly when 
longer than 5 microns. If shorter than 5 microns, as is commonly the 
case, there is a body of literature that suggests that, even if they 
shared the same properties as those of asbestos fibers, that these 
smaller particles have no pathologic effect, either in terms of 
fibrosis or mesothelioma development. In fact, the epidemiology and 
basic science literature (beginning in 1968) demonstrates that fiber 
length correlates strongly with development of asbestos-related 
diseases. This proposition is described as the Stanton hypothesis and 
assumes that fibers greater than about 8 microns in length and less 
than a quarter of a micron in diameter are the most potent in producing 
mesothelioma.
    Highlighting this point, the EPA in 2003 reviewed the available 
literature to devise a protocol to assess asbestos-related risk. The 
expert panel agreed with the development of a protocol that considered, 
for purposes of evaluating asbestos-related risk, that fibers less than 
0.5 microns in diameter and greater than 5 microns in length were more 
important in disease development. Fibers with greater diameters were 
believed to be unlikely to be inhaled to the more distal parts of the 
lung.
        animal studies involving exposure to cleavage fragments
    Let's move on to my second opinion, specifically that animals 
studies involving exposure to cleavage fragments have not found any 
adverse health effects from such exposures. It should be noted that 
there are limitations of the findings of any animal studies of this 
nature. First, animal studies generally use direct intrapleural or 
intraperitoneal injection of the substance being studied, bypassing the 
lung's natural defense mechanisms. And secondly, the amount of a 
substance administered to the animals (i.e. the dose) is usually 
massive and well beyond what could be observed in any occupational 
setting. However, notwithstanding these limitations, there are several 
animals studies that have been conducted that show no carcinogenic 
potential for cleavage fragments. This is very different from similarly 
conducted studies when true amphibole asbestos fibers were instead 
injected.
         human studies involving exposure to cleavage fragments
    Finally, my third opinion is that the body of human epidemiological 
studies involving exposure to cleavage fragments has not found adverse 
health effects from exposure to cleavage fragments. The occupational 
settings for these epidemiological studies included gold, nickel, and 
taconite miners, as well as talc and pottery workers and tunnel 
diggers. In each of these cohorts, no excess mesothelioma, lung cancer, 
or pneumoconiosis risk could be shown from exposure to cleavage 
fragments.
    The largest study of workers exposed to cleavage fragments has been 
the Homestake gold mining cohort. In this study, there was no excess 
lung cancer risk identified. In fact, as exposure levels increased, the 
lung cancer risk tended to decrease, indicating no association of 
exposure with lung cancer development. Importantly, there were no 
mesothelioma deaths in this group. A study was also conducted of the 
Minnesota taconite miners who were exposed to grunerite cleavage 
fragments and this cohort showed no evidence of an excess of asbestos-
attributable diseases. Other studies of cohorts exposed to cleavage 
fragments have reached similar conclusions. Therefore, the health risks 
demonstrated to be associated with amphibole asbestos exposure should 
not be assumed to apply to cleavage fragments.
    Fortunately, with the institution of policies which limit 
occupational exposure to asbestos, the incidence of asbestos related 
lung conditions is decreasing. Further, it is my opinion that not all 
types of asbestos have the same potential to cause human disease. Even 
further, cleavage fragments are naturally occurring and rarely meet the 
regulatory definition of an asbestos fiber. Therefore they are 
designated as ``non-asbestiform'' and have fundamentally different 
properties than amphibole asbestos. Currently, there is no existing 
evidence that cleavage fragments of nonasbestiform fibers are 
pathogenic for the reasons that I reviewed in my testimony, and there 
is no animal or human data that implicates these fragments as a cause 
of disease.
    The impetus to perform epidemiologic studies on substances that may 
have a human health risk generally results from hypothesis-generating 
information to suggest that there might be a health risk. I do not 
believe such data exists. Further, with the asbestos exposure levels so 
low currently and the inability to study in isolation the health 
effects of cleavage fragments, I do not feel that human studies could 
be conducted which would result in meaningful conclusions. The medical 
literature is already informative on non-asbestiform fragments, and 
while it is always important to gain new scientific knowledge, I feel 
my opinions expressed today are based on the sound scientific evidence 
already available.
    I hope that my perspective is helpful to the committee's efforts. 
Thank you.
                                 ______
                                 
    Responses from David Weill, M.D., to Additional Questions from 
                             Senator Inhofe
    Question 1. Can you please clarify your response during the hearing 
regarding questions posed to you associated with scientific methodology 
and acceptable risk?
    Response. Science, through epidemiologic study, provides society 
with risk assessments of various elements of our society. These 
elements are broad and include non-occupational activities, such as 
driving a car, drinking the water, and flying in an airplane, just to 
name a few. Epidemiology has also given us information about the risks 
present in a variety of occupational settings and informs employers, 
employees, and society in general about the risks that might be present 
in a particular work environment. Science can quantitative these 
occupational and non-occupational risks, but it cannot determine what 
is an acceptable risk. Instead, the determination of acceptable risk is 
a societal function.

    Question 2. Do you believe it is the proper role for scientists and 
data analysts to make policy, regulatory, and legislative decisions 
regarding health protections or is it the role of these technical 
professionals to fairly and without bias evaluate scientific data to 
inform the public policy debate?
    Response. I clearly think it is our job as scientists to provide 
the scientific data and analysis to policy makers, who then have the 
responsibility to set policy that reflects societal values and 
concerns. I do not think it is my place as a physician to make 
determinations about what risks are acceptable in non-occupational or 
occupational settings. This should be a function of our policy makers.

    Senator Boxer. Thank you, Doctor.
    Dr. Lemen.

    STATEMENT OF RICHARD A. LEMEN, Ph.D., M.S.P.H., FORMER 
  DIRECTOR, DIVISION OF STANDARDS DEVELOPMENT AND TECHNOLOGY 
TRANSFER, ASSISTANT SURGEON GENERAL, U.S. PUBLIC HEALTH SERVICE 
 (RETIRED), REAR ADMIRAL, U.S. PUBLIC HEALTH SERVICE (RETIRED)

    Mr. Lemen. I would like to thank you, Chairman Boxer, 
Ranking Member Inhofe and Senator Lautenberg and the rest of 
the committee for inviting me here today. My name is Dr. 
Richard Lemen. I am a former Assistant Surgeon General of the 
United States, and was former Acting and Deputy Director of the 
National Institute for Occupational Safety and Health.
    As we address asbestos during this hearing over the next 2 
to 3 hours, approximately three to four people will die of an 
asbestos-related death. These diseases could have been 
prevented. Unfortunately, these diseases represent an under-
estimate because there are no nationwide surveillance systems 
that capture adequately the true nature of asbestos-related 
diseases.
    For example, one of our premier surveillance systems, the 
Surveillance Epidemiology and End Results data base of the 
National Cancer Institute has been found to under-report 
mesothelioma in some areas of the United States by as much as 
80 percent. We need to fix this and perfect better systems to 
capture all asbestos-related diseases, if we are ever to have 
data to measure the true impact of asbestos and to determine if 
our public health efforts to prevent asbestos-related diseases 
are effective.
    As we will see in countries that have banned or placed 
strict regulations on the import and use of asbestos, the trend 
of asbestos-related diseases is beginning to slow down. 
However, this is not true in the United States, according to 
the National Institute for Occupational Safety and Health, 
where asbestosis is the only one of the induced lung diseases 
that continues to increase. This is also true for mesothelioma.
    While this country is still experiencing asbestos-induced 
and disease epidemic that continues to get worse and shifting 
from occupational to non-occupational victims, proponents of 
asbestos usage are trying to influence the regulatory agencies 
with efforts to exclude some forms of asbestos, as well as 
rewrite the definition of asbestos to exclude exposures to non-
asbestos materials that are contaminated with fibrous asbestos. 
These issues include the relaxation of regulatory standards for 
the main commercial asbestos fiber type chrysotile.
    In doing this, two issues will be accomplished. First, the 
ability to continue to use chrysotile asbestos in this country 
and to promote new markets in developing countries not having 
regulations or adequate knowledge of the hazards of this form 
of asbestos.
    Second, by redefining asbestos and eliminating types of 
fibrous particles such as cleavage fragments that are 
contaminants of talc mines and other types of mines such as 
vermiculite mines, allow these operations to continue exposing 
their workers and spreading their contamination and deadly 
products to unsuspecting consumers. Such shenannery must be 
exposed.
    Chrysotile asbestos is dangerous and no exposure threshold 
has ever been established for its safe use. It causes all 
asbestiform-related diseases. Regulation of asbestos has been 
historically dependent upon the definition of asbestos, and as 
you heard from NIOSH, even at the current standard of .1 fiber 
per cc, 3.4 per 1,000 workers will die over a working lifetime.
    I would like to provide some data which may shed some light 
on the arguments for a better fiber definition which comes to 
materials contaminated to fibrous asbestos. For many years, 
NIOSH has been looking at this issue. NIOSH's Dement and co-
workers found from one mine and mill reported by a company to 
be producing non-asbestiform talc air samples of 5 fibers per 
cc as time-weighted averages in 6 job categories containing 48 
percent mineral talc, tremolite and phosolyte, serpentine, 
lizardite, antigorite. Thus, the TWA for asbestos was exceeded 
by both the OSHA and the Federal Mine Safety and Health 
Administration.
    I would like to end this testimony by saying that in some 
of the testimony that has come before, we have heard that the 
mines that have some of these fibers, such as the gold mine, 
have not had related diseases. I would like to correct that, 
because there is a threefold excess in the study that I was 
conducting with my NIOSH colleagues in 1976 for respiratory 
cancer, and a twofold excess for respiratory disease.
    In the study that was done by Dr. McDonald, when you look 
at the----
    Senator Boxer. We need you to wrap up now.
    Mr. Lemen. When you look at the latency period, which is an 
important, critical factor, and those highest latency periods 
disease did occur.
    Thank you, and I will have the rest of my comments 
submitted to the committee.
    [The prepared statement of Dr. Lemen follows:]
   Statement of Richard A. Lemen, Ph.D., M.S.P.H., Former Director, 
 Division of Standards Development and Technology Transfer, Assistant 
 Surgeon General, U.S. Public Health Service (Retired), Rear Admiral, 
                  U.S. Public Health Service (Retired)
    I would like to thank Chairman Boxer, Ranking Member Inhofe and the 
entire EPW Committee for the honor and opportunity to testify today.
    My name is Dr. Richard A. Lemen. I am retired from the United 
States Public Health Service where I was an Assistant Surgeon General 
of the United States. At the time of my retirement I was also Deputy 
Director and had been Acting Director of the National Institute for 
Occupational Safety and Health (NIOSH). I have spent my entire career, 
since 1970, studying the epidemiology of asbestos-related diseases and 
have conducted numerous epidemiology studies, written many scientific 
papers, advised the World Health Organization, various other National 
governments, and have testified before the United States Congress on 
several occasions concerning the health risks from exposure to 
asbestos. I am an adjunct professor of environmental and occupational 
medicine at Emory University and a consultant in occupational health 
and epidemiology. I also testify in asbestos-related litigation on 
behalf of plaintiffs. My CV, which I have supplied the committee, will 
give you further information concerning my studies on asbestos.
    Often asbestos is referred to as the ``magic Mineral'' having at 
least 3000 or more uses, such as being woven into cloth, with vegetable 
fibers; for wrapping the corpuses, referred to by Pliny as the funeral 
dress of kings prior to cremation in order to help collect the ashes; 
in making clay pots some 4000 years ago; and was even mentioned by 
Marco Polo, during his travels to the far east, where he found it 
called ``salamander'' skin which was mined from the mountains, 
extracted then crushed, by subjects of the Great Khan, into a fibrous 
like wool that was then spun and made into cloth of which some were 
used for table cloths, that when soiled, were thrown into the fire and 
came out ``white as snow'' for use again; one was sent to the Pope, in 
Rome, ``in which cloth he keeps the Sudarium of our Lord.'' Benjamin 
Franklin even bought a purse from the ``northern part of America'' made 
from woven asbestos.\1\
---------------------------------------------------------------------------
    \1\ Lemen, RA, 2005. Epidemiology of Asbestos-Related Diseases and 
the Knowledge that Led to What is Known Today. In: ASBESTOS Risk 
Assessment, Epidemiology, and Health Effects, Eds. RF Dodson, SP 
Hammar. CRC Taylor & Francis, 201-308.
---------------------------------------------------------------------------
    Our modern knowledge of asbestos usage and asbestos-related disease 
began in the early 1900s, with reports of lung diseases among asbestos 
workers in the United Kingdom as well as the United States. By 1930, 
the disease asbestosis was well established as a lung disease 
contracted from exposures to asbestos. Unfortunately, by the mid-1930s 
it was suspected that, in addition to asbestosis, cancer may also 
result from exposure to asbestos. Today we know that various cancers, 
including lung cancer, gastrointestinal cancers, and mesothelioma are 
all causally associated from exposure to asbestos. We know that all 
forms of commercially used asbestos, including chrysotile, as well as 
the amphiboles cause all of the asbestos-related diseases including 
asbestosis, lung cancer, mesothelioma and gastrointestinal cancers.\2\
---------------------------------------------------------------------------
    \2\ Lemen, RA, 2005. Epidemiology of Asbestos-Related Diseases and 
the Knowledge that Led to What is Known Today. In: ASBESTOS Risk 
Assessment, Epidemiology, and Health Effects, Eds. RF Dodson, SP 
Hammar. CRC Taylor & Francis, 201-308.
---------------------------------------------------------------------------
    Asbestosis is a progressive disease which can eventually result in 
death after much disability and suffering, even after occupational 
exposures have ceased. Asbestosis does not respond to medical 
treatment, only palliative care can be given.\3\
---------------------------------------------------------------------------
    \3\ ATSDR, 2001. Agency for Toxic Substances and Disease Registry 
Questions and Answers Exposure to Asbestos. Department of Health and 
Human Services, Atlanta, GA, July 26.
---------------------------------------------------------------------------
    Asbestos-induced cancers are not confined to just the workers 
exposed at work, but asbestos exposures can be brought home to family 
members, as a result of contamination of their work clothes, prompting 
asbestos-induced disease in them as well. Asbestos-related diseases can 
also occur to residents living near asbestos sources.\4\
---------------------------------------------------------------------------
    \4\ NIOSH, 1995. Report to Congress on Workers' Home Contamination 
Study Conducted Under The Workers' Family Protection Act (29 U.S.C. 
671a). U.S. Department of Health and Human Services, Public Health 
Service, Centers For Disease Control And Prevention, National Institute 
for Occupational Safety and Health (NIOSH), Cincinnati, OH 45226, 
September. See sections on Asbestos p. 6-11; 45-46; 55; 62-63; 86-87; 
tables 2-6 (pp. 145-159).
---------------------------------------------------------------------------
    In the United States it is estimated that between 189,000 and 
231,000 deaths have occurred since 1980 due to workplace exposure to 
asbestos. Another 270,000 to 330,000 deaths are expected to occur over 
the next 30 years and for those workers exposed, over a working 
lifetime, to the current Occupational Safety and Health administration 
(OSHA) standard of 0.1 fibers/cc--3.4/1000 workers are estimated to die 
as a result of asbestos-related diseases.\5\ A more recent study 
suggested the use of linear extrapolation, as used by OSHA, from high 
exposure levels may underestimate the risks at low doses (Gustavsson et 
al., 2002).\6\ Unless asbestos use in the United States is not banned 
there is no end of its ability to exposure workers and consumers to its 
dangers.
---------------------------------------------------------------------------
    \5\ OSHA, 1986. OSHA, 1986. Final Rule: Asbestos. 51 FR 22612. U.S. 
Department of Labor. Occupational Safety and Health Administration, 
Washington, D.C., June 20.
    \6\ Glustavsson P, Nyberg F, Pershagen G, Scheele P, Jakobsson R, 
Plato N, 2002. Low-dose exposure to asbestos and lung cancer: Dose-
response relations and interaction with smoking in a population-based 
case-referent study in Stockholm, Sweden. Am J Epi, Vol. 156 (11); 
1016.
---------------------------------------------------------------------------
    Products containing asbestos can still be found in things found in 
the home such as lamp sockets, floor tiles, cat box fill, braking 
mechanism in washing machines and cars, furnaces, and other products. 
Because these products are not only manufactured by workers, but are 
also used, maintained, and repaired by workers--they (workers) suffer 
additional exposure from consumer products as do the consumers using 
these products.
    The most recent Criteria Document from the World Health 
Organization's (WHO) International Programme for Chemical Safety (IPCS) 
states in 1998 that no threshold has been identified for carcinogenic 
risks to chrysotile asbestos.\7\ Chrysotile is the main commercially 
used asbestos in the World. This 1998 WHO statement is consistent with 
the WHO's earlier conclusion in 1989 ``[T]he human evidence has not 
demonstrated that there is a threshold exposure level for lung cancer 
or mesothelioma, below which exposure to asbestos dust would not be 
free of hazard to health''.\8\ The WHO recognizes what NIOSH concluded 
31 years ago, in 1976, that ``. . . (only a ban can assure protection 
against carcinogenic effects of asbestos)''.\9\ I cannot tell any of 
you, on this committee, why some will develop asbestosis or other 
asbestos-related cancers and why others won't. But what I can tell you 
is that asbestos-induced diseases are preventable. Each and every one!
---------------------------------------------------------------------------
    \7\ IPCS, 1998. Environmental Health Criteria 203: Chrysotile 
Asbestos, International Program on Chemical Safety, World Health 
Organization.
    \8\ WHO, 1989. Occupational Exposure Limit for Asbestos. WHO/OCH/
89.1, Office of Occupational Health, World Health Organization, Geneva.
    \9\ NIOSH, 1976. Revised Recommended Asbestos Standard. DHEW 
(NIOSH) Publication No. 77-169. U.S. Department of Health, Education, 
and Welfare. Public Health Service. Centers for Disease Control. 
National Institute for Occupational Safety and Health. December.
---------------------------------------------------------------------------
    The first criteria document from the newly formed NIOSH of 1970, 
was on asbestos, after NIOSHs first Director Dr. Marcus Key had sent a 
letter to OSHA stating the inadequacy of OSHAs new start-up standard 
for asbestos, based on the then ACGIH TLV. NIOSH was the first federal 
agency to call for a ban on asbestos in its 1976 Revised Criteria 
Document. NIOSH has maintained this position to the present, while 
suggesting in the interim that the only reliable and practical 
analytical method, in 1976, was 0.1 fiber/cc using the NIOSH Phase 
Contrast Method (PCM) 7400 asbestos analytical method. Unfortunately 
chrysotile cannot be seen in the light microscope when it occurs in the 
fibril form and thus most chrysotile is not counted in an air sample 
using a NIOSH 7400 count scheme-diameter resolution of approximately 
0.25 microns where as most individual fibers of crocidolite and 
chrysotile are 0.02-0.05 microns in diameter. OSHA describes the 
advantages and disadvantages of the Phase Contrast Microscope (PCM) as 
can be seen in the footnote.\10\
---------------------------------------------------------------------------
    \10\ Rules and regulations--Dept Labor--OSHA 29 CFR Parts 1910, 
1915, 1926-Occupational Exposure to Asbestos--Final rule--Aug. 10, 1994
    59FR4096
    ``1.3 Advantages and Disadvantages
    There are four main advantages of PCM over other methods:
    (1) The technique is specific for fibers. Phase contrast is a fiber 
counting technique which excludes non-fibrous particles from the 
analysis.
    (2) The technique is inexpensive and does not require specialized 
knowledge to carry out the analysis for total fiber counts.
    (3) The analysis is quick and can be performed on-site for rapid 
determination of air concentrations of asbestos fibers.
    (4) The technique has continuity with historical epidemiological 
studies so that estimates of expected disease can be inferred from 
long-term determination of asbestos exposures.
    41066 The main disadvantage of PCM is that it does not positively 
identify asbestos fibers. Other fibers which are not asbestos may be 
included in the count unless differential counting is preformed. This 
requires a great deal of experience to adequately differentiate 
asbestos from non-asbestos fibers. Positive identification of asbestos 
must be performed by polarized light or electron microscopy techniques. 
A further disadvantage of PCM is that the smallest visible fibers are 
about 0.2mm in diameter while the finest asbestos fibers may be as 
small as 0.2mm in diameter. For some exposures, substantially more 
fibers may be present than are actually counted.''
---------------------------------------------------------------------------
    Any definition of asbestos should include all respirable 
asbestiform fibrous minerals, including fibrous cleavage fragments 
which are respirable.\11\ This should only be changed if there exist 
irrefutable data, both human and animal, showing the safety of any such 
fibrous mineral being excluded. Valid methodologies now exist to sample 
for all size fibers, including those less than 5 um in length, not 
currently addressed in regulatory standards. These smaller fibers 
should be included in any asbestos definition. Both animal and human 
data support such an inclusion as can be seen by the attached Appendix 
1.\12\
---------------------------------------------------------------------------
    \11\ Dement J M, Zumwalde RD, Gambel JF, Fellner W, DeMeo MJ, Brown 
DP, Wagoner JK, 1980. Occupational exposure to talc containing 
asbestos-Morbidity, Mortality, and environmental studies of miners and 
millers. NIOSH Technical Report-DHEW (NIOSH) Publication No. 80-115, 
Feb.
    \12\ See Appendix 1--Short Fibers, Richard A. Lemen, Ph.D.
---------------------------------------------------------------------------
    Federal and State governments should work together to address, 
refine, and/or develop surveillance of fiber-related diseases, 
including those from asbestos. For example it is well known that the 
National Cancer Institutes Surveillance Epidemiology and End Results 
(SEER) data base underreports mesothelioma.\13\ NIOSH should be funded 
to continue its Respiratory Disease Surveillance System and should 
assure that other NIOSH surveillance systems become more comprehensive 
and inclusive. None of the systems should rely solely on Proportionate 
Mortality/Morbidity Analysis for determining mortality or morbidity 
data, as this type analysis underreports low incidence diseases, albeit 
important diseases i.e. mesothelioma.
---------------------------------------------------------------------------
    \13\  See Appendix 2--Mesothelioma Surveillance, Richard A. Lemen, 
Ph.D.
---------------------------------------------------------------------------
    Research should determine how much of background mesothelioma and 
other asbestos-related diseases are related to the increased 
consumption of asbestos in any reference populations used for 
comparison and thus adjust expected rates accordingly in order to 
determine the true risk of asbestos-related diseases.
    Epidemiology literature on all fibrous materials, not just those 
related to the currently regulated asbestiform fiber types should be 
reviewed and new research conducted when necessary. Such research 
should address all respirable fiber types and all size parameters of a 
respirable nature, including short respirable fibers less than 5 
microns in length.
    Since biopersistence has been used as a surrogate for exposure and 
fiber type of exposure through identifying their persistence in the 
lung as a critical factor in causation, toxicological studies should 
evaluate whether the external airborne concentrations of fibers are 
actually representative of the fiber concentrations and morphologies 
once the fibers have been inhaled into the lung. Data suggest that the 
correlation of breathing zone samples of chrysotile may not represent 
the actual fiber concentration of chrysotile fibers once in the lung as 
they break apart from fiber bundles and multiply within the lung, while 
the amphiboles do not.\14\ This is important not only as it means a 
higher dose of chrysotile within the lung but a higher number of fibers 
that can translocate from the lung to other parts of the body, such as 
the pleura. Because dose plays a significant role in the toxicity of 
chrysotile as compared to amphiboles such findings would be important 
in determining the actual role of chrysotile in asbestos-related 
diseases such as mesothelioma. Translocation of chrysotile asbestos 
from the lung indicates a specific role for chrysotile in the etiology 
of mesothelioma since the chrysotile fibers reach the areas where the 
tumor develops. Mesotheliomas develop in the pleura, peritoneum and 
other serosal surfaces of the body. It is universally accepted that 
chrysotile is a cause of cancer in the lung and migrates to and is 
concentrated in the pleura\15\. Since chrysotile is carcinogenic and is 
present in high concentrations in the pleura where the mesothelioma is 
induced, it is biologically plausible that it causes or contributes to 
the cause of mesothelioma. This is also shown by many mechanistic and 
molecular studies that indicate how chrysotile may cause mesothelioma. 
Fiber penetration can rearrange the cytoskeletal apparatus of the cell 
and this could indicate an interaction between the chrysotile fibers 
and the normal mitotic process, since giant multinucleated cells are 
formed. These studies indicate that chrysotile penetrates the cell, 
enters the nucleus and induces abnormal chromosome formations in 
dividing cells.\16\ Some of these abnormalities include the deletion of 
the P53 gene that controls cell growth.\17\
---------------------------------------------------------------------------
    \14\ Bellman B, Muhle H, Pott F, Konig H, Kloppeel H, Spurny K, 
1987. Persistence of man-made fibers (MMF) and asbestos in rat lungs. 
Annals of Occup Hyg, 31: 693-709.
    \15\ Suzuki, Y. & Kohyama, N., 1991. Translocation of Inhaled 
Asbestos Fibers from the Lung to Other Tissues. Am J Ind Med, Vol. 19, 
p. 701-704; Kohyama, N. & Suzuki, Y., 1991. Analysis of asbestos fibers 
in lung parenchyma, pleural plaques, and mesothelioma tissues of North 
American insulation workers. Ann N Y Acad Sci, Vol. 643, p. 27-52; 
Suzuki, Y., Yuen, S., Ashley, R. & Calderaro, A., 1998. Asbestos fibers 
and human malignant mesothelioma. Advances in the Prevention of 
Occupational Respiratory Diseases, Eds. Chiyotani, K., Hosoda, Y., & 
Aizawa, Y., Elsevier Science B.V., p.709 and Sebastien, P., Janson, X., 
Gaudichet, A., Hirsch, A. & Bignon, J., 1980. Asbestos retention in 
human respiratory tissues: comparative meas urements in lung parenchyma 
and in parietal pleura. IARC Sci Pub, Vol. 30, p. 237-246; Dodson RF, 
Graef R, Shepherd S, O'Sullivan M, Levin J, 2005. Asbestos burden in 
cases of mesothelioma from individuals from various regions of the 
United States. Ultrastruct Pathol. Sep-Oct;29(5):415-33.
    \16\ Malomi, W., Loai, F., Falchi, M., and Donnelli, G., 1990. On 
the mechanism of cell internalization of chrysotile fibers: An 
immunocytochemical and ultrastructural study. Environmental Research, 
Vol. 52, No. 2, pages 164-177.
    \17\ Levresse, Renier, Fleury-Feith, Levy, Moritz, Vivo, Pilatte, 
Jaurand, 1997. Analysis of Cell Cycle Disruptions in Cultures of Rat 
Pleural Mesothelial Cells Exposed to Asbestos Fibers. Am J Respir Cell 
Mol Biol, 17: 660-671.
---------------------------------------------------------------------------
    Additional research should include evaluation of the synergistic 
effects between amphibole and serpentine fiber exposures, since it is 
highly unlikely that uncontaminated serpentine exposures exist in 
occupational and environmental settings. To date such findings have 
suggested such a synergistic action between the mixed fiber types.\18\ 
It has been suggested by some that the fibrous tremolite contamination 
of chrysotile, usually less than 1 percent, is the cause of 
mesothelioma among predominately chrysotile exposed persons.\19\ New 
evaluation of the South Charleston chrysotile exposed population of 
textile workers has confirmed a dose-response relationship between 
asbestosis and lung cancer.\20\ This is important as entities 
suggesting that chrysotile is the ``safe asbestos'' are basing their 
conclusions on only one outcome, that being mesothelioma. While it is 
generally recognized that chrysotile on a dose-by-dose basis is less 
potent than the amphiboles in producing mesothelioma; this does not 
appear the case in its ability for causing other asbestos-induced 
disease. Therefore, future research should continue to look at all 
asbestos-induced diseases when determining recommended regulatory 
actions for the prevention of asbestos-related diseases.
---------------------------------------------------------------------------
    \18\ Nicholson WJ, Landrigan PJ, 1994. The carcinogenicity of 
chrysotile asbestos, In : The Identification and Control of 
Environmental and Occupational Diseases : Asbestos and Cancer. Eds. M 
Mehlman, A Upton: Princeton Scientific Publishing Co., Inc. Vol XXII; 
Acheson ED, Gardner MJ, 1979. Mesothelioma and exposure to mixtures of 
chrysotile and amphibole asbestos.
    \19\ McDonald J.C., McDonald AD, Chrysotile, Tremolite and 
Mesothelioma. Letter published in Science, 10 Feb 1995, Vol. 267:775
    \20\ Hein MJ, Stayner L, Lehman E, Dement JM, 2007. Follow-up study 
of chrysotile textile workers : cohort mortality and exposure-response. 
Occup Environ Med (published online 20 Apr. 2007), 031005.
---------------------------------------------------------------------------
    The current OSHA regulations govern exposure to minerals defined in 
the regulations as asbestos; however, formations that contain tremolite 
asbestos also have tremolite cleavage fragments. Thus, just because the 
cleavage fragments are not covered under the current OSHA regulations, 
as regulated fibers, does not mean that they are biologically inactive. 
The emphasis of the fiber pathogenicity being related to the fact that 
any asbestos structure is a fiber is only one explanation of how it 
causes disease. The fact is that the non-asbestiform cleavage fragment 
is an analog of the fibrous asbestos structure and is chemically made 
of the same composition. The complexity of asbestos induced lung 
disease/injury includes a wide array of issues other than just physical 
features (Kamp and Wiseman, 1999).\21\
---------------------------------------------------------------------------
    \21\ Kamp DW, Weitzman SA, 1999. The molecular basis of asbestos 
induced lung injury. Thorax.54:638-652
---------------------------------------------------------------------------
    Next I will provide some data which may shed more light on the 
arguments for including a broader fiber definition when it comes to 
materials contaminated with asbestos. As former Deputy and Acting 
Director of NIOSH I know the agency has been dealing with the issue of 
talc contaminated with fibrous asbestos for many years. Researchers 
found among miners and millers from two counties in Northern New York 
eight talc miners identified as having mesothelioma and now Hull, 
Abraham and Case (2002) have added five new cases.\22\ Rohl and Langer 
(1974) have stated ``Talc because of its composition, conditions of 
formation and geological occurrence, is frequently contaminated with 
asbestos fibers.''\23\ ``The data, however, support earlier studies 
that indicate that talc miners and millers experience excess 
parenchymal fibrosis and pleural changes. The data also suggest that 
individuals in the paper industry and construction trades may be at 
risk.''\24\
---------------------------------------------------------------------------
    \22\ Hull MJ, Abraham JL, Case BW, 2002. Mesothelioma among workers 
in asbestiform fiber-bearing talc mines in New York State Ann Occ Hyg, 
46, (Supplement 1):132-135
    \23\ Rohl AN, Langer AM, 1974. Identification and quantitation of 
asbestos in talc. Env Health Perspectives, Dec., 9; 95-109.
    \24\ Fitzgerald EF, Stark AD, Vianna N, Hwang S-A, 1991. Exposure 
to asbestiform minerals and radiographic chest abnormalities in a talc 
mining region of upstate New York. Archives of Environmental Health. 
May/Jun, 46 (3); 151-154.
---------------------------------------------------------------------------
    Dement et al., in 1980 found from one mine and mill, reported by 
the company to be producing non-asbestiform talc, air samples of 5 
fibers/cc as time weighted averages (TWA) in six job categories 
containing 48 percent mineral talc, 37-59 percent tremolite, 4.5-15 
percent anthophyllite, and 10-15 percent serpentine, lizardite, 
antigorite. Thus the TWA exposures to asbestiform amphiboles 
(anthophyllite and tremolite) were found to be in excess of the present 
U.S. Occupational Safety and Health (OSHA) and Mine Safety and Health 
Administration (MSHA) occupational exposure standards. They also found 
that in many mine and mill operations more than 90 percent of the total 
airborne fibers were less than 5mm in length. They found asbestiform 
tremolite, anthophyllite and in a couple of samples chrysotile and 
found they were fibers when using Analytical Transmission Electronic 
Microscope (ATEM) as well as PCM and not cleavage fragments.\25\
---------------------------------------------------------------------------
    \25\ Dement J M, Zumwalde RD, Gambel JF, Fellner W, DeMeo MJ, Brown 
DP, Wagoner JK, 1980. Occupational exposure to talc containing 
asbestos-Morbidity, Mortality, and environmental studies of miners and 
millers. NIOSH Technical Report-DHEW (NIOSH) Publication No. 80-115, 
Feb.
---------------------------------------------------------------------------
    I recommend that that all fibrous asbestiform minerals and that all 
other minerals or materials contaminated with fibrous asbestos be 
treated as hazardous and regulated as asbestos.
    Finally when new epidemiology studies are conducted strict criteria 
must be followed to assure the best quality studies possible. These 
criteria should include, but not limited to areas such as:
    (1) Determine actual exposure to the fibrous material and not allow 
dilution of any effect finding by including hose in the cohort not 
exposed to the fibrous material;
    (2) Allow sufficient size of the study population to assure 
sufficient power to detect adverse effects if they exist;
    (3) Conduct sufficient follow-up to assure that at least 95 percent 
of the cohort is traced and vital status known and evaluated;
    (4) Allow sufficient latency to determine if adverse effects do 
develop, this is important since known traditional latency periods may 
be extended due to lower level cumulative exposures experienced today;
    (5) Identify and account for any possible confounders that may 
affect the outcome of the study;
    (6) If case-control analyses are conducted make sure that all 
matched controls are selected so that confounding factors will not skew 
the outcome, including adequate occupational histories to rule out 
other causative agents or past occupational exposures; and
    (7) Dose-reconstruction should not be allowed unless adequate data 
points exist, from actual exposure samples taken at multiple points 
during the entire exposure period, as extrapolation from more recent 
exposures will often reflect control technologies not in place earlier 
in the persons exposure history, thus resulting in an under estimate of 
the individuals true exposure. Dose-reconstruction should never be 
applied from one work situation to another without adequate working 
conditions being explained and/or described by the affected worker or 
from actual witnesses to the workers exposure conditions, including an 
explanation of both environmental or personal control-technologies 
applied in the specific workplace(s).
    I would hope all who have testified here today have disclosed their 
own affiliations and potential conflicts of interest. Since my 
retirement I have testified numerous times for plaintiff's attorneys in 
asbestos litigation, I am also Co-Science Director to the Asbestos 
Disease Awareness Organization (ADAO) which has covered some of my 
expenses to attend this hearing today, and no expenses for my testimony 
or preparation for it have been covered by plaintiff attorneys or any 
other entity other than myself.
    Last, I would encourage members of this committee to support the 
Ban Asbestos Act introduced by Sen. Murray to include a ban on all 
commercial uses and importation of asbestos to or within the United 
States. I look forward to be of assistance should further questions 
arise.
                                 ______
                                 
                               Appendix 1
             Short Asbestos Fibers, Richard A. Lemen, Ph.D.
    EPA reported that millions of asbestos fibers can be released 
during brake and clutch servicing and that such asbestos can linger 
around the garage long after brake jobs are done and can be breathed in 
by everyone inside the garage which can present a hazard for months or 
years. Grinding of used brake block linings has been shown to release 
up to 7 million fibers per cubic meter and beveling new linings up to 
72 million fibers and even light grinding of the new linings up to 4.8 
fibers.\26\ It has also been reported that during this decomposition 
process the majority of fibers that remain are of small diameter as 
well as below 5 micron in length\27\ and thus are less harmful.\28\
---------------------------------------------------------------------------
    \26\ USEPA, 1986. Guidance for Preventing Asbestos Disease Among 
Auto Mechanics. United States Environmental Protection Agency. EPA-560-
OPTS-86-002, June.
    \27\ Rohl, AN, Langer, AM, Wolff, MS & Weisman, I, 1976. Asbestos 
exposure during brake lining maintenance and repair. Environ Research, 
Vol. 12, p. 110; Sheehy, J. W., Cooper, T. C., O'Brien, D. M., 
McGlothlin, J. D., & Froehlich, P. A., 1989. Control of Asbestos 
Exposure During Brake Drum Service. National Institute for Occupational 
Safety and Health, Public Health Service, Centers for Disease Control, 
U. S. Department of Health and Human Services, August; & Yeung, P, 
Patience, K, Apthorpe, L, & Willcocks, D, 1999. An Australian study to 
evaluate worker exposure to chrysotile in the automotice service 
industry. Appl Occup Environ Hyg, Vol. 14, No. 7, July, p. 448.
    \28\ Hatch, D, 1970. Possible alternatives to asbestos as a 
friction material. Ann Occup Hyg, vol. 13, p. 25.
---------------------------------------------------------------------------
    Any assumption that short fibers, less than 5 micron in length, are 
not hazardous cannot be justified based on the available science. 
Because the analytical method of choice, for regulatory purposes, has 
been the phase contrast method [PCM] which counts only fibers greater 
than 5 um in length, epidemiology studies therefore have been forced to 
compare doses of exposure within their cohorts only to fibers greater 
than 5mm in length. It must be noted that the PCM analytical method was 
chosen based on its ability to count fibers only and not on a health 
effect basis.\29\ While PCM has been the international method for 
analysis, it should also be noted that it is not able to detect thin 
diameter fibers [<0.2mm in diameter]. The evidence suggests that PCM 
may underestimate exposures and the health risks as found in the 
analysis of brake residue,\30\ or other such exposures where short 
fibers may be found and because of this, it has been suggested that 
transmission electron microscopy [TEM] should be an adjunct to PCM.
---------------------------------------------------------------------------
    \29\ ``The first decision made concerned that part of the dust 
spectrum which should be counted and it was agreed that only fibers or 
fiber bundles having a minimum length of 5 microns and a maximum of 100 
microns should be counted, the definition of a fiber being arbitrarily 
taken as a particle whose length was at least three times it diameter. 
This decision was taken in the light of evidence to the effect that the 
particle size distribution or spectrum of an asbestos dust cloud was 
reasonably constant over a wide range of textile processes, although 
later work has suggested that this might not be strictly true.'' This 
decision represent the conclusions made for use of the Thermal 
Precipitator Method in collecting asbestos-containing dust and when the 
Membrane Filter Technique came into use, the basis for the method 
referred to as the PCM method, it was determined that the 5 micron in 
length would remain the standard as ``The filter on the other hand, 
having a pore size in the region of 0.45 micron, would appear to be 
quite adequate for trapping fibers in the length range 5-100 microns.'' 
While it was thought the Membrane Filter Technique would be more 
representative in assessing the ``true health hazard to which an 
operative is subjected'' it did not rely upon knowledge that fibers 
less than 5 micron in length had been shown harmless. Holmes S, 1965. 
Developments in dust sampling and counting techniques in the asbestos 
industry. Ann NYA Sciences: 132(1); 288-297.
    \30\ Yeung, P, patience, K, Apthorpe, L, & Willcocks, D, 1999. An 
Australian study to evaluate worker exposure to chrysotile in the 
automotice service industry. Appl Occup Environ Hyg, Vol. 14, No. 7, 
July, p. 448.
---------------------------------------------------------------------------
    Stanton and Wrench (1972)\31\ and Stanton et al. (1981)\32\ found 
that the longer, thinner fibers were more carcinogenic, but they could 
not identify a precise fiber length that did not demonstrate biological 
activity. It must be kept in mind that Dr. Stanton has never said long 
fibers are bad and short fibers are good. In fact, he appreciated that 
a large number of short fibers, individually of low tumorogenic 
probability, might be more hazardous than fewer long fibers, 
individually of high probability.\33\
---------------------------------------------------------------------------
    \31\ Stanton, M.F., and Wrench, C., 1972. Mechanisms of 
mesothelioma induction with asbestos and fibrous glass. J. Natl. Cancer 
Inst., Vol. 48, p. 797.
    \32\ Stanton, M.F., Laynard, M, Tegeris, A, et al. 1981. Relation 
of particle dimension to carcinogenicity in amphibole asbestoses and 
other fibrous minerals. JNCI, Vol. 67, No. 5, November, p. 965.
    \33\ Greenberg, M, 1984. S Fibers. Am J Indust Med, Vol. 5, p. 421-
422 & Personal correspondence from Dr. Morris Greenberg, 23 May 2003.
---------------------------------------------------------------------------
    Studies have also found that the majority of asbestos fibers in 
lung and mesothelial tissues were shorter than 5mm in length, thus 
indicating the ability of the shorter fibers to reach the tumor site, 
remain there, and therefore their role in the etiology of disease is 
implicated.\34\ Research has found in typical occupational environments 
fibers shorter than 5mm in length outnumber the longer fibers by a 
factor of 10 or more.\35\
---------------------------------------------------------------------------
    \34\ Suzuki, Y. & Yuen, SR., 2002. Asbestos fibers contributing to 
the induction of human malignant mesothelioma. Ann NY Acad Sci, Vol. 
982. pp. 160-176 & Dodson, RF, O'Sullivan, MF, Brooks, DR & Bruce, JR, 
2001. Asbestos content of omentum and mesentery in nonoccupationally 
exposed individuals. Tox Indust Health, Vol. 17, p. 138.
    \35\ Dement, JM & Wallingford, KM, 1990. Comparison of phase 
contrast and electron microscopic methods for evaluation of 
occupational asbestos exposures. Applied Occ Env Hyg, Vol. 5, p. 242.
---------------------------------------------------------------------------
    Shorter fibers must be studied in more depth and they should not be 
disregarded especially when clearance is retarded.\36\ That chrysotile 
fibers tend to spit longitudinally as well as partially dissolve, 
resulting in shorter fibers within the lung, was reported in a review 
of several articles.\37\
---------------------------------------------------------------------------
    \36\ Oberdorster, G, 2001. Fiber characteristics, environmental and 
host factors as determinants of asbestos toxicity. 2001 Asbestos Health 
Effects Conference, May 24-25, Oakland, CA, U. S. Environmental 
Protection Agency.
    \37\ Dement, JM & Brown, DP, 1993. Cohort mortality and case-
control studies of white male chrysotile asbestos textile workers. J 
Occup Med Toxic, Vol. 2, No. 4, p. 355.
---------------------------------------------------------------------------
    Davis et al., 1986, 1988 and the Berman et al., 1995 reanalysis of 
the Davis data and the McDonald et al., 1989 papers examine both the 
toxicity or lack thereof for short fibers.\38\ The Davis papers show 
that: (1) long fibers produced 6 times more fibrosis and 3 times more 
tumors than the short fiber preparations after inhalation; (2) 
injection studies, at the highest dose levels 25 mg, found little 
difference in the numbers of tumors produced by both long and short-
fibre chrysotile, while at lower levels there was a significant 
difference between the long and short-fibre preparations with the 
longer fibers being more carcinogenic; (3) the mean tumor induction 
period was longer for the short-fibre preparation in producing 
mesotheliomas at both the 25mg and 2.5mg dose level and the authors 
conclude ``. . .would probably have been seen with the 0.25mg dose if 
the short-fibre chrysotile had produced any mesotheliomas at this 
level.''; and (4) the authors state that the alteration of the short-
fibre chrysotile produced by ball-milling is subject to a level of 
crystal damage which is sufficient to make results difficult to 
interpret in relation to hazards resulting from short fibres produced 
during the manufacture of asbestos products or during the subsequent 
usage of these materials. Berman et al., 1995, using a risk analysis 
model of their choice choose to eliminate all fibres less than 5 mm in 
length as ``Structures <5 mm in length do not appear to make any 
contribution to lung tumor risk.'' Such an assumption is unwarranted 
given the conclusions of the Davis et al. papers along with the other 
data, discussed in this affidavit, showing toxicity for the short 
asbestos-fibers.
---------------------------------------------------------------------------
    \38\ Davis JM, Addison J, Bolton RE, et al. 1986. The pathogenicity 
of long versus short fibre samples of amosite asbestos administered to 
rats by inhalation and intraperitoneal injection. Br J Exp Pathol 67: 
415-430; Davis JM, Jones AD. 1988. Comparisons of the pathogenicity of 
long and short fibres of chrysotile asbestos in rats. Br J Exp Pathol 
69: 717-737; Berman DW, Crump KS, Chatfield EJ et al. 1986. The sizes, 
shapes, and mineralogy of asbestos structures that induce lung tumors 
or mesothelioma in AF/HAN rats following inhalation. Risk Analysis 15: 
181-195; & McDonald JC, Armstrong B, Case B et al. 1989. Mesothelioma 
and asbestos fiber type: Evidence from lung tissue analyses. Cancer 63: 
1544-1547.
---------------------------------------------------------------------------
    McDonald et al., 1989 examined 78 cases of mesothelioma from 
autopsy between 1980 through 1984 with matched referents to evaluate 
the lung burden of long vs. short fibers, concluded that the role of 
short-fibers was nil. Looking only at lung burden analysis for 
chrysotile short-fibers is not the only way nor is it the most 
appropriate analysis to determine the role of either chrysotile or 
short-fibers, as they are cleared from the lung rapidly compared to 
longer non-chrysotile fibers. This same criticism is applicable to the 
Butnor et al.,\39\ analysis of 10 cases of mesothelioma among brake 
exposed workers where analysis was only made of lung tissue.
---------------------------------------------------------------------------
    \39\ Butnor KJ, Sporn TA, Roggli VL. 2003. Exposure to brake dust 
and malignant mesothelioma: A study of 10 cases with mineral fiber 
analyses. Ann Occup Hyg 47: 325-330.
---------------------------------------------------------------------------
    Butnor et al. also dismiss the `hit-and-run' hypothesis for 
chrysotile as `flimsy' and having no solid scientific support and cite 
Hesterberg et al., 1994, 1995, 1996 studies,\40\ of man-made vitreous 
fibers, as their proof for this contention. While there is clear proof 
of the biopersistence for amphibole asbestos, the lack of such 
biopersistence of other fibers, as shown in the Hesterberg et al 
papers, provide support to the contrary, and are an indication that 
pathogenicity of a fiber is dependent upon more than simply the dose, 
dimension, and the durability of the fibers found with in the lung. It 
is also important to note that chrysotile asbestos produced fibrosis, 
lung tumors and mesothelioma in rats after inhalation studies as shown 
in the Research and Consulting Company (RCC) studies cited in the 
Hesterberg et al., 1995 paper.
---------------------------------------------------------------------------
    \40\ Hesterberg TW, Miiller WC, Mast R, McConnell EE, Bernstein DM 
& Anderson R. 1994. Relationship between lung biopersistence and 
biological effects of man-made vitreous fibers after chronic inhalation 
in rats. Env Health Perspect 102(S); 133-137; Hesterberg TW, Miiller 
WC, Thevenaaz P, & Anderson R. 1995. Chronci inhalation studies of man-
made vitreous fibres: Characterization of fibres in the exposure 
aerosol and lungs. Ann Occup Hyg 39 (5): 637-653 percentHesterberg TW, 
Miiller WC, Musselman RP, Kamstrup RD, Hamilton RD & Thevenaz P. 1996. 
Biopersistence of man-made vitreous fibers and crocidolite asbestos in 
the rat lung following inhalation. Fund Appl Toxico 29: 267-279.
---------------------------------------------------------------------------
                                 ______
                                 
                               Appendix 2
           Mesothelioma Surveillance, Richard A. Lemen, Ph.D.
    Two recent papers have concluded the beginning of a decrease in 
mesothelioma rates in the United States.\41\ Their data analyses bring 
to the fore additional questions about the reliability of surveillance 
data for mesothelioma based solely on death certificate analysis or 
mortality data without pathological confirmation of mesothelioma. SEER 
data, for example, prior to the implementation of the new ICD 10 codes, 
are inaccurate and underestimate the true incidence of mesothelioma in 
the U.S.\42\
---------------------------------------------------------------------------
    \41\ Price B & Ware A, 2004. Mesothelioma trends in the United 
States: An update based on surveillance, epidemiology, and end results 
program data for 1973 through 2003 &
    \42\ Pinheiro GA, Antao VCS, Bang KM & Attfield MD, 2004. Malignant 
mesothelioma surveillance: A comparison of ICD 10 mortalaity data with 
SEER incidence data in nine areas of the United States. Int J Occup 
Environ Health: 10; 251-255.
---------------------------------------------------------------------------
    The new ICD-10 codes for mesothelioma are C45.0 for pleural and 
C45.1 for peritoneal.\43\ Before the new ICD-10 codes went into effect 
in 1999 the reporting based on incidence data was likely underreported 
and thus analysis using such data is likely to have underreported the 
incidence of mesothelioma. In some cases, SEER data reported only 12 
percent of the mesothelioma cases were accurately reported and even 
with the new ICD 10 codes it is estimated that only about 80 percent 
will be detected through SEER data, indicating that mesothelioma 
reporting will still be problematic but much less so than in the 
past.\44\ The new ICD 10 codes have only been in existence for the past 
8 years and any trends based on this data are unwarranted at this time 
and it will be many years until a more accurate picture can be seen as 
to mesothelioma trends within the U.S. It is important that NIOSH 
address this underreporting gap.
---------------------------------------------------------------------------
    \43\ World Health Organization, 1992. ICD-10 International 
Statistical Classification of Diseases and Related Health Problems 
Tenth Revision: 1; 201.
    \44\ Pinheiro GA, Antao VCS, Bang KM & Attfield MD, 2004. Malignant 
mesothelioma surveillance: A comparison of ICD 10 mortalaity data with 
SEER incidence data in nine areas of the United States. Int J Occup 
Environ Health: 10; 251-255.
---------------------------------------------------------------------------
    Since it has been generally reported that the incidence of 
mesothelioma in women is much less associated with asbestos exposure, 
Steenland et al.\45\ suggest that if take-home asbestos exposure were 
considered the attributable risks may rise to around 90 percent. Price 
and Ware (2004) unjustly suggest that because the female lifetime 
mesothelioma risk across birth cohorts has remained constant this 
supports a threshold exposure for mesothelioma, which is yet to be 
shown and no epidemiological study to date has been able to demonstrate 
such a threshold. Trends in mesothelioma are on the rise in many 
countries and a large multicentric study on malignant pleural 
mesothelioma and non-occupational exposures to asbestos projects that 
low-doses from the home and general environment may carry a measurable 
risk of mesothelioma over the next few decades.\46\ The findings of 
this multicentric study have direct implications to the risk of 
mesothelioma from exposures to asbestos among end-product user of 
asbestos-containing products, e.g. brake mechanics, as their exposures 
have generally been of a lower magnitude that those encountered by the 
various highly exposed and predominately studied trades including 
insulators, construction workers, shipyard workers, pipefitters to name 
a few.
---------------------------------------------------------------------------
    \45\ Steenland K, Burnett C, Lalich N, Ward E & Hurrell J, 2003. 
Dying for work: The magnitude of U.S. mortality from selected causes of 
death associated with occupation. 43; 461-482.
    \46\ Magnani C, Agudo A, Gonzalez CA et al., 2000. Multicentric 
study on malignant pleural mesothelioma and non-occupational exposure 
to asbestos. Br J Cancer: 83(1); 104-111.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Boxer. Thank you, and we will have some questions.
    Ms. Linda Reinstein. We welcome you and we are so sorry for 
your loss.

    STATEMENT OF LINDA REINSTEIN, EXECUTIVE DIRECTOR AND CO-
        FOUNDER, ASBESTOS DISEASE AWARENESS ORGANIZATION

    Ms. Reinstein. Thank you, Madam Chairman Boxer and Ranking 
Member Inhofe and the entire EPW Committee for the honor and 
opportunity to testify today.
    My name is Linda Reinstein. I am the executive director of 
the Asbestos Disease Awareness Organization, ADAO, and now a 
mesothelioma widow. My husband, Alan Reinstein, lost his 3-year 
battle with mesothelioma, a deadly asbestos cancer, in May 
2006. I am neither a lobbyist nor an attorney, just a 
volunteer.
    Today, I somberly represent the victims and their families 
who have suffered the traumatic effects of asbestos diseases. 
For many of us, this is an especially difficult week, as 
Fathers Day is on Sunday.
    Hundreds of thousands of asbestos victims around the world 
pay the ultimate price for asbestos exposure: their lives. 
These diseases are all preventable. Before I share the faces, 
it is important to understand the facts. We cannot alter 
history or bring back the dead, but we can learn from the past 
to save lives and money.
    Most Americans trust that their air, soil and water are 
safe from toxic contaminants. But as victims, we know the 
truth. For a century, asbestos exposure has been linked to 
incurable diseases. Yet we continue to face an enormous man-
made public health crisis. Just walk the streets of Libby or 
New York City, or talk to the U.S. Capitol tunnel workers, here 
today. They all know too well about the irreversible effects of 
asbestos poisoning.
    The stress and trauma is life-altering for those Americans 
with known exposure, waiting for time to reveal their medical 
fate. The IARC declared asbestos as a human carcinogen nearly 
30 years ago. The EPA, WHO, IRO agree. There is no safe level 
of asbestos exposure. The simple truth: asbestos kills.
    The penny slide on the easel compares the nearly invisible 
deadly fibers just under President Lincoln's nose to grains of 
rice and human hair. These virtually indestructible fibers are 
700 times smaller than human hair and can remain suspended in 
the air from seconds to days. Asbestos is an equal opportunity 
killer. Its dust doesn't discriminate. Inhaling or swallowing 
the fiber can cause malignant or non-malignant diseases.
    Asbestos diseases are difficult to diagnose and treat. The 
evolution from exposure to death can take 10 to 50 years. 
Children are even more susceptible to carcinogens. It is 
important to focus on all asbestos-caused diseases, not just 
mesothelioma. The Samia 7-year study on the board shows 65 
percent of the victims suffered from asbestos-caused cancers 
and the remaining 35 percent from asbestosis. Lung cancer and 
mesothelioma accounted for 25 and 11 percent, respectively, of 
all asbestos diseases.
    Although asbestos safety measures have been in place since 
the 1970s, exposure continues. The CDC reports an increase in 
asbestosis deaths from 1968 to 2000. These and other related 
diseases are not going away, only the victims who die.
    Victims suffering from pulmonary diseases and cancer feel 
like they are breathing through a pinched straw every breath, 
every minute, every day. When victims' oxygen levels become 
critically low, they are tethered to supplemental oxygen to 
prolong life, like my husband. Lack of oxygen can cause death 
by respiratory failure or cardiac arrest.
    To prolong a victim's life, many cancer patients opt for 
radical treatments, such as having their entire diseased lung 
and diaphragm surgically removed. We call this death by a 
thousand cuts. Victims living with these painful, aggressive 
and hopelessly incurable diseases sometimes commit suicide or 
ask their spouses to commit mercy killings.
    Mesothelioma patients' medical expenses can exceed a 
million dollars before death. The physical and financial 
devastation is immeasurable to victims and their families. Each 
time a patient dies, a shattered family is left behind. The new 
patient profile is now a 51-year-old woman. Younger victims are 
dying. There is a 16-year-old girl newly diagnosed in New York. 
Federal surveillance in the United States under-report.
    So what is a human life worth? Certainly banning asbestos 
and investing in safe alternatives. Without an asbestos ban, 
death and litigation will continue. To profit over people is 
unconscionable. It is time to eliminate asbestos exposure and 
invest in research to improve treatment.
    We applaud Senator Patty Murray for the Ban Asbestos Act. 
An immediate worldwide ban on the production and use of 
asbestos is long overdue, fully justified and absolutely 
necessary.
    Support for my testimony comes from some of the most well-
respected members of the science community and an outpouring 
from victims around the world. I have included a list of these 
endorsements in my written testimony. Thank you.
    [The prepared statement of Ms. Reinstein follows:]
   Statement of Linda Reinstein, Executive Director, Co-founder and 
                           Mesothelioma Widow
    I would like to thank Chairman Boxer, Ranking Member Inhofe and the 
entire EPW Committee for the honor and opportunity to testify today.
    My name is Linda Reinstein, Executive Director of the Asbestos 
Disease Awareness Organization (ADAO) and now a mesothelioma widow. My 
husband, Alan Reinstein, lost his three year battle with mesothelioma, 
a deadly asbestos cancer, on May 2006. I am neither a lobbyist nor an 
attorney, only a volunteer.
    Today I somberly represent the victims and their families who have 
suffered the traumatic effects of asbestos diseases. Hundreds of 
thousands of asbestos victims around the world paid the ultimate price 
for asbestos exposure: their lives. These diseases were preventable.
    Before I share the faces, it is important to understand the facts. 
We can not alter history or bring back the dead, but we can learn from 
the past to save lives and money.
    Most Americans trust that their air, soil and water are safe from 
toxic contaminants--but as victims, we know the truth. For a century, 
asbestos exposure had been linked to incurable diseases, yet we 
continue to face an enormous man-made public health crisis. Just walk 
the streets of Libby or New York City or talk to the U.S. Capitol 
Tunnel Workers--they also know all too well about the irreversible 
effects of asbestos poisoning. The stress and trauma is life altering 
for those Americans with known asbestos exposure waiting for time to 
reveal their medical fate. The International Agency for Research on 
Cancer (IARC) declared asbestos as a human carcinogen thirty years ago. 
The Environmental Protection Agency, (EPA) World Health Organization 
(WHO) and the International Labor Organization (ILO) agree--there is no 
safe level of asbestos exposure. The simple truth is--asbestos kills.
    The Penny slide compares the nearly invisible deadly fibers just 
under President Lincoln's nose to grains of rice and human hair. Once 
known as the ``The Magic Mineral'', these virtually indestructible 
asbestos fibers can be 700 times smaller than human hair and remain 
suspended in air from seconds to days.
    Although asbestos safety measures have been in place since the 
1970s, The Center for Disease Control (CDC) reported that deaths from 
asbestosis, a debilitating lung disease, increased from 77 deaths in 
1968 to 1,493 deaths in 2000. These and other asbestos-related diseases 
are not going away, only the victims who die.
    The World Health Organization estimates 125 million workers are 
exposed to asbestos and 90,000 workers die annually. There is no global 
data estimating deaths from non-occupational or environmental exposure.
    Asbestos is an equal opportunity killer and the dust does not 
discriminate. Inhaling or swallowing asbestos fibers can cause 
malignant and nonmalignant diseases.
    Asbestos diseases are difficult to diagnose and treat. Evolution of 
disease, from exposure, screening, surveillance, detection, treatment 
and death can take 10-50 years. Children are even more susceptible to 
carcinogens and have a shorter latency period.
    It is important to focus on all asbestos-caused diseases, not just 
mesothelioma. The Sarnia seven year study sited: 65 percent of the 
victims suffered from asbestos-caused cancers and the remaining 35 
percent suffered from asbestosis. Lung cancer and mesothelioma 
accounted for 25 percent and 11 percent respectively of asbestos 
diseases.
    Asbestosis is the scarring of lung tissue resulting only from the 
inhalation of asbestos fibers which reduces oxygen transfer to the 
blood as well as the removal of carbon dioxide. Asbestosis is a 
painful, progressive and incurable lung disease with no effective 
treatment.
    Victims suffering from pulmonary diseases and cancer feel like they 
are breathing through a pinched straw, for every breath, every minute, 
every day. When the victims' oxygen levels become critically low, they 
are tethered to supplemental oxygen to prolong life. Lack of oxygen 
causes death by respiratory failure and/or cardiac arrest.
    To prolong a victim's life, many cancer patients opt for radical 
treatments such as having their entire diseased lung and diaphragm 
surgically removed. We call this, death by 1,000 cuts. Victims living 
with these painful, aggressive and hopelessly incurable diseases 
sometimes commit suicide or ask spouses to commit mercy killings.
    Mesothelioma patients' medical expenses can exceed $1 million--
until death.
                       medical expenses include:
    <bullet> Tri-modal Cancer Treatment, Surgery, Radiation 
Chemotherapy
    <bullet> Medication & Oxygen
    <bullet> Home Health/Hospice
    <bullet> Psychiatry
    <bullet> Interstate Travel to Medical Surgery Centers
    The physical, financial and physiological devastation are 
immeasurable to the victims and their families. After the patient dies, 
financial and psychological problems continue to plague the family. For 
each life lost, a shattered family is left behind.

    Psychological issues are tormenting--as victims hold hands with 
death.

        <bullet>  Constantly facing death is debilitating for both the 
        patient and family.
        <bullet>  Constantly facing death is debilitating for both the 
        patient and family.
        <bullet>   Caregivers face both mental and physical 
        exhaustion--Alan needed 24-hour care for 12 months.
        <bullet>  Depression is a common factor.

    Physical pain and treatments are brutal; the prognosis is grim

        <bullet>   Screening, surveillance, and detection are 
        exhausting and remain a constant reminder of exposure and 
        possible terminal diseases.
        <bullet>  Late stage diagnosis is common, as many victims are 
        asymptomatic.
        <bullet>  Victim has baffling and radical treatment options to 
        navigate.
        <bullet>   Dangerous surgeries and toxic medicine--if the 
        diseases don't end your life, the treatments may.

    Financial issues devour assets and threaten financial stability

        <bullet>  Expensive medical treatments. One month of Alan's 
        prescriptions, oxygen and chemotherapy averaged $104,000.
        <bullet>  Lost jobs or reduced income results when victims are 
        too ill to work.
        <bullet>  Health benefits are also terminated as a result of 
        losing a job.

    Constant fear and extreme isolation magnifies these three factors.
    In 1990, the average patient was a male, age 70. Our data shows the 
new patient profile to be a 51 year old woman. Younger victims are 
dying from diseases. Recently, a 16 year-old girl was diagnosed with 
mesothelioma. Patients diagnosed with asbestos-caused diseases are 
completely innocent. They are firefighters and veterans, construction 
workers and engineers. They are the women who became exposed washing 
their husbands' work clothes. They are children whose loving hug turned 
deadly.
    Surveillance in the U.S. continues to under report asbestos-related 
disease. Without disease registries, effective outreach and well 
implemented surveillance programs; we can not accurately forecast the 
magnitude of disease.
                  deadly contamination continues today
    Asbestos was widely used in the construction and attic insulation 
in millions of homes in the U.S. and Canada built before 1975. More 
than 30 million homes, schools and office building are still 
contaminated with deadly asbestos.
    In 2002, the collapse of the World Trade Center towers led to the 
release of hundreds of tons of asbestos from the towers. An estimated 
20,000 responders, workers, volunteers and residents suffer from 
respiratory diseases. The annual direct treatment costs are $140 
million dollars. We can only extrapolate the cost of human tragedy and 
treatment expenses from the Hurricane Katrina disaster one of whose 
consequences is poorly controlled asbestos exposure in the buildings 
being repaired and demolished. The World Health Organization has 
started an asbestos action program to help countries all over the world 
develop national plans, based on the conclusion that ``the most 
efficient way to eliminate asbestos-related diseases is to stop using 
all types of asbestos.''
    Asbestos continues to be mined and exported from Canada. The United 
States and Canada remain the only two industrialized nations that have 
not yet banned the use of asbestos in common products while more than 
40 countries have banned asbestos. Consumers are at risk with imported 
products contaminated with asbestos such as brakes and asbestos-cement 
building panels. The asbestos ban will only be as effective as the laws 
that are enforced. Presently, minimal fines and lack of enforcement 
make our existing laws weak and deadly asbestos exposure continues.
    What is a human life worth? Certainly banning asbestos and 
investing in safe alternatives. Without an asbestos ban, deaths and 
litigation will continue. To profit over people is unconscionable. It 
is time to eliminate asbestos exposure, while simultaneously investing 
in research for a cure and improved treatments. An immediate worldwide 
ban on the production and use of asbestos is long overdue, fully 
justified and absolutely necessary. We applaud Senator Patty Murray for 
the Ban Asbestos in America Act, and hope that this is only the start 
of a ban across the globe.
    Support for this critical issue comes from some of the most well 
respected members of the scientific and medical community from around 
the world. I have included a list of these endorsers in my written 
testimony.
    Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
        Response from Linda Reinstein to an additional question 
                           from Senator Boxer
    Question. You have a number of health professional and other people 
who have signed on in support of your statement. Can you please 
describe how widespread this support is?
    Response. [The names in support of the statement follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Senator Boxer. Thank you for your powerful testimony.
    Senator Inhofe has asked to be recognized first, since he 
needs to go to a very important meeting. So Senator, the floor 
is yours.
    Senator Inhofe. I appreciate it, Senator Boxer. I will just 
take a couple of minutes, I won't take the whole time.
    I have a few problems with this. It is always difficult 
when you have a panel of scientists and you are expected to 
make determinations by listening to two opposing views. One 
thing that I noticed, Dr. Lemen, in your written testimony, you 
talk about, you do testify occasionally in asbestos-related 
litigation on behalf of the plaintiffs.
    One of the problems I have is that when you get into 
something like this, like we have gone through with asbestos, 
there are big winners, and the big winners are the trial 
lawyers. In asbestos claims, so far it has now exceeded $70 
billion claims, and there is a remaining liability of somewhere 
between $145 billion and $200 billion. More than 70 
bankruptcies have taken place, and most of the current 
defenders are users and not manufacturers of asbestos. That was 
a Rand report.
    So 60 cents out of every dollar goes to the lawyers. This 
bothers me.
    Second, and let me start with you, Dr. Wylie, if we were to 
count these non-asbestiform minerals as asbestos in the 
regulatory definition, change your definition, include them 
all, what would that mean in terms of the land area of the 
world? Put up that one chart that shows the United States. This 
would be, as I understand it, just the United States part, but 
go ahead. Do you have a percentage that you could use?
    Ms. Wylie. What is shown there in green roughly outlines 
the areas in the United States where amphiboles are naturally 
occurring. And amphiboles make up about 5 percent of the 
earth's crust overall. So these are extraordinarily common 
rock-forming minerals. These minerals, when crushed, do form 
elongated particles.
    Senator Inhofe. I see. In his testimony, Dr. Lemen stated, 
I am going to read this and then I am going to ask both of you 
to respond to it, ``Any definition of asbestos should include 
all respiratory asbestiform fibrous materials, including 
fibrous cleavage fragments that are respirable.'' Now, I will 
start with you, Dr. Wylie, to respond to that just real 
briefly. Because I want to get it in the record in terms of his 
exact quote.
    Ms. Wylie. I believe that that quote suggests that cleavage 
fragments are asbestiform fibers, that that is not true.
    Senator Inhofe. OK. Dr. Weill, would you respond to the 
same quote there?
    Dr. Weill. Yes, I also agree that cleavage fragments have 
not been shown to be pathogenic to humans.
    Senator Inhofe. As the only practicing lung physician here 
today, could you briefly discuss the differences in how 
asbestiform minerals and non-asbestiform minerals and cleavage 
fragments affect the human body?
    Dr. Weill. Yes, I think the large majority of cleavage 
fragments aren't even respirable, because of their width. They 
are not able to make it into the distant parts of the lung, 
where they do most of their damage. The physical properties of 
these fragments are different from asbestos fibers. There have 
been animal studies that have shown that they are not 
pathogenic whereas asbestos fibers clearly are in animal 
studies.
    Also, there have been several studies, human epidemiologic 
studies, of thousands of workers exposed to these fragments 
demonstrating no disease.
    Senator Inhofe. I think that is extremely significant. What 
I would like to ask you to do for the record is to elaborate on 
that, showing the studies by name, where they were conducted, 
who was involved, so that we will have that in the record, not 
today but for the written record, if you would be good enough 
to do that.
    Dr. Wylie, you made a statement concerning the mining, that 
it has not been such a case found after a period of time, those 
who work in the minds. I think that was refuted by Dr. Lemen. 
Would you like to have a chance to refute the refute?
    Ms. Wylie. I am not a medical scientist. But as I read the 
studies, I find no excess of asbestos-related diseases. There 
are in some of these studies some excesses in lung cancer. But 
there are other compounding variables, such as the smoking 
history of the workers, radon daughters that can reasonably 
account for these excesses in lung cancer.
    I know of no cases of mesothelioma associated with exposure 
to cleavage fragments.
    Senator Inhofe. Thank you very much. Thank you, Madam 
Chairman.
    Senator Boxer. Yes, Senator, thank you very much.
    I am going to ask Dr. Lemen and any others, Dr. Castleman, 
to respond to this. I just want to say for the record that 
Senator Isakson and Senator Murray are working on some of these 
definitions, too. But if you would like to respond, Dr. Lemen, 
to the other two who challenged your point.
    Mr. Lemen. I agree with Dr. Weill, yes, with Dr. Weill, 
that some of the cleavage fragments will not get into the lung. 
It is not those that we are concerned about. What we are 
concerned about are the respirable ones.
    Senator Boxer. Right.
    Mr. Lemen. And the respirable ones can get into the lung. 
They do have the same mineralogical characteristics as 
asbestos. We are concerned about what gets into the lung that 
can cause disease.
    As far as the gold mine that was talked about, as I said in 
my brief comments, when you look at the latency, you do find, 
in two different studies, both the study that NIOSH conducted 
and the study that the McDonalds conducted, that after a long 
latency in the higher exposed groups, you do see an excess of 
respiratory cancer as well as respiratory disease.
    So finally, the animal studies that have been conducted are 
basically negative. However, there are some cellular studies 
that have shown cellular reaction with these types of small, 
short cleavage-type fibers.
    Senator Boxer. You are saying that if those fibers get 
loose, that is a problem?
    Mr. Lemen. That is right.
    Senator Boxer. So I don't know that there is any 
disagreement whatsoever here. I think that is a phony kind of 
distinction without a difference. If they break off, and they 
are inhalable, I am sure both Dr. Weill and Dr. Wylie would 
agree, if they are inhaled, they are a danger, is that correct?
    Dr. Weill. Inhaled and reach the distant parts of the lung?
    Senator Boxer. Yes.
    Dr. Weill. No, they are----
    Senator Boxer. They are not a danger?
    Dr. Weill. No, the chemical properties may be similar 
between asbestos fibers and cleavage fragments. But their 
physical morphology is different and the body can handle them 
differently----
    Senator Boxer. This is important, because NIOSH disagrees 
with you, sir.
    Dr. Weill. I understand that.
    Senator Boxer. NIOSH believes that durable inhalable fibers 
with characteristics similar to asbestos should be considered 
potentially harmful. Exposure to these fibers should be avoided 
if possible or otherwise minimized through standard industrial 
hygiene practices.
    I am going to move on. I wanted to ask the Capitol workers 
here, who we know are exposed to asbestos, if they would stand 
up, just to be recognized by the audience, if they would stand 
up. The reason I want to ask you to stand is because I want you 
to know that all of us are very determined to make sure that 
your problem, (a) has been stopped, in other words, there is no 
more exposure; and (b) if there was exposure, which you I think 
were informed there was, we are going to stand with you on 
this. I just want to thank you very much for coming.
    I want to get to a couple of other things, and you can 
start my clock now at 5 minutes and I will just come back to 
it.
    Dr. Weill, describe the health effects of asbestos. Have 
you ever treated or personally evaluated a patient who had 
asbestos-related disease?
    Dr. Weill. Yes. The health effects of asbestos, as I 
mentioned in my testimony, can include both malignant and non-
malignant diseases. I have----
    Senator Boxer. How many patients have you personally 
evaluated and treated?
    Dr. Weill. Somewhere in the neighborhood of 50 to 100, I 
would say, with true asbestos-related disease.
    Senator Boxer. OK. Did you co-author a commentary on the 
American Thoracic Society's statement on the diagnosis and 
initial management of non-malignant disease related to 
asbestos?
    Dr. Weill. Yes, I did.
    Senator Boxer. Did the Society point out that your 
commentary cited a 1993 study by William Weiss to make a point 
which the study specifically stated is not the question 
considered in this review?
    Dr. Weill. I am not certain I understand your question.
    Senator Boxer. OK, well, this is--are you aware that the 
Society pointed out in response to your story that your 
commentary cited in a 1993 study by William Weiss, which the 
study specifically stated is not the question considered in 
this review, did you hear from the Society on this point?
    Dr. Weill. Yes, I did.
    Senator Boxer. Thank you.
    Have you worked for businesses that make money selling 
products that may have caused lung disease?
    Dr. Weill. I have been retained by lawyers who represent 
these companies.
    Senator Boxer. Well, thank you for your honesty in 
answering this question, because I believe it is important that 
this information be so stated in the record.
    Now, Dr. Wylie, are you a doctor, are you a geologist or do 
you treat patients?
    Ms. Wylie. I am a geologist.
    Senator Boxer. OK. Then do you agree with the statement by 
the U.S. Geological Survey, ``It is absolutely not the role of 
the analytical or mineralogical communities to make health-
based decisions or to make independent analytical assessments 
that directly or indirectly influence health-based outcomes''? 
Do you agree with that statement?
    Ms. Wylie. I am not sure that I do. I think that is the 
role of mineralogists to make clear the nature of the materials 
to which pele are exposed. And in that regard, it is an 
independent analytical assessment that might indirectly 
influence the outcomes of some studies. But it is only our job 
to tell about the materials, what they are like----
    Senator Boxer. Well, that is not what you did. I find 
aspects of your testimony troubling, including your statement, 
not only is the width of asbestos a defining characteristic, it 
is the key to its carcinogenicity. That you are stepping into 
another field that your own profession says you should avoid.
    So I am rather shocked by your statement. I have another 
question. Have you worked for business that makes money selling 
products that may have caused disease associated with asbestos?
    Ms. Wylie. No.
    Senator Boxer. Well, I have a number of receipts that show 
you have worked as a paid defense witness for business in 
asbestos litigation. I ask unanimous consent that these 
documents be placed into the record.
    [The referenced documents are retained in the committee's 
file.]
    Senator Boxer. Why didn't you answer my question honestly?
    Ms. Wylie. I did. I have never worked for an asbestos 
manufacturer.
    Senator Boxer. I didn't say that.
    Ms. Wylie. Or an asbestos fabricator.
    Senator Boxer. I didn't ask you that. I said, have you 
worked as a paid defense witness for a business in asbestos 
litigation?
    Ms. Wylie. I have testified on about three occasions for, 
on the nature of materials involved----
    Senator Boxer. Who paid you?
    Ms. Wylie. R.T. Vanderbilt, three times or thereabouts.
    Senator Boxer. So your original answer was incorrect?
    Ms. Wylie. I misunderstood----
    Senator Boxer. Well, let me be clear. I think it is very 
important that we be totally honest before this committee.
    Ms. Wylie. I agree.
    Senator Boxer. Senator Lautenberg.
    Senator Lautenberg. I am a little bit astonished to say the 
least at what we hear from two of our witnesses, Dr. Weill and 
Dr. Wylie, in terms of the contradictory nature of your views 
and those for instance, Dr. Lemen's presentation. The 1998 WHO 
statement, consistent with their early conclusions, 1989, human 
evidence has not demonstrated there is any threshold exposure 
level for lung cancer or mesothelioma below which exposure to 
asbestos dust would not be free of hazard to health. Do you 
disagree with that conclusion, Dr. Weill?
    Dr. Weill. I think I would just state it differently. I 
think it is very difficult scientifically to render something 
``safe.'' I think all we can do is estimate the risk as best we 
can and try to determine, and this is more of a public policy 
question, how much risk is tolerable. I think it is very 
difficult to say something is safe, whether it be air travel, 
water, asbestos fibers----
    Senator Lautenberg. Those comparisons are not valid, air 
travel, that--you are not risking exposure when you get in an 
airplane that is commonly thought to be a dangerous exercise.
    Dr. Weill. No, but I think my point really was, and maybe 
it wasn't a perfect analogy, was that all science can do really 
is estimate risk. It can't render something safe or unsafe. 
Because the circumstances that somebody is exposed to something 
differs, what they are exposed to differs. I think that is why 
we have to really rely on the scientific evidence to assign 
risk to these different exposures.
    Senator Lautenberg. Is mesothelioma directly connected with 
asbestos exposure or are there other exposures?
    Dr. Weill. There are other causes of mesothelioma that are 
very uncommon.
    Senator Lautenberg. Dr. Lemen, is mesothelioma typically a 
result of exposure to asbestos, the larger share, let's say, of 
cases that we see?
    Mr. Lemen. Yes. And there are some other causes, they are 
very small, related to asbestos. But in man, about 80 percent 
of the mesotheliomas have been related to exposure to asbestos. 
That is somewhat less in women, because we just don't have good 
surveillance data on women. But when I was at NIOSH, we put out 
a paper and we titled mesothelioma as a signal tumor. That is, 
once you see the disease, look closely to see if there is any 
asbestos exposure. Because in almost all cases, there is some 
exposure to asbestos.
    Senator Lautenberg. So Dr. Weill, I get the suggestion from 
you that we are just alarmists with our concerns about this, 
and that it is not, the threats are not really what we think we 
are talking about here?
    Dr. Weill. No, Senator, I am sorry if I left that 
impression. I don't think you are alarmist at all. I think, 
though, what is important, particularly as it relates to 
asbestos, given the long history of looking at this disease, 
both scientifically and in the public policy arena, is that we 
rely on the science. We keep coming back to risk assessment and 
not just tend to lump everything together without regard to the 
scientific evidence that is available.
    Senator Lautenberg. I ask each of you again, Dr. Wylie and 
Dr. Weill, and the Chairwoman asked you about whether or not 
you have testified on behalf of companies, helping to protect 
companies that are facing lawsuits. You both agreed that you 
have testified in those cases.
    Now, who brings these suits? Are these people who are sick, 
people who are at risk from exposure to asbestos?
    Dr. Weill. As you can imagine, in litigation, some are sick 
and some are not.
    Senator Lautenberg. But have you, are you familiar with the 
condition of your physician and the condition of the people who 
are bringing this suit who were trying to prove that they were 
sick? Were you invited to examine these people?
    Dr. Weill. In some instances?
    Senator Lautenberg. And you found that, you testified that 
they weren't really sick?
    Dr. Weill. Sometimes yes, sometimes no.
    Senator Lautenberg. Even though other physicians said they 
were sick?
    Dr. Weill. There has been disagreement.
    Senator Lautenberg. Dr. Lemen, where do we get differences 
like this? How is that possible? Are you so blindsided that you 
think these things really relate to exposure to asbestos 
cleavage in particular, et cetera?
    Mr. Lemen. I believe, and I have been in this field for a 
long time, that when you have a respirable fiber, and if you 
look at the issues about fiber size, length and diameter, we 
see that these types of fibers get into the lung, are capable 
of causing damage. So I pointed out a particular facility, R.T. 
Vanderbilt facility, where our agency went into in the 1970s, 
where the company claimed that they were having a non-
asbestiform talc. But when we went in, we actually found two 
types of asbestos fibers in that talc, and they were above the 
OSHA and MSHA risk.
    So it lies a lot in the definition. As I say in my extended 
testimony, a lot of this depends upon getting a good 
definition. I would agree with all the panelists here that we 
need to get a good definition and come to some conclusion 
amongst ourselves of what that definition is. But as a health 
scientist, I am concerned when fibers get into the lung and 
stay in the lung and have the characteristics of asbestos 
fibers that they can cause damage. And that is where I am 
coming from and have been from that point of view for the whole 
time that I was with the Federal Government, 26 years. I still 
believe that.
    I would like to say one thing about the lawsuit. I think 
that there is a lot of concern about frivolous lawsuits. But 
there are a lot of real lawsuits. It was the real lawsuits that 
brought the attention of the asbestos issue, your friend, Dr. 
Selikoff, that I had the privilege of working with for many 
years, brought this to the attention when the Occupational 
Safety and Health Act passed in 1970, and asbestos was a major 
issue because the companies were not doing their part to 
prevent these diseases. I would end with that.
    Senator Lautenberg. I thank you very much, Madam Chairman, 
for having this hearing. I would ask that the record be kept 
open so that we have a chance to review in a little more detail 
the differences that we see, the testimony differences. I am of 
the view that with the exposure from my high school days and 
friends that I know and people who worked in New Jersey had a 
lot of work on Johns Manville in the Raybestos Manhattan, the 
shipyards and the whole thing.
    So thank you to all of the witnesses. Madam Chairman, that 
concludes my questions. Thank you for permitting me the extra 
time.
    Senator Boxer. Always happy to. And I think that gets 
really back to the heart of the matter I was trying to get at. 
I have a couple more points.
    I think the point that Senator Inhofe, whom I have great 
respect for, my Ranking Member, and my good friend, when he 
says that this is all about the trial lawyers, I don't know 
what he is thinking. We want to ban asbestos. That would put 
the trial lawyers out of business at the end of the day. So 
let's get it straight. We are going to ban it, at least in this 
committee, and we are going to get the ball rolling. That is 
going to put the trial lawyers out of business eventually. So 
that is point No. 1.
    Dr. Weill, you said it is an issue of how much risk is 
tolerable, which is something I hear a lot from people who 
always defend the folks who are pushing poison on the public, 
if you will. So how much risk is tolerable to you? Are you 
married with a family?
    Dr. Weill. Yes.
    Senator Boxer. Is it tolerable for your child to get 
mesothelioma? Would that be tolerable for you, sir?
    Dr. Weill. Of course not. And----
    Senator Boxer. Would it be tolerable if you knew the 
company knew they could use an alternative but yet you came 
home and you had asbestos on your clothes, like one of these 
guys might have done, and your child got close to you and 
breathed it in, is that tolerable? Would that be tolerable to 
you, sir?
    Dr. Weill. I don't understand the specific----
    Senator Boxer. Would it be tolerable to you if you worked 
in a place where you were exposed to asbestos, the kind you 
admit is dangerous, and your child breathed it in, and pretty 
soon she or he had some kind of asbestos-related disease and 
could die from it, would that be tolerable to you?
    Dr. Weill. No. If there is amphibole asbestos in a dose 
that is important, that would not be tolerable.
    Senator Boxer. So you would support banning this product, I 
assume?
    Dr. Weill. By banning it, we would have to define what we 
are talking about in terms of the----
    Senator Boxer. Banning a product that was dangerous, you 
wouldn't have objection to that?
    Dr. Weill. Products that are dangerous shouldn't----
    Senator Boxer. You would support that?
    Dr. Weill. Absolutely.
    Senator Boxer. Because I don't know what--that sort of 
contradicts what you said before, how much risk is tolerable, 
which indicates to me that some of the risk is tolerable. So I 
am trying to ask you, how many people a year could die from 
mesothelioma, and it would be tolerable to you, sir?
    Dr. Weill. I answered the question, though, to look at a 
certain type of asbestos in a certain dose. That is----
    Senator Boxer. Well, I am asking you a different question. 
I am asking you, how many people dead every year from 
mesothelioma would you consider tolerable?
    Dr. Weill. I would hope that none would die from 
mesothelioma. It is a personal tragedy for the families----
    Senator Boxer. So no deaths are tolerable?
    Dr. Weill. That is right.
    Senator Boxer. So that contradicts what you said, how much 
risk is tolerable.
    Dr. Weill. No, we are not saying that deaths are tolerable. 
We are saying that risk assessments are a sign in the 
scientific literature for a variety of things.
    Senator Boxer. Sir, what if the risk is 1 per 300, 1 per 
1,000, 1 per 500,000? What is tolerable? You started this. You 
said before it is a question of how much risk is tolerable.
    Dr. Weill. And I----
    Senator Boxer. You know what risk benefit means. Some 
people die. What is tolerable?
    Dr. Weill. I think that is a public policy question, not a 
question----
    Senator Boxer. Oh, OK, so you are ducking it. So you don't 
sit here and tell me, it is a question of how much risk is 
tolerable and then refuse to answer it, because that is wrong. 
That is just saying, I can testify in front of any court and 
then I can say, well, my Senator, Barbara Boxer, I am your 
Senator, oh, God, I think I lost a vote here----
    [Laughter.]
    Dr. Weill. I have a very open mind about that, Senator.
    Senator Boxer. About voting for me?
    Dr. Weill. Sure.
    Senator Boxer. OK. It seems to me, if you are going to say, 
it is a question of how much risk is tolerable, you have to 
then be prepared to answer the question. Because let me tell 
you what is intolerable, I agree with what you said, any death, 
whether it is your kid, my kid or any kid or any worker or 
anybody. And here we have Linda Reinstein sitting here, having 
lived through this experience with her husband. And here we 
have, you know, deaths going down? Doesn't look that way, sir. 
But you can take a look at it. It looks like we have lost 
10,000, and this is under-reported, from NIOSH, they admit it 
is under-reported, 10,000 since 1999, 10,000 dead. Close your 
eyes and think about 10,000 families.
    In my case, I raised my kids in Marin County. And a lot of 
those towns just had 11,000 people. So just think about what 
that means.
    So I agree with what you said, it is intolerable to lose 
anyone. I don't agree with saying, well, it's a public policy 
decision as to how much risk. I think everyone is responsible, 
if you are in this game and you are in the game, you have money 
in the game, you have to be prepared to tell me how much risk 
is tolerable.
    Was it worth Ms. Reinstein losing her husband? And maybe 
she will want to talk about--do you have a daughter? Do you 
want to talk about what it is like, to tell people who go and 
testify on behalf of the industry, please tell us what it is 
like.
    Ms. Reinstein. Are you asking me to tell you?
    Senator Boxer. Yes, I am asking you to please tell us what 
it was like for your child.
    Ms. Reinstein. I think it is really important for the 
record and I thank you for asking. Because there are hundreds 
of thousands of women just like myself, we go from wife to 
widow. Our children are raised by single parents. Emily walked 
Alan's oxygen around the house. He struggled for a year with 
chemotherapy. I stayed home lovingly to walk my husband to the 
bathroom, he was too weak. He was a brilliant businessman, a 
mountain climber and a marathoner who died a shell of a man who 
weighed 135 pounds. Emily stood there over her father's body as 
he gasped for his last breath. He got to her bat mitzvah, he 
died 5 months later.
    None of these deaths are tolerable. And the victims and the 
families want a ban and education. It is heartbreaking, Senator 
Boxer. It really is painful.
    Senator Boxer. Let me just thank you very much for that.
    I know I sounded harsh. And I feel concerned that people 
have talked themselves into a position where they are part of 
the problem and don't see it. It is not right. I don't think 
geologists should talk about what causes cancer. I don't think 
the USGS said they should and I don't think they should appear 
before here and do it and I don't think they should deny they 
got paid until they are reminded. Call me old-fashioned, I 
don't think it is ethical. I don't.
    I will just say this. The facts are in. We are going to 
have a bill. It is going to ban asbestos. We are going to do 
that. We are not going to allow this moment, this opportunity, 
to pass us by. Because if we do, we are part of the problem, 
Senator Lautenberg and I. We don't want to be part of the 
problem. I can't speak for other Senators, except I know 
Senator Isakson wants to be part of the solution.
    So let me just say to all the panelists, whatever side you 
are on, that I appreciate the fact that you came here. I know 
it isn't easy. There are some withering questions sometimes. I 
know it is emotional. I saw people in the audience with tears, 
and I know that Linda is fighting them back at the moment.
    But just think about what it will mean, the memory of your 
husband, when we get this signed, thanks to Patty Murray's 
bill, thanks to Senator Isakson for working with her. And 
thanks to the happenstance that I am holding the gavel. This is 
good. These are good things. And we can spare other people what 
you went through. And I will give it all I have.
    So I want to thank everybody on all the panels. Again, the 
Capitol workers who are here as a reminder that this is hitting 
right close to our home right here, to our family right here at 
the Capitol.
    We stand adjourned, and hopefully we will be marking this 
bill, Senator Lautenberg, in the near future. We stand 
adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]
    [Additional statement submitted for the record follows.]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    After the field hearing this committee held in Libby, Montana, this 
last April, an outraged constituent approached me to talk about 
asbestos. He didn't want to talk about WR Grace's disgraceful history 
of poisoning the town of Libby. Nor did he want to discuss the ongoing 
EPA cleanup in Libby. What outraged him, and rightly so, was that given 
all the dangers of asbestos, the heartache it has causes thousands of 
families throughout the country, and the over 200 confirmed asbestos 
disease related deaths in Libby alone, the United States continues to 
use over 2000 metric tons of asbestos every year. We here on the 
committee ought to share that constituent's outrage.
    Madame Chairman, I want to thank you for calling this hearing. It 
is beyond comprehension that after years of studies and thousands of 
deaths we are still fighting to ban this deadly substance. It is an 
affront to all those who have suffered throughout the country to not 
learn the lessons from places like Libby.
    Libby epitomizes what happens to a town devastated by the health 
effects of asbestos. As I mentioned previously, there have been over 
200 confirmed deaths due to asbestos exposure in Libby. And it is not 
only the former employees of WR Grace that have been victims. For years 
miners came home with their clothes covered in the deadly fibers. The 
WR Grace mill spewed 5,000 pounds of asbestos into the air every day. 
The entire community was exposed. This resulted in ``take home'' and 
environmental exposure on a frightening scale. According to an Agency 
for Toxic Substances and Disease Registry, asbestosis mortality in 
Libby is 60 times higher than in the rest of the U.S.
    We must learn from this tragedy and prevent asbestos exposure. We 
must prevent more asbestos exposure. We must do two things. First, we 
need to continue to fund research on asbestos and non-asbestiform 
structures as well as minerals such as erionite, richterite, and 
winchite. With a better understanding of the toxicity of these 
materials, we will be better able to protect public health.
    Secondly, we must pass Senator Murray's ``Ban Asbestos in America 
Act.'' This bill would put an end to this dangerous product that has 
been used for far too long. Senator Murray has been a champion of this 
issue, and I'm proud to have joined her as an original cosponsor of the 
``Ban Asbestos in America Act.'' This is an important piece of 
legislation, and I look forward to working with her to bring an end to 
asbestos use in America.
    We must learn from history. In Libby and across the country too 
many lives have been devastated by asbestos related diseases to 
continue asbestos use in this country. It is an outrage, an affront to 
the victims of asbestos related disease, and we ought to put an end to 
it.
  

                                  <all>

</pre></body></html>
